<html>
<title> - DEPARTMENT OF INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                  NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 ZACH WAMP, Tennessee                MAURICE D. HINCHEY, New York   
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                       
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 10
                                                                   Page
 Smithsonian Institution..........................................    1
 John F. Kennedy Center...........................................   85
 Woodrow Wilson Center............................................  119
 National Endowment for the Arts..................................  157
 National Endowment for the Humanities............................  381
 IMLS--Office of Museum Services..................................  461
 Commission of Fine Arts..........................................  477
 Advisory Council on Historic Preservation........................  495
 National Capital Planning Commission.............................  541
 Holocaust Memorial Council.......................................  559
 Presidio Trust...................................................  591
 Testimony of Members of Congress.................................  623

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-127                     WASHINGTON : 2000





                      COMMITTEE ON APPROPRIATIONS

                   C.W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
  DEPARTMENT OF INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                          Wednesday, March 8, 2000.

                        SMITHSONIAN INSTITUTION

                               WITNESSES

LAWRENCE M. SMALL, SECRETARY
CONSTANCE B. NEWMAN, UNDER SECRETARY
J. DENNIS O'CONNOR, PROVOST
L. CAROLE WHARTON, DIRECTOR, OFFICE OF PLANNING, MANAGEMENT, AND BUDGET
GENERAL JOHN R. DAILEY, DIRECTOR, NATIONAL AIR AND SPACE MUSEUM
MICHAEL H. ROBINSON, DIRECTOR, NATIONAL ZOOLOGICAL PARK
RICHARD H. RICE, JR., SENIOR FACILITIES SERVICES OFFICER

                            Opening Remarks

    Mr. Regula. Well, we will go forward with the continuation 
of the hearing we started this morning.
    This afternoon we are pleased to welcome this afternoon Mr. 
Small, the newly-named Secretary of the Smithsonian; Constance 
Newman, the Under Secretary and an Awardee, I believe--
congratulations--or soon to be; Dennis O'Connor, the Provost; 
Carole Wharton, the Director, Office of Planning, Management 
and Budget. That really sounds impressive. She is the money 
person. We need one of those up at this end. And we will hear 
from General Dailey, director of the Air and Space Museum; Mr. 
Robinson, the director of the National Zoological Park--and I 
want you to note that his tie was worn in my honor today, if 
you missed it.
    Mr. Robinson. I will take it off and give it to you at the 
end. [Laughter.]
    Mr. Regula. We farmers stick together. Believe me.
    And we also have with us Richard Rice, the senior 
facilities services officer.
    Mr. Secretary, we will make your entire statement part of 
the record, and welcome your comments and those of the people 
are with you.

                           Opening Statement

    Mr. Small. Thank you very much, Mr. Chairman. I appreciate 
very much the opportunity to be here at my first meeting of 
this type on behalf of the Smithsonian Institution.
    As you know, I am not exactly a long-timer in the job. This 
is six-and-a-half weeks now since my installation on January 
24th, but, frankly, I have enjoyed the benefit of a pretty 
sizeable overlap period of about four-and-a-half months while I 
was allegedly doing my old job at Fannie Mae but actually 
working most of the time on the Smithsonian trying to learn 
about it.
    I must say that it was a very exciting period, because I 
did not have any administrative responsibilities at the time 
but I had over 80 one- and two-hour meetings with all sorts of 
people, both inside and outside the Smithsonian. If there is 
anything I learned, it is that the Smithsonian's reputation for 
being a tremendously powerful force for good in American life 
is not only alive and well and intact but is really something 
very, very special, unique, and fundamental.
    Essentially, what I saw that people feel about the 
Smithsonian is that it is a place that really has the power to 
engage Americans in grasping what has gone into their cultural 
heritage, their scientific heritage, their historical heritage, 
and if there is anything that has inspired me, it is that by 
talking to these people I have seen how important it is to 
protect and enlarge the fundamental role that the Smithsonian 
plays.
    I think that one of the things that was made eminently 
clear to me by the Regents is that this is an institution which 
cannot be presided over. This is an institution that needs to 
be led.
    It is now at a point in time in its history where its size, 
its complexity, its reach, and the diverse nature of its 
operations really say that it has to be managed in the way any 
top-quality 21st-century organization can be managed. And, 
while it has a lot of venerable traditions that go way back to 
its founding in the 19th century, there is a lot that has to be 
done to make it a modern, fast-moving, and agile organization.
    I have been asked by any number of people who have known me 
well, and in some cases known me for the 36 years that I have 
been in institutional life, how long I am going to do this job. 
And when the Regents asked me about it, they said they wanted 
to have an indication of interest as to tenure, and they said 
they were interested in eight to twelve years, which would take 
me, if it is twelve, to seventy. And I said yes, that is what I 
was interested in doing.
    And other people then said, ``Well, if you would stay that 
long, what is it that you want to get done there? What is it 
that you want to accomplish over the course of what would be 
for you the seventh decade of your life?,'' my sixties. I have 
said very simply, ``What I would like to seedone first is to 
see the Smithsonian be able to touch significantly more lives in 
America than it touches today in terms of this role of contacting and 
connecting Americans to their cultural heritage.''
    I think that can be done in any number of ways. The first 
priority I have is the expansion of the public engagement role 
of the Smithsonian. First of all, that is going to happen here 
in Washington, D.C., by the opening of the new museums.
    We have the National Museum of the American Indian opening 
up and we have the new facility--and ``facility'' is not an 
appropriate word to describe what I believe is going to be a 
museum where the one person who is not yet on the payroll is 
going to have to be a resident cardiologist for the people when 
they have the attack when they walk in and they look and see 
what is probably the biggest room in the world with 178 
aircraft in it. I do not think there is ever going to be 
anything that will compete with this in the world. This is 
going to be spectacular, and General Dailey is going to talk 
about that. After I am done, he is going to speak on it.
    This museum is, as you know, a branch of the already most 
successful museum in the world, so I think we are going to be 
seeing attendance figures over the years that are going to 
knock the socks off everybody.
    The National Museum of the American Indian, I do not have 
to point out, is on the most valuable piece of real estate now 
left in the United States, in between the most-visited museum 
in the world, which has got 50 percent more visitation than any 
other museum in the world, and the Capitol. I think that when 
that opens up, with its fabulous collection, I do not think 
there will be a school teacher in America who would dare not go 
into it once they are here in Washington. So I think we are 
going to have millions of visitors there.
    So I believe also, with the re-opening of the Patent Office 
Building, which you have visited, and a complete retooling of 
the two institutions that are inside, so that we really start 
to build some visitation, I think that we are going to have, 
just by the force of the presence of these three institutions, 
significantly more than the 35 million visits the Smithsonian 
is getting already today.

                        SMITHSONIAN AFFILIATIONS

    The next thing that I think is really vital for the 
Smithsonian is to take itself out of Washington, D.C. I think 
that what we see in the United States is the south, the west, 
the southwest are the places where the population is expanding. 
We are also more than aware that 10 percent of the population 
of the United States is now foreign born, has not had, in many 
cases, the experience of coming into contact with the roots of 
American culture.
    We also know that the so-called ``minority'' populations of 
the country will become the majority some time during the 
course of this century. They have not been traditionally as 
strong, in terms of attendance at museums, as others.
    We also know how important the whole area of kindergarten 
through college education is.
    I think the Smithsonian has to do a lot more to reach those 
populations, and I think the way that we can reach them 
fundamentally is by taking the 139 million objects that are in 
storage out of our 141 million objects and affiliating 
ourselves with thousands, if possible, of museums around the 
United States and taking these objects and putting them on 
display and making other museums and other cultural centers 
Smithsonian affiliates.
    We already have a program that is doing this. I have yet to 
have one meeting with one institution around the United States 
that does not want to engage with us. It is a complete win/win 
proposition.
    We have the objects. New museums and old museums have the 
facilities, but they do not have what we have. The Smithsonian 
really has a lock on some of the greatest objects that have 
emerged in the history of this country.
    Mr. Regula. I was at the Presidio on Sunday and they are 
thrilled with the fact that you have a team out there looking 
to put in a sort of ``Smithsonian West''.
    Mr. Small. And the week before that I was in Los Angeles. I 
visited with the Japanese American National Museum. They would 
love to become an affiliate. I had people come to visit me 
yesterday from the governor's palace in New Mexico. They would 
love to become affiliates. And there is yet to be an 
organization that I have been in touch with that--we say, ``We 
have objects that could be of interest to you.'' They say, ``We 
like them.'' We say, ``Would you like to be an affiliate?'' 
They say, ``Can we put `Smithsonian' on the door?'' We say, 
``Yes.'' And they say, ``Terrific.''
    Mr. Regula. Yes.
    Mr. Small. And essentially it will help them with their 
ability to engage their local populations and it helps us 
become a ubiquitous presence in the United States and allows 
the people of America to see that the Smithsonian just is not 
some iconic set of buildings in Washington but also a force for 
good in their own communities.
    That can also be tied in with other resources that have 
been developed within the Smithsonian that I think are 
fabulous. For example, we already have the largest traveling 
exhibition service in the United States--40 to 50 exhibitions 
moving around the United States constantly. We get five to six 
million visitors a year in that. That is terrific for going to 
rural areas, which is very, very important. It is terrific for 
getting into certain places in inner cities where there might 
not be a museum presence.
    These are not exhibits that are hard to travel. There is no 
greater expertise in the world than the Smithsonian in moving 
them around. It is a perfect adjunct to all of this.
    Remember, also, we have a Smithsonian associates program. 
``Smithsonian Magazine'' has 2.1 million subscribers, and there 
are another four or five people a month who read each magazine, 
so we have 120 million plus instances of readership. It is the 
25th-largest magazine in the United States, as big as ``U.S. 
News and World Report.'' Those subscribers are members of the 
Smithsonian. We know where they are in the United States, and 
they take hundreds of thousands of hours of courses and trips 
of all sorts and attend speaking engagements by Smithsonian 
scholars. That can be tied into our affiliations and our 
traveling exhibition programs.
    We now have an emerging set of websites. There are over 100 
websites in the Smithsonian, with 20 million visits a year 
being paid to the Smithsonian websites. There is no reason, 
after we affiliate in--let us say the Presidio--why we would 
not take the sub-set of websites that relate to the Presidio, 
go to the school systems of that area, tie them into education 
programs set up by our education department, link all that 
together. That is another way to carry out the outreach that we 
want to have to those communities.
    If you look at the African American, Hispanic, Asian 
American, and Pacific Islander communities, there is no reason 
that the Smithsonian should not be the epicenter of those 
museum movements. I would love every African American museum, 
every Hispanic museum in the country to say the best partner 
they have helping them build is the Smithsonian, in terms of 
working with them from the curatorial and research side and in 
terms of lending them objects. We have thousands of objects 
that we can help them with.
    So I think this is the way that we can get out and get 
across America. I think it is exciting. It clearly is a win/win 
proposition. I see no down side to it. And if anyone says after 
ten years, ``What do you want to see happen in terms of public 
engagement,'' I want to see if anyone says, in 50 States in the 
United States, ``What is connecting us to our shared sense of 
national identity?'' the next two words should be ``Smithsonian 
Institution.'' That is a prime objective in terms of the type 
of outreach that we want to bring about.

                          Scientific Research

    The second area that I think is tremendously important is 
to focus in a much sharper way the scientific research activity 
of the Smithsonian. This committee well knows that there is a 
very substantial devotion of resources to scientific research 
at the Smithsonian. We have centers of excellence that are the 
Astrophysical Observatory at Harvard, which is the largest 
consumer of financial resources in the Smithsonian. We have the 
Tropical Research Institute in Panama, and then a range of 
other scientific activities.
    We have reorganized. Dennis O'Connor, who was our provost 
and is now the Under Secretary for Science, has put together a 
science division, and what I would like us to do is come up 
with a set of inspiring goals for science, understandable in 
``USA Today'' language, so that when we talk to people about 
what the Smithsonian is doing----
    Mr. Regula. Did you say that was in ``USA Today''?
    Mr. Small. No. I am saying I want ``USA Today'' language, 
the kind of language the American people read and understand, 
when they are asked, ``What is the Smithsonian doing in 
science?'' Today, when I ask Members of Congress, when I ask 
people in the general public, when I ask the press, ``What is 
the Smithsonian doing in science,'' the answer is people do not 
know.
    Mr. Regula. Well then we should have ``USA Today'' 
interview you.
    Mr. Small. We certainly should. The answer is, ``Why are 
they not doing it already?''
    Mr. Regula. I am going to suggest it to them.
    Mr. Small. I quite agree with you. And the Smithsonian 
needs a whole program to let people know what it is doing in 
science.
    You know, we have today the greatest development that we 
have ever seen in the world of astrophysics, in the Chandra x-
ray telescope that was launched on the satellite that left the 
earth last July that is sending back the sharpest images that 
we have ever had and the most significant images of deep space 
we have ever had.
    I read about the Chandra telescope and the satellite that 
went up all the time. If the Smithsonian is mentioned one out 
of ten times, it is a lot, and the Smithsonian built it and 
owns it and people do not recognize it.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Small. This is what people saw, in the night sky--
Cassiopeia. This is what people used to see, and that is all 
they thought that was there. And then, with what is being done 
on the x-ray telescope now, that is the image of what is really 
there. There is much more than people ever realized.
    Now, I am the last guy who could interpret what the detail 
of it means, but the fact is that people are learning, just as 
a result of this development, more about space than has ever 
been known before. They are learning that there are things 
there that we did not know were there at all.
    And so this is something where we have 500 people. The 
Smithsonian Astrophysical Observatory is the biggest operation 
in the Smithsonian. It was inaugurated in 1890. The third 
Secretary of the Smithsonian, who was an astronomer, put it in 
place. It is a joint venture with Harvard that has been a huge 
success. It gets a tremendous amount of funding on its own 
through grants that it competes for. We have not gotten the 
kind of recognition for it deserves.
    The same thing is true of the Tropical Research Institute 
in Panama. We are not a tropical country. A huge percentage of 
the world's biological species, whether it is plant life or 
animal life, comes from the rain forest. Our only significant 
center in the United States for studying the rain forest, and 
now our only really large government or quasi-government 
operation in Panama, is the Smithsonian Tropical Research 
Institute. That is something where people are wowed every time 
they go down there. I am going down at the end of this month 
for the first time, but I have heard nothing but good things 
about it.
    On the other hand, throughout the almost 154 years of the 
Smithsonian, there has been a great deal of scientific research 
that has been going on, and I find it hard to believe that it 
all fits into four or five highly-focused prioritized goals, 
and I think that in today's world there is no institution that 
can say it wants to do all of science. There is nobody who is 
doing a large percentage of science, because science is so 
large.
    What I have asked Dennis to do is work with our people and 
define the four or five areas where we can really say the 
Smithsonian can be the best in the world, and then build 
ourwhole approach to working on those four or five things. That is 
something we are going to try to do.

                         Administrative Systems

    The third thing that I want to make sure gets done over the 
course of the next decade is to bring the boring basic 
management systems of the Smithsonian up to a modern level.
    I spent three-and-a-half decades in the large corporate 
world, and I have never been in a place that cannot close its 
books in two weeks after the month's end. How about two months 
after the month's end? How about three months after the month's 
end?
    Now, it is all under control, from what I can see, but the 
fact is there is not a number that--everybody has got three 
different number systems for everything. The numbers are 
difficult and unwieldy to deal with, and suddenly it is 1950 
when you walk in the door.
    I would like to see a financial and accounting and 
management information system that is modern.
    Mr. Regula. Do all your computer systems within the 
Smithsonian talk to each other? Are they compatible?
    Mr. Small. Yes, but they all have to be junked pretty much 
because they are all antiquated and creaking. The good thing 
about it, you know, if you have to put in new computer systems, 
usually your big challenge is what I call ``legacy systems,'' 
how do you modify the new system so it can cope with the old 
system.
    Mr. Regula. Right.
    Mr. Small. You do not have to do that here. You can just 
throw out the old system, because everything can be thrown out. 
But, fortunately, we are in an age where systems--there is 
nothing that is complicated about the Smithsonian's financials. 
It is not like a financial institution. It just needs three to 
five years of work to get it up so it has basic systems.
    On the human resources side, this is an institution that 
has 6,500 staff and 5,000 volunteers--without whom it could not 
possibly run--and it needs to have the kind of disciplines in 
human resource management that you would find in any modern 
enterprise--management training for people who supervise other 
people, all of the basics--performance assessments that are not 
government forms that you just check boxes and hand to 
somebody, but actual meetings with people where you are saying 
to people, ``Here is what you can do to improve next year. Let 
us meet again next month and check on it.''
    All of what I have seen in that area is pretty perfunctory, 
not substantive. I would like to see that significantly 
improved.

                   Condition of Smithsonian Buildings

    And then something that we have talked about, the buildings 
that are some of the greatest buildings of the American people 
here on the Mall are, in many cases, shabby, dingy, and falling 
apart.
    Mr. Regula. What is your estimate of your backlogged 
maintenance?
    Mr. Small. I do not know all of the backlogged maintenance 
requirements. I have seen that there was something like a $250 
million number that was tossed about with this committee in 
past years. There was a $250 million number that I have seen 
from years before, but certainly I have not been there long 
enough to get it to where it ought to be.
    I did get some statistics out on something that I was 
curious about, because you start with a fundamental belief, in 
my view. Here I am talking only about the public buildings. You 
are getting almost two million people walking into the 
Smithsonian castle, almost eight million into Natural History, 
in a good year six million into American History. The Arts and 
Industries Building gets big traffic. And what I looked at were 
the numbers, and there is 3.6 million square feet of public 
space, the museum space. That is not the storage space or the 
offices.
    I looked at what we got for the last three years, and what 
we are doing in R&R. And let me preface this by saying neither 
the Administration nor this committee has really turned down 
the Smithsonian, so when I am speaking critically here I am 
speaking about us, I am not speaking about this committee or 
anyone else, because this committee has gone from $25 million 
in rehabilitation and repair money in 1995 to--we are asking 
for $62 million, and we have gotten only support.
    What I am really saying is that the levels that we have 
been requesting are not going to do the job. You walk into the 
Arts and Industries Building, and there are plastic tarpaulins 
hanging from the ceiling to protect the people going in from 
falling plaster and paint.
    Now, this is the United States of America on the Mall. We 
are giving exhibitions that are attracting people, and we are 
putting them into facilities that are dingy and dirty and 
shabby.
    The Patent Office Building that we just closed down is a 
great, great building. It was built in 1836 by the same guy who 
designed the Washington Monument and the Treasury Building. It 
is fabulous. It is not falling apart from the standpoint of the 
foundations, but some of the greatest rooms in Washington look 
awful today. They have to be fixed.
    What I would like to see our buildings do is inspire people 
as much as what is inside of them. That is what a great museum 
is all about. The Capitol, for example, is my idea of the way 
something should look when an American comes to Washington.
    It is interesting, and I got out some numbers. The 
Smithsonian Institution's public space is five times larger 
than the Capitol, but the Capitol has gotten 25 percent more 
money for rehabilitation and repair over the last three years.
    Once again, this is us asking, not anybody turning us down.
    To give you an idea of the Smithsonian's space, it is 40 
percent bigger than the Senate office buildings, but they got 
two-and-a-half times what we got over the last three years.
    Now, I am not knocking Congress, once again, because it is 
what we asked for, but the model should be----
    Mr. Regula. That is the Senate. That is okay. [Laughter.]
    Mr. Small. I understand that. You know, I just happened to 
pick it by chance.
    But the model should be the Capitol. In my view, the 
Capitol looks great. And when I walk in the Capitol, and I 
think any other American who walks in the Capitol, you say, 
``This is the way my Capitol should look,'' and that is the way 
our museums should look. And I just do not think there should 
be another answer to that.
    I understand that the Appropriations Subcommittee has to 
get money from the Appropriations Committee, the Appropriations 
Committee has got to get its money, so I do not know how to fix 
that problem. I am just telling you, in terms of my job and 
what I have to at least tell you about,is these places should 
look terrific, and they should look terrific all the time, and you 
cannot go into the greatest museum in the world, the Air and Space 
Museum, where you are getting 50 percent more people than the National 
Gallery of Art, 250,000 square feet of floor space with 100,000 square 
feet of chewing gum on the carpet. I mean, that is just not right, and 
we have got to fix those things.
    I am somewhat enthusiastic about that area.

                              FUNDRAISING

    The last thing that I would like to get done is, as you 
know, the Smithsonian had not been aggressively involved in 
private sector fund raising until the 1990s, and my predecessor 
really started a whole number of wonderful initiatives that are 
starting to pay off.
    If you look at the pace of it--I just looked at some 
numbers the other day--back in 1997 they raised $51 million, 
then in 1998 they raised $92 million. Last year, we got $143 
million, including the great, fabulously generous $60 million 
gift for the project that Jack Dailey is going to talk to you 
about. So I think this is a trend, and I am going to devote at 
least a quarter of my time to fund raising in the private 
sector because there is nothing that I would like to see done 
or myself or my colleagues would like to see done that money 
cannot fix, as long as it is properly managed. And so I am 
going to put a lot of time and effort into that, and I think 
that is moving in the right direction.
    We are also improving our business ventures, which helps us 
also. It is another way of raising money.

                            MANAGEMENT TEAM

    So, all in all, I am very enthusiastic about the prospects 
of what we can get done. I think that the management team that 
we are putting in place is an excellent one. As I said, the 
first step that we took was we formed the Science division, 
which Dennis is running. We have also, to focus on this 
national outreach, put together a division of the American 
museum programs and all of the outreach vehicles. As I think 
most of you know, Sheila Burke, who is the executive dean at 
the Kennedy School of Government and was Bob Dole's chief of 
staff when he was in the Senate, is joining us to take over 
that effort and to build linkages all across America to make 
sure that we can really do as I say in terms of becoming a 
ubiquitous presence.
    In terms of the rebuilding of the infrastructure systems, 
Connie Newman told me, unfortunately, when I first came to the 
Smithsonian, that she was once again going to start a new 
chapter of her life after eight years of great service. Connie 
is sort of like one of these jewels that we have in our 
collections at the Smithsonian--she is unique, she is 
irreplaceable, and I am very sorry----
    Mr. Moran. Not antique. You make her sound like she is 
old--she is young. [Laughter.]
    Mr. Small. I said a jewel. I did not say an antique, Mr. 
Moran. [Laughter.]
    I am not dumb enough to do that. Her office is next to 
mine.
    So we will have to try to get someone to fill that 
position, and she is helping me right now in interviewing. We 
will get that done.
    We then have another position to supervise those art 
museums that I do not think really fit within the American 
initiative, like the Hirshhorn and the Freer/Sackler and the 
African Art Museum.
    And then, finally, we have a business division.
    So I am enthusiastic. I think we have got a great deal to 
accomplish, and I do not see why we cannot accomplish it as 
long as we put our noses to the grindstone and work on it real 
hard.
    We really appreciate everything that this committee has 
done for the Smithsonian, and I do not want anybody to 
misinterpret my comments about space as anything other than 
saying we are not doing our job in making the case yet to get 
the funds that we need to make the space be what it should be.
    Mr. Regula. Well, thank you.
    [The statement of Mr. Small and biographies follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     SMITHSONIAN SCIENCE ACTIVITIES

    Mr. Regula. It is an exciting concept.
    I think what we will do is ask questions now. I would hope 
that if we give the Members a little more time we will get a 
few more to hear the Dulles report, because that is an exciting 
new project.
    I have just one question for you, Mr. O'Connor, and that 
is, What are some of the exciting scientific activities that 
you are doing? And, with that, what kind of educational 
outreach do you have to share this with universities, colleges, 
high schools, whatever the case might be?
    Mr. O'Connor. Mr. Chairman, I think the Secretary took 
certainly one of the very exciting pieces and has already 
presented it.
    Mr. Regula. Did I hear him correctly that there are 500 
people working at SAO?
    Mr. O'Connor. At SAO. Right. Not on that one project. On a 
whole variety.
    Mr. Regula. That is what I understand.
    Mr. O'Connor. Our astrophysics group is certainly very 
exciting. We do perform research that has a very dramatic human 
impact. For example, last summer, when it was recognized that 
in New York City and in other eastern states there was a rather 
significant death of birds, it was attributed to what was 
thought to be a St. Louis encephalitis virus, and when we 
received some of the materials and developed the software 
program to analyze what the virus really was, it turned out to 
be a West Nile virus. It is the first time it has ever been in 
the United States. It has dramatic public health implications, 
and was identified through the Natural History Museum's 
Laboratory of Molecular Systematics and USDA, and it has been a 
big help up in the New York and Connecticut area in screening.
    So we go from astrophysics to viruses. We also have had an 
impact, I think, in the agricultural systems in many of the 
States around the east coast. Virginia and Maryland have passed 
statutes that are based on our research that is done at the 
Smithsonian Environmental Research Center out in Maryland, the 
Chesapeake Bay, in which we have discovered that, if streams 
that feed directly or once removed into the Chesapeake are 
lined with trees and vegetation, they are able to take out a 
lot of the contamination that otherwise would end up in the Bay 
and affect both the fishing industry, the oyster industry, etc.
    So that kind of activity is ongoing in the Natural History 
Museum, at the Smithsonian Astrophysical Observatory, and in 
our environmental research groups, both in Panama and in the 
Chesapeake Bay.
    We do have educational programs associated with all of 
these activities. Both the Smithsonian Office of Education and 
the individual units that I mentioned develop curricular 
packages. They are put up on the web. And I say ``put up onthe 
web'' if, in fact, we can get the dollars to do the kind of programming 
that will get them up on the web. That, in fact, is one of the requests 
we are giving to you this year, to make both the collection and 
educational material available over the web. It is certainly consistent 
with the Secretary's desire to move stuff out across the country into 
different venues.
    We would like to do that in both an organized way--that is 
to say, a curricular package that teachers can just tie into--
and also in a collections manner such that the collections can 
simply be put up and teachers can pull down what they would 
like to use, rather than necessarily to pre-digest it.
    So the research activity does feed into the educational 
outreach. I am reminded that one often is quoted as saying that 
the research activity is to our educational outreach much like 
sin is to confession--if you do not do one, you have nothing to 
say in the other. [Laughter.]
    Mr. Regula. I will have to think about that one.
    Mr. Small. One of the things that I saw that I was very 
excited about, when I went to the Smithsonian Astrophysical 
Observatory, I was on the roof with their education department, 
and what they have there--I mean, this is a really neat thing. 
There was a young, attractive scientist. There is a set of 
telescopes they have there. What can happen is school districts 
can call in, teachers can call in and say, ``I want to have 
this block of time for my kids to get their individual shots of 
the moon,'' and they then get hooked up right through the 
Internet to them, and they can, as they are writing reports on 
astronomy, they are plugged right in, through the Internet, to 
the number one astrophysical center of the world.
    What they need to do is make it accessible to school 
systems, not just individual students.
    I think, as you look at the kind of things that they are 
working on, the scientists all are fundamentally education 
oriented. And if you bring a template to them that says, ``Here 
is the way you can get to affect many more people,'' and help 
them so that they can package things, they will be able to do 
much more outreach.
    Their basic thinking is they are not marketers, they are 
researchers, and so they have to be helped to be able to 
disseminate the knowledge that they have. But there are great 
opportunities for it.

                          DEATH OF TWO ZEBRAS

    Mr. Regula. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Small, welcome, sir.
    Mr. Small. Thank you.
    Mr. Nethercutt. Ladies and gentlemen, I am glad to have you 
here again. I enjoyed our discussion this week with respect to 
your new position and your appearance before this subcommittee.
    I really am enthused about the plans that you all 
collectively have, and you, as the Secretary, sir, are bringing 
to the Smithsonian. I especially like the idea of using some of 
the exhibits that are currently in storage to be traveling 
exhibits--in other words, get those artifacts and treasures, as 
they may be in storage in the Smithsonian system, out among the 
people, and especially rural communities like my own that I 
think so highly of. I think it would be so much appreciated. 
Our American Indian heritage, for example, is very strong in my 
part of the country.
    I think those are great ideas, and I am excited to see them 
developed.
    I want to ask a question about the Zoo and those two zebras 
that perished and get a sense of what happened.
    I saw in my own newspaper out in Spokane, Washington, a 
report about these two zebras that died. There was a heat 
question, but there is also a question of nutrition and lack of 
protein, and I am not sure what else.
    I am wondering how that could happen and what we have done 
to be sensitive about it. These are treasures, animal 
treasures, that we hate to lose, and it seems that it may have 
been prevented, but I do not know that and I thought I would 
see what you all had to say about it.
    Mr. Small. We obviously have the Zoo director here, but 
basically, in terms of my own investigation and reading of 
internal matter on it, I think the press report was pretty 
accurate. I think you could characterize it as a certain degree 
of human error in the management of this process.
    These zebras have normally been a pretty hearty species, 
but it turns out, in the case of these two, where there was a 
temperature drop, first of all they did not have enough body 
fat, and that was as a result of a diet change that had taken 
place by one of the people taking care of them, because they 
had been concerned about the animals becoming overweight. In 
the change in diet, they actually produced a situation where 
they were underweight.
    Most of them are able to survive down to a little below the 
freezing temperature level, but in the case of these two 
animals there was not enough heat around and they were not 
strong enough, simply, to survive.
    It would appear--nobody knows, since it is the blinding 
light of hindsight--that, had more aggressive precautions been 
taken in terms of the amount of heating, amount of hay bedding 
that they lie on, because that helps keep them able to retain 
heat better, and had their diet had a higher fat content, then 
it may well have been avoided.
    So all of the measures that need to have been taken to 
remedy that, plus very strong words to the staff about the need 
to stay on top of this, have all been taken. That is a very 
unfortunate incident.
    Mr. Nethercutt. Do you have enough people? Do we have 
enough monitoring systems? Do we have enough sensitivity about 
perhaps the sensitive nature of these animals in a new climate? 
Do you have enough to do the job?
    Mr. Small. My understanding--the Under Secretary for 
Science can answer this, but my understanding is that this is 
one of the great zoos of the world that has a marvelous record, 
so this is clearly something that was deemed to be an 
unsatisfactory occurrence, but it is not a place where there is 
any lack of professionalism or dedication of resources to the 
safety of the animals.
    I can tell you that the Zoo staff was devastated by this.
    Mr. Nethercutt. I am sure they were.
    Mr. Small. And their concern for the animals in their 
charge is just paramount, but mistakes do, unfortunately, 
happen from time to time.

                 NATIONAL MUSEUM OF THE AMERICAN INDIAN

    Mr. Nethercutt. One quick question. We have a vote, and I 
do not want to take too much time. You and I talked about the 
National Museum of the American Indian.
    Mr. Small. Yes.
    Mr. Nethercutt. And we have talked about the problems that 
have occurred along the way.
    Mr. Small. Yes.
    Mr. Nethercutt. I do have some questions that I will submit 
to you for the record, given our shortness of time.
    But can you just, in a short summary, assure the committee 
that the construction is proceeding on time and budget, that 
you do not anticipate any fall-out from the architect problems 
that occurred?
    Mr. Small. Right. At this point in time we have an approved 
plan, we have the ground broken. We have had the ground-
breaking ceremony. We are moving ahead, and I do not foresee 
any obstacles.
    Like any other construction project, you never know what is 
going to happen, but I do not see any strategic or conceptual 
obstacles in the way.
    I know there was a brouhaha over the architect. As far as I 
am concerned, that is behind us now and we are moving ahead 
with it.
    Mr. Nethercutt. I will submit some questions for you to 
answer for the record.
    Mr. Small. Right.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Regula. I hope all of you come back after the vote, 
because we want to talk about the Air and Space Dulles project. 
Are there any of you that cannot come back that want to get a 
question in?
    [No response.]
    Mr. Regula. We are going to have to recess. We have two 
votes, so it will probably be about 20 minutes or so.
    The committee will recess until we finish the voting.
    Mr. Moran?

                         PATENT OFFICE BUILDING

    Mr. Moran. Thank you, Mr. Chairman.
    Let me just get on the record your perspective and response 
to the issue with regard to the old Patent Office Building. A 
number of us, as you know, have been approached by people, 
particularly those concerned that the Portrait Gallery was 
going to lose space to the benefit of the American Art Museum.
    I have had the benefit of your briefing, but I think it 
would be useful to share it with the committee and get it on 
the record, if you could summarize the principal reasons why 
you think that the compromise made sense and should go forward 
at this point.
    Mr. Small. Just by way of background, the old Patent Office 
Building, as it is called, is the place that has been shared by 
the National Portrait Gallery and the National Museum of 
American Art. Essentially, they have had, in round numbers, 
about 100,000 square feet of exhibition space that they have 
shared in the past, and that space was split up, 60 percent allocated 
to the National Museum of American Art and to the National Portrait 
Gallery, 40 percent of that space.
    A plan had been developed under the previous Secretary to 
expand the gallery space available to the public in that 
building by moving out the staff for offices and other 
functions to a new building that has been purchased just up the 
street from it called the ``Victor Building,'' which allowed 
now for space to be freed up in the building for more 
exhibition space.
    In evaluating how to split up the incremental space, the 
Secretary decided that he would give more of the new space to 
the American Art Museum than to the Portrait Gallery, so that 
the split ended up being 65 percent American Art, 35 percent 
Portrait Gallery, with both of them having more exhibition 
space than they had before, but with three-quarters of the new 
space being given to American Art rather than the Portrait 
Gallery on the basis of the concept being that American Art, as 
a topic, is broader than just portraiture, and that many of the 
pieces of American art are larger than the portrait pieces, and 
that the collection of American art is more than twice as large 
than the collection of the Portrait Gallery.
    That decision he made before I came in, and, very frankly, 
on a broad-brush basis, it is a perfectly reasonable decision.
    What I have discovered is that the real issue is that 
nobody goes to the building, and that, of all the buildings in 
the Smithsonian, here is a building that is 100,000 square feet 
of exhibition space. We get fewer than 400,000 people there.
    If you go over next to Union Station in the basement under 
the Post Office, there is 22,000 square feet of exhibition 
space in the Postal Museum which gets 500,000 people.
    Go to New York City in Lower Manhattan, where nobody in his 
right mind would go to a museum, and you have the National 
Museum of the American Indian on the second floor of the Custom 
House with 15,000 square feet of space, one-sixth; they get 
600,000 people going to it.
    So the fact is we have an issue of how is this place 
running. And what I am going to be doing is we are bringing 
into the Smithsonian a woman named Carole Neves, who was with 
the National Academy of Public Administration. She is going to 
be reporting to me as the director of policy and analysis. We 
are going to go to work on looking over this whole area and 
deciding what is the best thing we ought to do going forward 
with it.

                       PEQUOT TRIBE CONTRIBUTION

    Mr. Moran. Just very quickly, do you have a figure for how 
much has been contributed to the American Indian Museum from 
the gambling profits that the Native American community has 
generated?
    Mr. Small. From the Pequot Tribe there is a $10 million 
contribution that was made.
    Mr. Moran. A $10 million pledge, right?
    Mr. Small. Yes, pledge.
    Mr. Moran. All right, with that----
    Mr. Regula. I think we are down to eight minutes, so I 
think we should probably better recess for the votes. We will 
be back.
    [Break.]

                       SMITHSONIAN REORGANIZATION

    Mr. Regula. Okay. We will get started and back on track 
here.
    I think, Mr. Dicks, you are up.
    Mr. Dicks. Thank you.
    I am very glad to see you here for your first time to 
testify, and I appreciate very much what you are trying to do 
at the Smithsonian, particularly in the leadership area.
    As I understand it--and you may have touched on this in 
your opening remarks--you have created divisions?
    Mr. Small. Yes.
    Mr. Dicks. Why don't you tell us something about that.
    Mr. Small. We have created five divisions.
    Before this reorganization, the way the Smithsonian was 
organized, it was basically divided into two broad areas--one, 
the administrative area, headed by Under Secretary Newman, and 
then the other headed by a provost, which is quite similar to 
what you would see in a university, which had, I think, maybe 
35 direct reports. There were at least 35 different departments 
being overseen by Dennis O'Connor, the provost.
    My own feeling is that, in terms of the way that I would 
like to see the Smithsonian run, with a greater degree of 
individual accountability for specific objectives, that 
structure was not one that was likely to work.
    So what we have done is divided the Smithsonian up into 
five divisions. The first is the science division, which has 
the functions that are basically scientifically oriented, and 
there will be an Under Secretary for Science, who will be Under 
Secretary O'Connor.
    Then there is a division that has all of the various 
elements of the Smithsonian that relate to the American 
experience, to connecting Americans to the American heritage. 
We call that ``American Museums, Programs, and National 
Outreach,'' and that is the one that Sheila Burke is coming to 
head up from the Kennedy School of Government at Harvard 
University.
    A third position is fundamentally analogous, quite similar 
to the one that Connie Newman currently has, which is the 
general counsel, the chief financial officer, the chief 
information officer, the administrative functions related to 
the buildings and the security of the Smithsonian.
    Then there is a fourth, which are the three museums which 
are international in focus, the Hirshhorn Museum, the Freer and 
Sackler Galleries, and the African Art Museum, which we have a 
position supervising, as well. I am still looking for the right 
person for that.
    And then, finally, Smithsonian Business Ventures, which is 
headed by Gary Beer, who was brought in last August to the 
Smithsonian to run a division including the mail order 
activities, the gift shops, the restaurants, and the various 
concessions that we have.
    So those are the five divisions. Each one of the division 
heads, if you will, will be accountable for specific results 
that will tie into the achievement of the missions that I have 
outlined.
    Mr. Dicks. Are you going to do a new strategic plan?
    Mr. Small. Yes.
    Mr. Dicks. And the last one, as I understand it, was 
approved in 1997, but you are going to do a new one based on 
your reorganization?
    Mr. Small. Definitely.
    Mr. Dicks. Are there other changes that you have in mind 
besides those two?
    Mr. Small. I think the changes fit into the overall mission 
that I have described, dramatically enhancing the ability of 
the Smithsonian to engage with the American public, on the one 
hand, through the various initiatives that I have outlined, and 
then the other, to focus our activities in scientific research 
so that we really can build a series of centers of excellence 
that are known throughout the world. They would all be changes 
that relate to achieving those dual missions.

                       HEALTH OF THE SMITHSONIAN

    Mr. Dicks. Could you give us your general view of the 
health of the Smithsonian as you take over and the extent that 
you feel that--I assume these changes that you have already 
made were things that you wanted to do, but give us your 
general view of the health of the Smithsonian.
    Mr. Small. I think the Smithsonian is very healthy from the 
standpoint of, first, having an overwhelming amount of public 
sentiment in both the public sector and the private sector on 
behalf of the American people, so as to its reason for its 
existence, people love the Smithsonian.
    As I have talked to Members of Congress, talked to people 
in the private sector, talked to people who come to the 
museums, it has overwhelming support for it. So I think that is 
the first indicator of great health.
    Secondly, it is completely financially sound. It has a 
substantial endowment of close to $700 million. It has a small 
amount of debt. It meets its budget obligations every year so 
that there is nothing that is out of control.
    Thirdly, it is enormously popular from the standpoint of 
what it does. I outlined before the statistics of visitation. 
There is no institution of America that comes close to 
connecting to the American people in terms of tying them into 
their heritage that is comparable to the Smithsonian, so it has 
the kind of service component that is required.
    I do think, on the other hand, that there are many aspects 
that require improvement. As I indicated, many of its buildings 
are dingy, shabby, and in need of enormous amount of repair and 
refurbishment. Many of the systems are antiquated, archaic, and 
not terribly functional in terms of 21st century standards. And 
I think many of the exhibits are tired, old, and not compelling 
particularly to a young person today. There are quite a number 
of exhibits that are 25 or 30 years old, and, frankly, they are 
not attracting people, they are not inspiring people, and they 
are not educating people, and so they are going to have to be 
changed.
    So I think there are a lot of things to be done, as you 
would expect in an institution that is 154 years old, but they 
are all constructive things. They are positive things. They are 
things that are going to enable us to carry out our mission 
better. So I do not view any of it negatively.

                             REPROGRAMMING

    Mr. Dicks. Now, you mentioned in your statement that you 
are going to make a submission to Congress to revise your 
budget for 2001.
    Mr. Small. Yes.
    Mr. Dicks. And do you have a time in which you are going to 
do this?
    Mr. Small. I do not know what the statute--over the next 
few months, if that is the amount of time. Since this budget 
was prepared before I even arrived, I would like to shape 
itmore to the priorities I have indicated, and so----
    Ms. Wharton. We will probably be reprogramming in the base.
    Mr. Dicks. In the base?
    Ms. Wharton. Right.
    Mr. Dicks. Okay. So, now, is your base something that is 
reported to the Congress, or is that done----
    Ms. Wharton. Yes.
    Mr. Dicks. It is? Is it in line items?
    Ms. Wharton. Yes.
    Mr. Dicks. Great. So you would have a major reprogramming 
that would be submitted to make the changes that the Secretary 
wants to make.
    Mr. Small. I may be seeking to move more money in the 
direction of the national outreach campaign, so we have more 
money going into what we can do moving out of Washington.
    Mr. Dicks. When do you think that will be done? When will 
this reprogramming come up? It would be before we mark up, I 
would hope.
    Ms. Wharton. Yes. It should be.
    Mr. Dicks. April----
    Ms. Wharton. Well, I do not know when you mark up, but if 
it----
    Mr. Dicks [continuing]. May or June, probably.
    Ms. Wharton. So I would say within a month, six weeks, we 
could do that.

                PUBLIC AWARENESS OF SMITHSONIAN SCIENCE

    Mr. Dicks. Let me ask you another question. How well aware 
do you think the public is of the science activities of the 
Smithsonian?
    Mr. Small. None.
    Mr. Dicks. And do you think more needs to be done to inform 
people?
    Mr. Small. A tremendous amount, and I do not see why it 
should be any problem whatsoever if we have a concerted 
program. I have a proposal on my desk from our external affairs 
activities to do just that.

                          OUTREACH ACTIVITIES

    Mr. Dicks. I may have missed this when I was not here, but 
tell me a little bit more about your external activities 
agenda.
    Mr. Small. You mean the outreach activities?
    Mr. Dicks. Yes, your outreach activities.
    Mr. Small. I would like to see us become known as a local 
presence in all 50 States. And I would like to do that by 
putting objects--since most of the objects in the Smithsonian 
are stored away and invisible to the public, I would like to 
develop hundreds, if not thousands, of relationships with other 
museums and cultural institutions around the United States so 
they would become affiliates of the Smithsonian and display 
Smithsonian objects.
    They can do a better job, as local institutions, and we can 
develop a presence and a sense among the members of the public 
that we are doing something not only for them in Washington but 
doing something for them in their communities.
    There is not a person in this room who comes from another 
place other than Washington who does not have a local 
institution that could not benefit in some way by an 
association with the Smithsonian, and I want to build those 
relationships.
    Mr. Dicks. How long do you think that will take to do?
    Mr. Small. We have got 139 million objects----
    Mr. Dicks. Will it take a lot of money? Is it outreach?
    Mr. Small [continuing]. In storage, so----
    Mr. Dicks. I mean, we have got the material, but----
    Mr. Small. It will take----
    Mr. Dicks [continuing]. You are going to have to get people 
to know what is there.
    Mr. Small. Sure.
    Mr. Dicks. And develop the relationships.
    Mr. Small. There is a program in place already.
    Mr. Regula. If you will yield?
    Mr. Dicks. Yes, I would yield.
    Mr. Regula. I think it would be a nice idea to submit 
something to every Member of the Congress that they could slug 
into a newsletter.
    Mr. Small. Sure. As I have met with Members, I am sending 
things to them.
    Mr. Regula. I suspect that our own colleagues are somewhat 
limited in their knowledge of the institution.
    Mr. Small. Sure. We can get out all 535 packages with no 
problem at all. The only problem that we are going to have is 
that as--what I have noticed is that, as soon as I approach or 
talk to an institution and say, ``Would you like to do this,'' 
they say yes, and so our own issue is going to be just staffing 
this up and moving----
    Mr. Dicks. Right.
    Mr. Small [continuing]. The money to it to be able to 
service.
    Mr. Dicks. You have to kind of assess what you have.
    Mr. Small. Exactly right.
    Mr. Dicks. And what you want to allow the affiliates to 
use.
    Mr. Small. Right. And, not only that, but then there are 
conversations back and forth and they have to decide on how 
they are going to ship stuff and how they are going to display 
stuff and how it is going to be taken care of.
    Mr. Dicks. Right.
    Mr. Small. So each one of these is a relationship.
    Mr. Dicks. Yes.
    Mr. Small. And it is going to take a lot of work.
    We have right now a total of 28 of these that have been 
signed as agreements, and there is a whole pile in the works 
right now. But to build this into what I foresee, which is 
hundreds and hundreds and hundreds, it is going to take years 
to do it properly and to reorient the spending of the 
Smithsonian so it is more of a service organization dealing 
with thousands of museums around the country. It is going to be 
a big task. But I do not see why it is not doable.
    The idea that you could have a lot of these objects just 
sitting in dark rooms in cases and not seen by anybody does not 
make any sense to me at all.
    Mr. Dicks. I think that is a great idea, and I think 
Members of Congress would be very supportive of that. They 
would like to see their local museums displaying objects from 
the Smithsonian. I think it would be very popular.
    Mr. Small. And every organization we have talked to says, 
``We would like to have Smithsonian signage here that says we 
are an affiliate of the Smithsonian. It will help us with our 
fund raising.'' When they go out to local donors, if they get 
the stamp that they are related to the Smithsonian it is 
helpful to them.
    Mr. Dicks. Sure.
    Thank you, Mr. Chairman.
    Mr. Regula. You are welcome.

                 NATIONAL MUSEUM OF THE AMERICAN INDIAN

    I was hoping other Members would come back, but I will ask 
a few more questions and then we will go to General Dailey.
    Last year we were told that the five-year schedule for 
moving the Indian collection from New York would be 
accelerated. Have you made any progress toward achieving this 
goal?
    Mr. Small. Do you know the numbers for the move?
    Mr. O'Connor. The numbers are, I think, 1,400 objects a 
week.
    Mr. Regula. You are in the process right now?
    Mr. O'Connor. We are in the process of moving that many 
down each week, Mr. Chairman.
    Mr. Regula. And have all the legal difficulties associated 
with terminating the contract with Geddes Brecker Qualls and 
Cunningham, and Cardinal been resolved?
    Mr. O'Connor. Yes, sir.
    Mr. Regula. All of that is settled now. Okay. Did you incur 
any significant costs during the final resolution?
    Ms. Newman. Well, we got money in the settlement.
    Mr. Regula. You did?
    Ms. Newman. Yes.
    Mr. Regula. Is the Museum of the American Indian on the 
Mall on schedule and within the original budget?
    Mr. O'Connor. It might be a couple of months behind, but it 
is marginal.

                     SMITHSONIAN EDUCATION PROGRAMS

    Mr. Regula. Okay. I have a lot of questions for the record, 
but I wonder if Mr. Hinchey has any questions that he would 
like to ask of the Secretary.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for being here. It is a 
pleasure to listen to you. And one cannot listen to you without 
being excited once again about the Smithsonian and all the 
wonderful opportunities it offers. I am absolutely convinced 
that it is going to benefit enormously from your leadership, 
and it already has, so we are all very excited about that and 
looking forward to it.
    It is a great institution, as you have said many, many 
times, and it, to me, is sort of the face of the Government or 
the face of Washington to most of the people around the 
country. One of the first things that people want to do is 
either go to the Capitol Building or to the Smithsonian 
museums. Most people just make a beeline right there. And the 
Air and Space Museum, of course, is the one that gets the most 
attention, but the other buildings, as well.
    Like you--and I would say in spite of the great efforts by 
the chairman of this committee--I do not know how, frankly, it 
has been done. I am only a new member of this subcommittee. It 
is only my second year here. But the concentration on the 
backlog of maintenance that the chairman here has focused on 
and is trying to eliminate is a herculean effort. It really is 
like cleaning out the stables.
    Mr. Small. A pretty accurate description. [Laughter.]
    Mr. Hinchey. It just sort of, you know, popped into my 
head. As I was saying it, I said, ``It really is very apt.''
    In any case, it is a wonderful institution, but when you 
walk through some of those buildings you cannot help but get 
the sense of antiquity, not just from the displays, but from 
the buildings and the surroundings, themselves. That is not, I 
think, what we want to see.
    I am very excited about your initiatives, the things you 
want us to do. I know that, under the leadership of our 
chairman, we are going to play a very important role in helping 
you to achieve the things that you want to do.
    I wonder if you or someone else at the table could talk a 
little bit more about your outreach programs, particularly the 
education programs, because I know that some of the things you 
want to do involve education in a real hands-on way to schools 
across the country. I would be interested in hearing for the 
record some of the exciting things that are being proposed and 
planned with regard to education, and particularly at the 
elementary and secondary school levels.
    Mr. Small. Dennis, you have been working on it. Go ahead.
    Mr. O'Connor. Mr. Hinchey, one of the really exciting 
programs that we have has developed in collaboration with the 
National Academy of Sciences over the past five or six years, 
and it is a K-8 science outreach program in which there are now 
32 science units, ranging from electricity to gravity to all 
sorts of physics and life sciences, and, in order to get the 
program, the school district has to attend an orientation 
meeting in the summer with the principal, the superintendent of 
education, and a corporate sponsor, who will then be able to 
purchase the materials that go into the science program.
    Right now, we are present in about 30 percent of the school 
districts across the United States.
    What we will now begin to do is to complement that 
presentation that is in the classrooms of 30 percent of the 
school districts together with a web presence, hopefully in 
about the next 18 months. So the teachers will have the magnet 
demonstration that will take two weeks to go through in their 
classrooms. They will be able to enhance that by going on the 
Internet.
    Mr. Hinchey. Where would one attend these meetings?
    Mr. O'Connor. Up until about two years ago, most of them 
were here in Washington. Now we are doing them regionally so 
that the costs of getting to the meetings has been reduced 
markedly.
    Mr. Cramer. How are those announced?
    Mr. O'Connor. Letters are sent out to school districts 
across the United States, and the responses have been brought 
back into the Smithsonian.
    Mr. Hinchey. And the corporate sponsor is an essential part 
of it because they have to provide some of the financial 
resources that are essential?
    Mr. O'Connor. Exactly right, because what we are trying to 
do is to get this program into areas that probably are less 
well served.
    Mr. Hinchey. And what would be the size of the contribution 
that would be expected from the corporate sponsor?
    Mr. O'Connor. I would have to get back to you on that, Mr. 
Hinchey. I can do that, but it really is dependent on the size 
of the participation of the school district. So if it is the 
whole school district, obviously it is more than if they are 
doing it with just a couple of pilot schools.
    I will get that information back to you.
    [The information follows:]
              Corporate Contributions to School Districts
    Corporate contributions to school districts to improve elementary 
school science education in their company towns have varied. Most of 
the corporations the Institution has worked with have offered financial 
support to their local school districts for initial implementation 
expenses (like the initial purchase of science kits or to underwrite 
introductory teacher training workshops) but have required school 
districts to make a commitment to providing long-term budget support 
for science kit refurbishment and professional development for 
teachers.
    Some examples follow:
    Hewlett Packard has provided $30,000 per district per year for 3-5 
years to 21 school districts located near HP plant sites in California 
and Colorado.
    Dow Chemical has provided $50,000 to $60,000 per district per year 
for four years to some 40 school districts located near Dow Chemical 
plant sites in Michigan, California, and Texas.
    Bayer (formerly Miles Inc.) has provided similar support to over 30 
school districts located in western Pennsylvania and Indiana.
    Merck, through the Merck Institute for Science Education, is 
providing similar levels of support to a consortium of school districts 
located in northern New Jersey and eastern Pennsylvania.
    Bristol Myers-Squibb is providing $75,000 per district per year for 
five years to districts located in New York, eastern Pennsylvania, and 
northern New Jersey.
    Dupont has provided sufficient funds for materials and teacher 
training to implement the science curriculum, called ``Smithsonian 
Science,'' in all of the elementary schools in Delaware. Dupont has 
provided the financial support required to establish a science 
materials processing center to refurbish all of the science kits used 
throughout the state. Dupont is now moving to expand this program to 
provide support to school districts located near Dupont plant sites in 
South Carolina and Virginia.
    Lucent has recently made a commitment to provide $30,000 per 
district per year to improve elementary science education in nine 
school districts located near Lucent plant sites.

                          Scientific Research

    Mr. Regula. Mr. Cramer?
    Mr. Cramer. Thank you, Mr. Chairman. And thank you for 
letting me barge in on your issue, but that was fascinating to 
me.
    I want to say, as well, Mr. Small, you have got quite a 
chorus of supporters here, and I want to add mine to that, 
which is why I came back here. I appreciated your visit to my 
office and appreciated the update you have given me.
    I want to welcome General Dailey on board, as well.
    Part of my questions were going to speak towards science 
research in connection with NASA, and especially with your 
involvement in the Chandra Observatory.
    Would you give me just some brief information about that?
    Mr. Small. I think I am going to yield to the Under 
Secretary for Science, who is more knowledgeable than I.
    I have visited the Smithsonian Astrophysical Observatory, 
and it is something that has been around since the turn of the 
century and a real center of excellence.
    With the Chandra, there is a whole series of activities 
that relate to the design of this and fabrication of part of 
it, but you might want to elaborate more.
    Mr. O'Connor. General Dailey can also elaborate on it, too, 
since he was at NASA at the time of the launch, which was July 
23, 1999.
    When Chandra was deployed, the detectors in the satellite 
were manufactured by the Smithsonian Astrophysical Observatory, 
and it is now being managed up in Cambridge.
    Chandra is telling us a great deal about the origin and the 
fate of the cosmos, and it has a really highly-visited--I think 
since July there have been 25 million hits on the Chandra 
website, and it has some remarkable photographs.
    I am not sure, Congressman, whether you were here when the 
Secretary presented these photographs, and so I will let him 
present them again, since he does it so well.
    Mr. Small. That is, through an optical telescope, what you 
could see of the Cassiopeia----
    Mr. O'Connor. Cassiopeia A is a super nova that exploded 
about 300 years ago. That is the remnants that are visible in 
the evening sky.
    Mr. Cramer. Three hundred years ago?
    Mr. O'Connor. Three hundred years ago.
    Mr. Small. The white spots are the light that you are 
seeing. This is what the Chandra tells you is really there. 
That is because that is detecting x-ray energy as opposed to 
just optical waves.
    So what the Chandra is able to do now is to make visible, 
if you will, if you use the term ``visible'' and apply it to x-
rays, to detect the existence of gasses and matter that 
heretofore have been undetectable.
    Mr. Hinchey. The second picture is actually the star 
exploding?
    Mr. Small. That is the material that is there.
    Mr. O'Connor. What you see there, sir, is the 
representation visually of x-ray density, high-energy x-rays 
emanating from what was a super nova.
    Mr. Small. At any rate, what this is doing is it is just 
expanding scientific knowledge of what the universe really came 
from and where it is headed at a level that heretofore we did 
not have.
    When we first started observing the heavens, it was all 
done optically, and people have then moved into radio images 
and into infrared images and then ultimately these x-ray images 
and detecting another source of energy, which just tells us 
more about what is there. Essentially, that is the start of all 
science, and maybe it may well be the end of it, too, at some 
point.

                          Educational Outreach

    Mr. Cramer. The K through 12 program that you were talking 
about, what is the name of that program?
    Mr. O'Connor. It is the National Science Resources Center 
program in K-12 education. If you would like, sir, I would be 
happy to get material.
    Mr. Cramer. I would like some more information.
    Mr. O'Connor. Absolutely.
    Mr. Cramer. And how many school systems participated in it.
    Mr. O'Connor. Absolutely.
    Mr. Cramer. And some range, much like my colleague was 
asking, of the amount of money that corporate sponsors have to 
put up.
    Mr. O'Connor. Sure.
    [The information follows:]
National Science Resources Center Leadership and Assistance for Science 
                      Education Reform Initiative
    The National Science Resources Center (NSRC) launched the 
Leadership and Assistance for Science Education Reform (LASER) 
initiative in 1998 to help prepare school districts and community 
leaders to plan, implement and sustain effective science education 
reform efforts for levels K-8. Collaborating with the NRSC in this 
major undertaking are educators and scientists from eight regional 
sites, which include Alabama; South Carolina; Rhode Island; 
southwestern Pennsylvania; Oklahoma; Orange County, California; 
Washington state; and a tri-state consortium including New Jersey, 
eastern Pennsylvania, and southern Connecticut.
    The National Science Foundation and the Smithsonian Institution are 
providing major support for the five-year LASER initiative. Additional 
support is provided by a combination of registration fees paid by 
participants in LASER events and contributions from industrial 
corporations, philanthropic foundations, and publishers. Corporate and 
philanthropic contributors through March 2000 include:
                                                                 Dollars
Bayer Foundation..............................................    30,000
Bristol-Myers Squibb Foundation...............................   250,000
Dupont........................................................    50,000
Lucent Technologies Foundation................................   150,000
Merck Institute for Science Education.........................    60,000
Pfizer Foundation.............................................    50,000
Robert Wood Johnson Foundation................................   150,000
Shell Oil Foundation..........................................    30,000
Carolina Biological Supply Company............................   150,000
Delta Education...............................................   150,000
Lab-Aids, Inc.................................................    25,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Current Total............................................. 1,095,000
    The LASER initiative holds six week-long Strategic Planning 
Institutes each year to prepare leadership teams from school districts 
located in the LASER regions to develop five-year strategic plans for 
K-8 science education reform. The school district leadership teams 
typically include a school district superintendent, the district 
science coordinator, two teachers, and a scientist or engineer from a 
local university, industrial corporation, research lab, or museum.
    Total costs incurred by the NSRC for a five-member leadership team 
to attend a LASER Strategic Planning Institute are approximately 
$14,000 including travel and accommodation expenses. Funding raised by 
the NSRC underwrites approximately $6,000 of these costs; school 
districts and their local sponsors are responsible for providing the 
remaining $8,000 per team.

                          Maintenance Backlog

    Mr. Cramer. And, Mr. Small, especially with regard to the 
deterioration of the buildings that you described here to the 
committee, and then yesterday when we were able to visit, we 
did not get that way overnight. Was there some neglect in the 
past? I mean, needless to say, but----
    Mr. Small. What the chairman of this committee, I 
understand, has been hammering on for years is, ``Take care of 
what you have. Do not build new things until you reconstruct 
your old things.''
    Mr. Cramer. No.
    Mr. Small. And this is something that has gone on 
throughout the world of institutional buildings, but with these 
buildings, in particular, people just were focusing more on 
creating new programs and doing other things than making sure 
that they were kept meticulously and in wonderful condition.
    So now we have this tremendous backlog, which does not 
affect only the Smithsonian, obviously.
    In the case of a museum complex, where the visceral sense 
that a person gets when walking in the door is just as 
important as the sense that they get when looking at the 
artwork, to have that resource basically eliminated for you is 
a terrible lack.
    You cannot have somebody walk into something that they view 
as depressing and expect them to be inspired.
    Mr. Cramer. We cannot let those deteriorate much longer.
    Mr. Small. I agree.
    Mr. Regula. We are working on it.
    Mr. Dicks. What is the backlog? Would you yield? What is 
the backlog?
    Mr. Small. The last calculation I saw on the Smithsonian 
was $250 million, and we were getting in 1995 $25 million, and 
this has been almost doubled, and then there is another 50 
percent increase now.
    The real issue--and I understand this is a tremendous 
challenge for the committee because it has the issue of 
allocation of resources to the committee itself--the real issue 
is that $60 million cannot do it. I mean, we are not even 
keeping pace with it. There are orders of magnitude above that 
amount to restore the buildings to what they ought to be.
    I have to work with the chairman on this whole very broad 
issue, and I think it is an issue that involves even what the 
committee gets, because, you know, the people with whom we 
compete for money are people like the Park Service. How can an 
American citizen knock the Park Service? I love the Park 
Service. The last thing I want to do is hurt them.
    So I think there is a real issue as to, when you look at 
what the American public is dealing with directly, like parks 
and like museums, we have got to do a better job collectivelyat 
getting money for these things because these are the way we inspire our 
citizenry, this is the way you make people proud of their country. We 
cannot let that stuff run down.
    But I am preaching to the choir here. I understand that.
    Mr. Regula. Well, we have put in a ten-year program. It is 
not going to get done overnight, but at least if you have a 
goal out there you incrementally begin to attack it.
    Mr. Cramer. It is troubling to hear the state that they are 
in.
    Mr. Regula. I know.
    Mr. Cramer. But it is reassuring to know that we have got 
to hear this some time or another, and it is about time.
    Mr. Small. And I am going to be back at you and back at 
you, and I think I am ultimately going to make a pain of 
myself, and it is going to be frustrating, but I do not see 
that I have any other choice but to tell it like it is.
    It is not that any of you would differ with me when you 
walked into the building.
    Mr. Dicks. Could you yield again, just on this subject?
    Mr. Cramer. Sure.
    Mr. Dicks. Could you do bonding? Is there a way to bond and 
do the improvements?
    Mr. Small. You can borrow money, but that is just another 
way of causing--you know, then we have got to come back to you 
to say, ``Can you give us the money to pay for it?'' I mean, we 
can borrow the money, but then you are going to have to pay 
for----
    Mr. Dicks. But you do not generate enough income to provide 
it?
    Mr. Small. No. We generate income from our private funds, 
but----
    Mr. Dicks. Right.
    Mr. Small [continuing]. The biggest problem that we have in 
this area--and I am killing myself and going to kill myself on 
fund raising, but the one problem we have is that donors who 
want to donate to things like this say, ``I do not want to do 
buildings, because that is the Government.'' And so I am not 
coming here saying, you know, ``We need tons of money for 
programs.''
    I am saying the buildings are the problem, and that is the 
big nut that we cannot crack with the public, because they say, 
``Hey, Washington, not my home town. I love your outreach 
stuff. I will give you money for this, that, and the other 
thing. But buildings, not my cup of tea.''

              National Air and Space Museum Dulles Center

    Mr. Regula. Well, we have to move on. We have General 
Dailey here, who is the new director of the National Air and 
Space Museum.
    General, you are in charge of probably the most popular 
museum in the world, and so we want to hear from you.
    Gen. Dailey. Thank you very much, Mr. Chairman, members of 
the committee.
    Sir, with your permission, I would like to respectfully 
correct one comment that the Secretary made during his remarks, 
and that is that we do not have 100,000 square feet of gum on 
the carpet. [Laughter.]
    We would have if we did not meticulously clean it.
    Mr. Regula. Well, I might tell you the general is a Marine, 
and if there is any gum on the carpet, it is going to disappear 
in a hurry. [Laughter.]
    Gen. Dailey. Thank you, sir.
    Well, as has been stated, we are the most-visited museum in 
the world. There are other air and space museums that can rival 
us in terms of the size of their buildings, but none can rival 
us in terms of the content. There is no collection anywhere in 
the world that will compare with the Air and Space collection 
at the Smithsonian.
    The problem is, we can only display 10 percent of it in the 
museum on the Mall, so 80 percent of our artifacts are in 
storage at the Garber facility in Silver Hill. That is the 
reason we need this new facility.
    It is my pleasure today to give you an update, and I feel 
we have good news for the committee.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Gen. Dailey. This would be the view that a visitor will 
have entering the main hall of the new facility. They will be 
greeted by the SR-71 Blackbird, a plan view. This is truly an 
awesome aircraft. By the way, this particular aircraft set the 
transcontinental speed record when it was delivered in its 
flight from California to Dulles, 68 minutes across country. It 
probably will not be topped for quite some time.
    Mr. Regula. We will get that on our next trip. [Laughter.]
    Mr. Small. You could have used that the day before 
yesterday.
    Gen. Dailey. It is not phase three qualified for airport 
use, however.
    If you look directly behind, this is the space hall, and we 
have the Enterprise Space Shuttle, the first shuttle to fly not 
into orbit, but was used for all of the flight quality and 
other testing that was necessary prior to launch.
    But, looking then right or left, the sky will be filled 
with aircraft. This is an artist's conception, so it only has 
about 20 aircraft displayed. As the Secretary said, 178 
aircraft will be displayed at three levels within this 
magnificent hall.
    Mr. Small. Two-and-a-half football fields long by ten 
stories high in one room.
    Mr. Regula. You said three levels. Will there be a level 
underneath?
    Gen. Dailey. There will be an upper level, then a center 
level, and then on the deck.
    Mr. Small. He means the levels of aircraft suspended in the 
air.
    Mr. Regula. Okay.
    Gen. Dailey. So they will all be hanging from this steel 
truss arrangement, which is the key to the design, by the way.
    It really is going to--the Secretary is stealing all my 
lines here. [Laughter.]
    I might mention that this building is 15 million cubic 
feet, also, which is a sizeable cooling and heating challenge 
for us.
    Due to the generosity of the committee and your providing 
us with $8 million for design, we have completed the 
architectural design for this complex. This drawing is based 
upon those drawings.
    Then we had them validated through a risk analysis by an 
independent company, and they have recommended that we add six 
months to the production schedule, based upon the necessity to 
produce these steel trusses and also the difficulty in 
maintaining the labor force in contracting today because of the 
difficulties thatthey are having keeping people on the job.
    Mr. Regula. Yes. What is the roof material?
    Gen. Dailey. The material in the roof?
    Mr. Regula. Yes. What kind of a roof is it?
    Gen. Dailey. Hypalon. It is a synthetic thermal material, 
which is going to assist us in the heating and cooling of this 
structure.
    There are no exotic materials in here. Everything is a 
proven capability.
    The trusses are different, in terms of the way they are 
constructed, but they are not state-of-the-art, nor do we 
expect a risk, other than the fact that we will have to get 
into a queue with the manufacturers of steel products of this 
type, and there is a backlog at this time. That is one of the 
reasons why we need to extend the time that we have to 
construct the facility.
    Mr. Cramer. Was that done by the architect?
    Gen. Dailey. Yes, it was.
    Mr. Cramer. So the architect, obviously, has been chosen. 
Was that competed?
    Gen. Dailey. Yes, it was. And these are the same architects 
who designed our museum on the Mall, so we are really very 
pleased with this.
    Here is the main hall. We have the space hall in the back. 
Then, behind this area will be the restoration facility, which 
will be three times the size of the one we have at the Garber 
facility at the present time.
    There will be an observation platform, where the visitors 
can actually watch the craftsmen restoring the artifacts. We 
believe this will be a very popular stopping point on the tour.
    Probably the most important thing out here is going to be 
the education complex that we will have, which will consist of 
classroom, laboratory, office space for researchers, and the 
access to the archives.
    In addition, the Fairfax County school system is building a 
high school directly across Route 28, which will have an 
aviation curriculum. This provides us access, then, to the rest 
of the school systems in the country through the educational 
network. So we are looking for a tremendous improvement to our 
opportunity for outreach in education, which is really our 
reason for being.
    We will have, of course, a large-format theater, 
restaurants, museum shop, and then a storage facility for 
artifacts that are awaiting restoration.
    It will be 710,000 square feet when completed.
    It is done in two phases. The first phase is the 
responsibility of the State, and that is for site preparation.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Gen. Daily. Just to give you an orientation, this is the 
Dulles Airport complex. This is the terminal up here. When you 
come in and go through the security and out to the people 
movers, as you look out the windows, if you were looking out to 
the east side, you can see the area down here, the 176.5 acres 
that we have leased from the Airport Authority. This will be 
the site for our complex.

              Contribution of the Commonwealth of Virginia

    The State will commence construction next month on site 
preparation, which will include a construction road which will 
lead off of Route 50.
    By the way, for orientation, this is Route 50, Route 28. 
This is east, north is to the top.
    The Secretary told me not to make this a military brief. I 
was going to start with an orientation. [Laughter.]
    Mr. Small. You follow my advice, right?
    Gen. Dailey. So far.
    At this point, this is the approach end of runway 01, and 
this is what we call a ``tow-way,'' which will be constructed 
by the State, where artifacts arriving at Dulles can be easily 
brought to the facility, or aircraft arriving to come to the 
facility.
    Our agreement with Dulles Airport is we can have fly-ins 
four times a year, so we anticipate having aviation-type 
activities that we can sponsor out at this site.
    They will also provide the taxiways and ramp space around 
the facility, the 2,000-car parking lot, and eventually--this 
will be the last act--this interchange on Route 28. This will 
be the entrance to the museum. It will be like arriving at an 
airport. It even looks like one when you come up in front, 
because you get off at what would be the departure level.
    You notice here, you are actually at the second level, you 
are looking down at the main deck there.
    We want to create the feeling that you are really coming to 
the Nation's Hangar. That is what this is all about. And it is 
going to have a display that will be unparalleled any place in 
the world.
    They also are providing the utilities--water, electric, 
gas, and----
    Mr. Regula. That is the State of Virginia?
    Gen. Dailey. The State of Virginia--$34 million in 
construction, $6 million in donation to us to assist in the 
project.
    They are on schedule with the funding for both. They have 
$2 million in their 2001 budget, $2 million in 2002, and we 
anticipate the final million in 2003.

                    DULLES CENTER NATIONAL CAMPAIGN

    Now, as far as our status, we have raised $94 million 
against the original $130 million goal for the Capital 
Campaign. Based on this progress, the Smithsonian Board of 
Regents has approved a go-ahead for construction. This is a 
significant act, in that it has signaled the full support of 
the Smithsonian for this project. So we are committed, we are 
ready to go, and that is why we were able to tell the State 
that they could go ahead and proceed with their activities and 
we are ready to follow.
    We still have a long way to go in our fund raising, but we 
have adequate funds to keep us moving. We have financial plans 
that have been developed that are ready for signature between 
the Secretary and the Governor of Virginia, so we are ready.
    That is really the important point.
    Now, two things that I would like to mention. One is that 
we will have a single senior staff run both facilities. We are 
not going to double the staff out at Dulles. The people who are 
out here will be those who have hands-on responsibilities for 
running the operation.

                    BUDGET REQUEST FOR DULLES CENTER

    We are asking for an additional $2.58 million this year. It 
is to prepare the artifacts, to provide the people and the 
equipment to prepare the artifacts for movement to Dulles.
    The artifacts at Garber are stored. Many of them are in a 
disassembled state. Those that are not disassembled will have 
to be disassembled for the move, so it is a tremendous job.
    The other thing is the people that are required to do this 
are not craftsmen that you can hire out of anoff-the-street 
union. These are people who have skills that can be developed, and so 
time is an important factor here.
    If we wait longer, adding more money will not solve the 
problem, because this is a time phase thing where we have two 
parallel processes--one, the construction of the facility, the 
other is the preparation of the artifacts.
    The thing that has never changed in this whole plan is the 
opening date of 17 December 2003, the centennial celebration of 
the powered flight of the Wright Brothers. We are looking for 
this to be one of the culminations of this three-year 
preparation for that celebration, so it has been made clear to 
me by Secretary Small that this is it. If this is not opened on 
the 17th of December, 2003, he is going to kiss me goodbye. 
[Laughter.]
    So I have my orders on this.
    That concludes my presentation, sir. I would be glad to 
answer any questions.

                     NATIONAL AIR AND SPACE MUSEUM

    Mr. Regula. Would you want to make any comments about the 
Air and Space Museum, because that, too, is your portfolio and 
it is a very important part of the Smithsonian complex. Is 
there anything that you see needs to be done there or support 
that we need to provide?
    Gen. Dailey. I think that the biggest challenge that I see 
is the fund-raising requirements for this facility are putting 
a strain on everything else. It is our number one priority and 
we are addressing that, but there are other things that have to 
be done. It is just that we are probably not going to be able 
to do them at the level that we had wanted to in terms of 
improving some of the sites.
    We have a major restoration going on, what we call the 
``window wall modification.'' All of the windows are being 
replaced one-third at a time. That will be finished in July of 
2001. We do not want to do too many major upgrades while the 
roof still leaks, so it is a case of phasing it.
    That is really the biggest thing--enough money to do this 
and to keep our activities going.
    Mr. Regula. Is your maintenance on schedule at the Air and 
Space Museum?
    Gen. Dailey. Yes, it is on schedule.
    Mr. Regula. We are trying to avoid this degradation 
happening in some of the places where it is just neglected.
    Gen. Dailey. This is not neglect. It was actually a cost-
saving measure when we did this back in 1976. Instead of using 
glass, we used lucite. The expansion coefficient is greater 
than glass and it worked its way loose in these joints over the 
years and now it leaks substantially. We have a leak prevention 
program that consists of about 26 barrels that we run around 
with. [Laughter.]
    They are actually labeled as ``leak control.''
    Mr. Regula. Mr. Dicks?

                         COST OF DULLES CENTER

    Mr. Dicks. I think this looks like a tremendous project. 
How much more money do we have to raise?
    Gen. Dailey. The campaign goal was $130 million, but the 
actual cost of this will be about $181 million.
    Mr. Small. The total project.
    Gen. Dailey. But we have a financial plan to borrow the 
difference. What we would like to do is raise all the money. 
Our goal is to go out there and get it all.
    Mr. Dicks. Good.
    Gen. Dailey. So we need a lot of help.
    Mr. Dicks. Good.
    Gen. Dailey. But there is a lot of interest.
    The one thing that is most encouraging about this is that 
every place we go people are enthusiastic. They may not give us 
any money, but they help us, and they are willing to help us 
try to find it.
    Mr. Dicks. Have you been out to the Red Barn in Seattle at 
Boeing Field?
    Gen. Dailey. I have. Yes, sir.
    Mr. Dicks. I just wondered if you had seen that.
    Gen. Dailey. That was not on a fund-raising trip.
    Mr. Dicks. No, no. I mean, I am sure there could be some 
collaboration. I mean, they have some things there that you 
might be interested in.
    Gen. Dailey. I agree. Yes, sir. And there is one thing 
about air and space museums all over the world--there really is 
a collaboration. It is the most cooperative group I have ever 
seen, and people even refer us to opportunities for fund 
raising that did not work for them but might work for us. I am 
really encouraged with the level of cooperation, and also the 
support we are getting from the Smithsonian. This commitment 
that we have now is the secret to us getting started. We are 
ready to go.
    Mr. Dicks. And it will be open in December, 2003?
    Gen. Dailey. December 17, 2003. Guaranteed. [Laughter.]
    Mr. Dicks. I like that.
    Mr. Regula. When the commandant of the Marine Corps tells 
you that, he means it. [Laughter.]
    Mr. Dicks. These military guys are great, are they not?
    Gen. Dailey. We will see.

                      DULLES CENTER GROUNDBREAKING

    Mr. Dicks. I think it looks like a very--I, of course, 
followed this over the years. I am glad to see that we are 
starting to move. And the ground-breaking is in April?
    Gen. Dailey. Yes, sir.
    Mr. Dicks. Good.
    Gen. Dailey. This is a confusion factor because the State 
breaks ground in April. We break ground some time later. 
Instead of January, 2001, we are going to try to move it back 
to October of this year.
    We are afraid if we have two ground-breakings that close 
together people are going to wonder what is going on, so we 
intend to have it during the building ground-breaking later 
this year. We will coordinate with all of the appropriate folks 
to make sure that we do this right. But we want to make this a 
major event.
    Also, we see opportunities with the movement of all these 
artifacts from Maryland to Dulles. It is going to be a 
community activity, because we are going to be shutting down 
some highways while these things are going, and so it will be 
highly publicized. We believe we can really make it something 
that everybody wants to participate in. There are going to be 
some wonderful things coming out of hiding here on their way to 
being displayed.
    Mr. Dicks. Thank you.

             Percent of Air and Space Artifacts on Display

    Mr. Regula. Mr. Hinchey?
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    This is always a fascinating experience to be here, and we 
want it to go on and on, I think, in a way.
    I know that at any one time you are only able to display a 
fraction of the artifacts that are in the possession of the 
Smithsonian. How large a fraction is that, or how small is it?
    Mr. Small. Less than 2 percent are on display.
    Mr. Hinchey. Less than 2 percent?
    Mr. Small. Yes. In the case of this collection, this is the 
largest collection of aircraft and spacecraft in the world. The 
current museum, which is the most significant museum in the 
world in terms of visitation, has about 10 percent of the total 
collection. After we have this facility in place, we will still 
have probably 40 percent of the collection in storage.
    Gen. Dailey. Actually, this will get us up to 80 percent, 
because we have 10 percent on loan.
    Mr. Small. That is the other thing. Right.
    Gen. Dailey. There are 72 aircraft.
    Mr. Regula. Do you mean 10 percent of what you have is 
loaned to somebody else?
    Mr. Small. Other people.
    Gen. Dailey. Presently.
    Mr. Regula. Like Wright Patterson, for example.
    Mr. Small. Exactly.
    Gen. Dailey. The Saturn Five rockets that are at 
Huntsville, Kennedy, and Johnson, for example.

                 National Museum of the American Indian

    Mr. Hinchey. Just on another subject, if I may, Mr. 
Chairman?
    Mr. Regula. Sure.
    Mr. Hinchey. The Museum of the American Indian is of 
particular interest to me, since most of the materials were in 
a warehouse in the Bronx for a long, long time.
    Mr. Small. Most still are.
    Mr. Hinchey. Most still are. And they will be on display at 
this wonderful new building that you are putting up. Can you 
tell us a little bit about that? When do you expect it to be 
open, and what will be housed there?
    Mr. Small. We are hoping to get that museum opened by the 
end of 2002, I think is the date. What you are going to have 
housed there is the greatest ethnographic collection ever 
assembled in the history of the world. There are 800,000 items 
in the total collection. A good part of it will be in the 
storage facility that we have out in Suitland, Maryland. But 
this is the definitive collection in the entire world of Native 
American artifacts from the North and South American regions of 
the world. There is no collection that is comparable.
    I should also add that we have substantial other Indian 
collections in the Smithsonian in the National Museum of 
Natural History, so this is, I think, a fabulous opportunity 
for the world, and particularly the United States, to see the 
kind of creativity and artistry of our Native American 
population.
    More importantly, I think this is going to produce a moment 
of what you could call ``reconcilement'' with the Indian issue, 
as a whole. We are going to have displayed the work of not just 
a group of museum professionals, but 550 tribes that have been 
coordinated by Rick West, who is the director of the museum, 
over a ten-year period to tell their story.
    On the assumption that this will be successful--and I am 
confident it will--I think this is going to be an historic 
moment for the United States to have this issue dealt with out 
in public, with students and others able to visit and see it, 
and to do so in a way that will allow the Nation not to come to 
peace with its past, but to be reconciled with its past.
    Mr. Hinchey. I think it is a great thing, and I really 
congratulate the Board of Regents of the Smithsonian for 
recognizing the importance of doing it, and doing it in what 
seems to be a very appropriate and very lovely way. We will be 
able to judge that, of course, much better when the building is 
up and open, but it seems to me, on the basis of what I know 
about it so far, that this is being handled very, very well. I 
think it is something that will be a great addition to the 
Smithsonian's collection and its portrayal of itself before the 
world.
    I think it says a great deal about us, as Americans, about 
our country and about our future, and so I am, once again, very 
proud of you and what you are doing and congratulate you and 
wish you the best on it.

                        Dulles Center Artifacts

    Mr. Regula. I have a question for General Dailey.
    I notice in the drawing you have what I would consider to 
be private, small aircraft. Do you anticipate this will include 
more than just military and space aircraft?
    Gen. Dailey. Sure. It definitely will. When some of these 
artifacts come out of Garber, it is going to be a total 
spectrum of aircraft, from very early to very late.
    Mr. Regula. So you will have commercial jets that made the 
transition?
    Mr. Small. We will have the original 707.
    Gen. Dailey. It is actually the prototype.
    Mr. Regula. And you do not have my favorite, which is the 
P-38, but I know there is one out at Garber.
    Gen. Dailey. We do have a P-38, sir. We will be hanging 
that one.
    Mr. Regula. I have seen it. Okay. Well, one last item.

                        National Zoological Park

    This is Dr. Robinson's last hearing.
    How long have you been the director of the National Zoo?
    Mr. Robinson. Sixteen years, 36 with the Smithsonian.
    Mr. Regula. Well, were you the first director when we took 
it over from the city?
    Mr. Robinson. No.
    Mr. Regula. I do not know when that was.
    Mr. Robinson. That was 40 years ago, or more.
    Mr. Regula. Okay. Well, you have done a great job up there.
    How many visitors do you get?
    Mr. Robinson. Between 2.75 and 3.25 million people a year.
    Mr. Regula. I would be curious. How many come from outside 
this greater Washington area? Do you get a lot of visitors that 
come from distances?
    Mr. Robinson. Yes. We get school buses and tourist buses. 
We get enormous numbers of buses. People coming to Washington 
on tours all come out to the Zoo, to the extent that they cause 
chaos on Rock Creek Parkway and they are backed up all the way 
down to Rock Creek Park from the Zoo. The local inhabitants 
think of us as a benign nuisance as a consequence of that. We 
really do get a lot of people from outside.
    Mr. Regula. Pandas? Are you going to get some more?
    Mr. Robinson. We are in the middle of very delicate 
negotiations on that issue, and all the prospects look very 
good, indeed.
    Mr. Regula. I wonder if that will be tied to WTO.
    Mr. Dicks. Think there might be linkage?
    Mr. Regula. They are only indigenous to China; is that 
correct?
    Mr. Robinson. That is right, the giant panda. The red 
panda, which I would express a heretical view, is more 
attractive-looking than the giant panda, is found further 
afield. But we should not put that in the record; otherwise, I 
will be shot when I return. [Laughter.]
    Mr. Regula. For my colleagues, you might say how we are 
progressing on the concept of putting some agriculture 
exhibits--i.e., a cow or pig or other farm animals.
    Mr. Robinson. The meeting of a design committee for the 
farm exhibit was yesterday, appropriately, and we should have 
the concept design by early April, so things are going very 
well, indeed, there.
    Mr. Regula. There are a number of these around the world, 
are there not? I know Copenhagen has a mixed zoo.
    Mr. Robinson. Yes. And one of the finest is in Amsterdam, 
where, of course, the old Dutch masters drew or painted 
enormously rich archives of what domestic animals looked like 
400 or 500 years ago, and they have got a great exhibit there. 
So it will be enormously attractive.
    A cartoon appeared in which it showed a family entering the 
zoo, and they were saying, ``We can go and see the elephants 
and the rhinos,'' but they got in the farm exhibit and never 
got to see the rest of the zoo. So I think you will be 
impressed.
    Mr. Regula. Any questions?
    [No response.]
    Mr. Robinson. Could I make a remark?
    Mr. Regula. Of course.
    Mr. Robinson. A parting remark.
    Mr. Regula. Absolutely.
    Mr. Robinson. I think my life has been enormously enriched 
by being with the Smithsonian, and also by being, from a very 
early age, associated with all these wonderful animals. I hope 
you will nourish both of those things, the world of the 
Smithsonian and the world of animals and plants.
    And I would like to give you my tie. [Applause.]
    Mr. Robinson. And I would suggest to the General, as an 
aircraftsman first class, that he needs to put in amongst all 
those airplanes the first flying objects which occurred on this 
planet, which were dragonflies 500 million years before the 
Wright Brothers. [Laughter.]
    Mr. Regula. I cannot resist a story.
    We have a three-year-old grandson, and my wife was telling 
him that only birds could fly, you had to have wings to fly. 
And she said she saw him thinking, and he said, ``Grandma, 
reindeer fly.'' [Laughter.]
    Mr. Robinson. Very good.
    Mr. Regula. I would give you my tie, except this was a 
Christmas present from my wife, and I am afraid I would be in 
deep trouble.
    We are into a tie exchange. I gave one to Mr. Kingston that 
had frogs on it the other day. Now it is your turn, fellows. 
[Laughter.]
    Well, we want to thank you for wonderful service to the 
Zoo. I think it is really one of the outstanding zoos in the 
world today. I urge all of my visitors to go there. It is a 
great asset of the Smithsonian. That is thanks to the wonderful 
leadership you have provided over the past 16 years.
    We certainly wish you well in your future endeavors.
    [Applause.]
    Mr. Regula. On that high note, we will adjourn.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, March 15, 2000.

          THE JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS  

                                WITNESS

LAWRENCE J. WILKER, PRESIDENT
    Mr. Regula. Next we have Lawrence J. Wilker, President of 
the Kennedy Center. We are happy to welcome you, Larry. Your 
full statement is part of the record and you can summarize as 
you see fit.
    Mr. Wilker. Thank you, Mr. Chairman. I will try to be 
brief. As you know, Mr. Chairman, the Kennedy Center was 
privileged to take over the operation of the physical building 
from the Park Service in fiscal year 1995. At that point the 
building was in very sad condition. We took the first year to 
really study the building and to determine what needed to be 
done to bring the building up to code, and to make it disabled 
accessible because it was designed at a time when none of us 
were sensitive enough to think about designing buildings for 
the disabled, and to replace worn out systems. We developed a 
comprehensive building plan which we shared with the Congress 
and update periodically with the Congress and with our 
operations committee, which is made up of both private and 
congressional trustees.
    This report basically told us that we had a building that 
was in very poor condition and not the kind of condition that 
we would want either for a presidential memorial or as a 
National Center for the Performing Arts. It told us what needed 
to be done, what the approximate cost would be and we have been 
working from that as our Bible over the last 5 years.
    We inherited some projects from the Park Service. For 
example, they were in the middle of renovating the parking 
garage which supports the entire building and had deteriorated 
badly. It was a very complicated project, but we took it over 
and completed it.
    The roof has been a perennial problem at the Kennedy 
Center, as I know you are well aware. We completely replaced a 
roof that had been leaking for 25 years and we had Niagara 
Falls in many of the stairwells. It was a flat roof that was 
two football fields long and it was a lake basically for 24 
years on top of the building. We brought it in for $3 million 
under the government estimate.
    As you know, we completely renovated the concert hall on 
the south end of the building which was our first major public 
project. It is now a model of accessibility, and disabled 
people are able to move with dignity and sit with dignity in 
any place in the hall, and we brought that project in on time 
and on budget.
    There have been projects less visible to the public. We 
replaced the chillers. We are in the process of installing 
sprinklers throughout the building, an up to date fire alarm 
system, security system and building automation system. We have 
cleaned the outside marble, and we are doing an energy 
management study to conserve on energy costs. We are in the 
planning process for the center block project, which is 
basically the middle section of the building.
    We are in the process of working on new access roads which 
are a result of our security study, which will move the traffic 
away from close proximity to the building. We are also 
expanding the parking garages without Federal funds. We have 
sold bonds which will be paid from the additional income that 
will come in from the garage. This will increase parking by 
almost 750 spaces. The building, when it was originally 
designed, was only designed with 1,400 for 7,000 patrons per 
evening and it is a landlocked building surrounded by highway 
so there is no place to provide additional parking and no place 
for people to go.
    We have been extraordinarily grateful to the Congress for 
its support. We have requested for fiscal year 2001 level 
funding with last year, $14 million for operations and 
maintenance, $20 million for capital repair and we are hopeful 
that the subcommittee will support this request and allow us to 
continue our comprehensive plan. It will allow us to move 
forward with our center block project and continue to bring the 
building into code compliance, accessibility standards and 
functionality.
    I know you have visited the building many times, as have 
your colleagues on the subcommittee, but just as a quick 
reminder of the size and complexity of the building that we 
operate, it is a million and a half square feet. Unlike many 
institutions, we are open 18 hours a day, 365 days a year. We 
have 6 theaters, 3 restaurants, 9 special event rooms, 5 public 
galleries, 23 elevators, 6 escalators, 2,000 doors, 108 crystal 
chandeliers, 200 valuable paintings, sculptures, tapestries, 
and believe it or not, 133 restrooms.
    In an effort to keep this short I would just like to say we 
are obviously custodians of a presidential memorial and take 
that responsibility seriously. We are also custodians of the 
performing arts in America, and work very hard to not only 
provide quality programs in Washington but work equally hard to 
make sure that our programs and services touch the lives of 
people throughout the Nation. We are the largest provider and 
supplier of arts and education programs in the United States 
with programs in all 50 states which bring the value of the 
arts to children and help them to learn better.
    Mr. Regula. How do you do that?
    Mr. Wilker. In a variety of ways, Mr. Chairman. First we 
have a series of programs in every state which teach teachers 
how to use the arts to teach traditional subjects, like using 
music to teach math or drama to teach English and social 
studies. We teach artists how to work with teachers and to 
appreciate and understand the challenges that the classroom 
teacher faces. We have a program where we bring theaters from 
around the United States to Washington for a 1-week intensive 
seminar to learn how to develop cooperative programs with their 
local school districts. They cannot come unless they have made 
a written agreement with the local school district, and they 
can't come unless they bring representatives of the school 
district so that they learn and work together and then go back 
into their communities and create their own local programs. 
That program alone has created 600 new programs throughout the 
United States in the last 6 years.
    We also have a website on the Internet, which is called 
ArtsEdge, which is a teacher's resource and teachers from all 
over the country can go into this website and find best 
practices, curriculum guides and student guides.
    For example, if a teacher wanted to teach the Civil War, we 
would give them material on how to teach it using literature of 
the period, music of the period, dance of the period, the names 
and addresses of 10 teachers who have created model programs 
using these kinds of programs. That site alone receives more 
than 15,000 hits a day from teachers from all over the United 
States.
    We try to determine what literature is being taught in the 
school and create age-specific productions based on that 
literature. For example, The Pearl, the Red Badge of Courage, 
and similar productions tour the United States with curriculum 
materials and teacher trainers. This year we havetwo 
productions touring the United States which will reach nearly 60 cities 
and the lives of more than 300,000 students.
    We also support American artists and the creation of new 
work throughout the United States through our commissioning and 
producing program where we work with dance companies and 
symphony orchestras and theater companies in helping them to 
create and support new work in their communities.
    That basically is my statement, Mr. Chairman.
    [The statement follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you. You have a three-stage, $171 million 
plan to bring the Center up to safety and the Americans with 
Disabilities Act requirements. Over how long a period of time 
is this project? Is that the $20 million a year?
    Mr. Wilker. That is the comprehensive building plan and it 
will take us through 2009, which will complete all of the work. 
So far, we have been able and are working very hard to keep 
that program within that budget. That is the budget that we 
established right after fiscal year 1995.
    Mr. Regula. Is part of that your maintenance program, or is 
that all new construction?
    Mr. Wilker. That is all capital work. Within our O&M budget 
we are trying to reduce our minor repair backlog. When we took 
over the building in fiscal year 1995 there was a backlog of 
$14 million in deferred maintenance that the Park Service was 
not able to get to. We have been whittling that down. We have 
it down to $9.5 million, but it is very hard to do our annual 
O&M work and still find money out of that $14 million to 
address the backlog. We have taken some money from the capital 
to do the emergency O&M things.
    Mr. Regula. How is the 6:00 entertainment program that is 
open to the public? How is that working out?
    Mr. Wilker. We are very proud and pleased about how that 
program has been going. We established that 3 years ago to 
break down the final barrier to attendance to the arts, which 
is the economic barrier, and said we will give a free 
performance every day of the week every day of the year at 6:00 
pm. Since that has happened, as of March 1 which was our third 
anniversary, we have had three-quarters of a million people who 
have attended those free performances.
    We also broadcast those over the Internet and we are the 
only arts institution that has a regular performing arts 
broadcast. We archive those performances and a lot of those 
performers are new and up and coming, so it is a great aid to 
American performers because they can say to other individuals, 
I performed at the Kennedy Center and you can see that 
performance, just go onto the Kennedy Center website.
    Mr. Regula. So anyone across the land can----
    Mr. Wilker. Anybody in the United States and indeed the 
world can plug into that performance at 6:00 p.m. Washington 
time or see any of the thousands of performances that have 
occurred in the last 3 years.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Let me ask you a couple of questions. The $171 
million, this is over a 5-year period?
    Mr. Wilker. It is actually over a period of close to 11 
years. Fiscal year 1999 to 2009. The first phase was from 1995 
through 1998.
    Mr. Dicks. So we are into this 4 or 5 years now?
    Mr. Wilker. 5 years, that is correct.
    Mr. Dicks. How much have we spent in total on that effort?
    Mr. Wilker. In phase I we have spent $60 million roughly.
    Mr. Dicks. Can you generally describe what we have done? 
What has been accomplished with that $60 million?
    Mr. Wilker. The large projects, one of the largest was the 
roof, complete roof replacement and a roof redesign. It is no 
longer a flat roof.
    Mr. Dicks. That was a terrible problem for many, many 
years.
    Mr. Wilker. It was a horrible problem. The only capital 
repair that had occurred in the building over those first 24 
years was a $5 million patch put on the roof in the late 1970s. 
The other large project----
    Mr. Dicks. How much did the roof cost?
    Mr. Wilker. The roof was $13 million. And the Concert Hall, 
which was the other large project, was $14 million. Then there 
have been a lot, as I was running through quickly, an awful lot 
of other projects: replacement of the chillers, installing 
sprinklers, building automation system, cleaning and replacing 
the marble skin of the building. The kind of marble which was 
selected for the building was an unfortunate choice 30 years 
ago. It is not suited to the climate, and it tends to move 
around in the extreme heat and cool and it tends to crack. We 
had a lot of cracked marble that had to be replaced and other 
places that were in the process of falling off that we had to 
repair.
    Mr. Dicks. For the record now just give us a good rundown 
on the first $60 million, and then a rundown on what is planned 
with the remaining--that would be about $171 million additional 
from 1999-2009? Can you give us kind of a breakdown?
    Mr. Wilker. Sure. In terms of big picture, we basically 
have two-thirds of the building left to renovate to bring up to 
code because, remember, this building was designed to a 1960s 
fire and life safety code, to make it accessible to----
    Mr. Dicks. How much is making this thing accessible under 
ADA requirements, how much is that going to cost?
    Mr. Wilker. I can't break it out right now. I can get that. 
The whole $171 million is aimed at code compliance and 
accessibility and replacing worn out systems. There are 133 
bathrooms, as an example, and only a handful are disabled 
accessible. That alone is a major project. There are 2,000 
doors most of which a person in a wheelchair cannot get 
through. Other than the Concert Hall, all of the theaters need 
to be made disabled accessible.
    There is a fire alarm system that basically is inoperable 
and we are installing a new system. There are no sprinklers in 
the building. We have to sprinkle the entire walking surface, 
all of the plaza areas are made out of the same marble that is 
on the sides of the building, and it could be a terrible slip 
hazard because it could be very slick. Whenit is wet it could 
be dangerous. Even when it is not wet it could be very slippery so all 
of those surfaces have to be replaced with granite.
    Mr. Dicks. Let me ask you--and that is good. Give us a good 
description of what you have done and where you are going and 
what you see as the major problems in the rest of the $171 
million?
    Mr. Wilker. The comprehensive plan will lay that out and we 
have a revision of that plan which we will submit to this 
committee.
    Mr. Dicks. Thank you. The committee has been aware of the 
Center's inadequate parking and access to the Kennedy Center. 
Now, I understand through my sources, I have very good sources, 
that Chairman Shuster has said that he would like to do 
something to help on this score. How much money are we talking 
about here? What are we talking about in order to solve the 
parking and access problems to the Kennedy Center?
    Mr. Wilker. Mr. Dicks, we have what I would call a 
temporary fix at the moment, which is expansion of the existing 
garages which we are paying for out of bonds that we have sold 
and are not coming out of Federal money, and that adds 750 
spaces.
    Mr. Dicks. What are we talking about there?
    Mr. Wilker. That is about $25 million.
    Mr. Dicks. In additional parking?
    Mr. Wilker. Yes.
    Mr. Dicks. And that is outside of the Federal Government?
    Mr. Wilker. That is outside of the Federal Government. The 
Department of Transportation last year commissioned a study to 
study the highway system around the Kennedy Center and access 
to and from the Kennedy Center because it is a real mess now. 
And they will be issuing a report in July with recommendations 
as to how the flow of traffic around the Center and access to 
the Center could be improved. I believe that report will also 
include some estimates of what the cost is, but I can't tell 
you what they are at the moment because we don't have the 
completed report.
    Mr. Dicks. When you do get the completed report, we 
certainly would like to have a copy of that as well.
    Mr. Wilker. Absolutely.
    Mr. Dicks. What kinds of things are we talking about here? 
Is this the road that goes by the Kennedy Center, Rock Creek 
Parkway? Are you talking about changing that?
    Mr. Wilker. I should have brought a chart with me. If you 
think about the Kennedy Center, it is plopped down, and on one 
side is Rock Creek Parkway and on the other side is the access 
road that goes to E Street and I-66, and then there is the 
Roosevelt Bridge. So we are almost an island in between 
highways. So this plan is looking at all of the different ways 
that people get to the Kennedy Center, from the District, from 
Maryland and Virginia. They are looking at it in terms of--the 
National Capitol Planning Commission has done a long-term plan 
as well looking at traffic flow and how E Street could be 
better connected to the Kennedy Center and they are trying to 
meld all of that thinking into one plan that will bring 
everybody together. The National Capitol Planning Commission is 
looking at extending the Mall and the ability for tourists to 
be able to go from the Capitol to the Lincoln Memorial directly 
to the Kennedy Center whereas now it is a very circuitous route 
because you have to go through downtown and come around because 
there is no way to cross over those highways.
    Mr. Dicks. There is one category called Other Services for 
which $7.4 million has been requested. Can you give us a 
breakdown on that for the record?
    Mr. Wilker. I don't know if I can do it at the moment. I 
will certainly provide it to the subcommittee.
    [The information follows:]

           Other Services--Operations and Maintenance Account

                                                                 Dollars
Housekeeping, cleaning and trash contracts.................... 1,703,600
HVAC and electrical systems...................................   111,000
Plumbing systems..............................................    20,000
Fire alarm and sprinkler systems..............................    49,000
Exterior (grounds and marble) and Interior systems............   275,562
Security and life safety...................................... 2,119,000
Elevators and escalators......................................   382,000
Minor repair program.......................................... 1,600,000
Professional services, training and recruitment............... 1,202,600
                    --------------------------------------------------------------
                    ____________________________________________________

    Total..................................................... 7,462,762
    Mr. Dicks. Thank you. There is another one, Capital Repair 
and Restoration of $19 million is requested for other services, 
and if you can put that into the record, I would appreciate it.
    Mr. Wilker. Thank you.
    [The information follows:]

             Other Services--Capital Repair and Restoration

                                                                 Dollars
Exterior building envelope.................................... 6,138,000
Life safety and security...................................... 1,643,000
Interior repair...............................................   716,000
Building systems.............................................. 1,983,000
Memorial interpretation.......................................   500,000
Parking and site circulation.................................. 7,060,000
Comprehensive planning and project mgt........................   960,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Total...............................................      19,000,000
    Mr. Regula. We have some additional students in the room. 
What is your high school?
    The Students. Mount Vernon. Falls Church.
    Mr. Regula. We are happy to welcome you. This committee, 
among many other responsibilities, funds all of the public 
lands, as you will note from the pictures that are of various 
places. We have testifying today Mr. Wilker, who directs the 
Kennedy Center, and if you haven't been there you should visit 
the Kennedy Center. From 6:00 to 7:00 there is a free 
performance every day. They have a wide variety of artists.
    Mr. Wilker. Last March 1, Mr. Chairman, just several weeks 
ago we had 12,000 show up for one of the free performances.
    Mr. Regula. So if you have a chance at 6:00 to go to the 
Kennedy Center, you will have an opportunity to see and enjoy a 
free performance. As you can imagine, it is a major 
institution, so we are glad all of you students could be here 
and look in. We fund the national parks, forests and all of the 
public lands. I always like to tell students that you each own 
about three and a half acres of America as citizens, and if you 
get your three and a half acres on Pennsylvania Avenue it is a 
little better than three and a half acres in Alaska. In any 
event, you are all landholders as citizens of America.
    Subsidence, have you solved that problem? Wasn't the 
building subsiding to some degree because of the underlying 
marsh?
    Mr. Wilker. I am not aware of that, but that doesn't mean 
that it is not happening. Certainly the lower areas of the 
garage are basically in water. They are below the water line of 
the Potomac River.
    Mr. Regula. For some reason I thought that there needed to 
be remediation of your supports.
    Mr. Wilker. That might have been part of the early garage 
renovation project.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Thank you. You have a terrific job.
    Mr. Regula. And he has done a terrific job from my 
perspective, having been on this committee for many years.
    Mr. Hinchey. I am certainly glad to hear that, Mr. 
Chairman. It is evident to others in the way that the place is 
run and the general operation that goes on there. It is a very 
proud institution and it is certainly one that is well known to 
people across the country and around the world.
    When the building was constructed I imagine that there 
wasn't a great deal of consideration given to energy needs or 
energy efficiency. Is that on your plan now?
    Mr. Wilker. Yes, sir. It is a very important part of our 
plan. This is the largest all-electric building in the world. 
Our electric bill alone is over $3 million a year. This energy 
management study that we are conducting is looking at ways we 
can conserve energy and maybe convert to gas-oil combination 
fired boilers and air conditioning systems.
    Mr. Dicks. Excuse me, if you will yield. There are 
companies that will come in and sometimes with utilities they 
will share, they will make the investment, we have conservation 
before this subcommittee, and then you split the reduction in 
your energy bills. Sometimes there are ways to do this through 
the private sector.
    Mr. Wilker. Yes, sir, we are aware of that and we are 
looking at that as well.
    Mr. Hinchey. Education outreach programs, could you explain 
that?
    Mr. Wilker. Education we believe is equal to all of our 
performance activities, and so we place a great deal of effort 
behind that. We have established, for example, networks or 
interest groups would probably be the best word to describe 
them. Now we have them in 44 States, whose sole job is to work 
at the local level with school districts, helping them to 
integrate and bring arts education programs into the local 
schools.
    We have a program where we train artists to train other 
artists to go around the country and work in the classrooms 
because it is impossible for us to be in every classroom in the 
United States, but if we can be a little like Johnny Appleseed 
and train people to train people and keep that network 
expanding, we can have people in every school.
    Our performing art centers and schools program is one that 
I described briefly and we are very proud of it. It is a 
program where we bring school districts and theaters together, 
we train them, and they go off and do their program. They like 
it so much that they come back every year so now we have two 
classes. We have a reunion every year where we have teams, we 
have 74 teams from around the United States who come back and 
essentially--we give them some updates, but they train one 
another. There is a kind of synergy and excitement as they 
share what they are doing in their own home communities and 
they learn from one another.
    Then in another part of the year we have the recruits, if 
you will, who we put through the whole training program and the 
next year they come back and join the reunion program.
    Our productions for youth and family audiences have been 
extremely well received and very useful to the schools in terms 
of extending the ways in which children can appreciate and 
learn about literature.
    We have musical programs that introduce children to all 
forms of music. One example is we take the National Symphony 
Orchestra and put them in residence in communities which may 
not have close proximity to symphony orchestras. We have had 
them in central Louisiana, northern Alaska and Maine, and they 
live in the state for 10 days. 105 musicians go to schools 
every day and teach children one on one or play side by side 
with school orchestras or give benefit concerts for the local 
symphony. And by the time that residency is through, children 
really understand the kind of goal setting that is necessary, 
the kinds of practice and hard work that is necessary to become 
whatever you want to be.
    We are not trying to train musicians, we are trying to 
train children in being better citizens and learning how to set 
goals and work hard. And a community feels a very close 
proximity to and an understanding of an art form which may have 
been removed from them, so that has been a very important 
program.
    Mr. Hinchey. Thank you very much.
    Mr. Regula. I might ask you students, have any of you had 
any impact from the Kennedy Center from your school?
    Mr. Wilker. I am afraid to look.
    Mr. Regula. You have an additional challenge. You go back 
and tell your teachers that you want to take advantage of the 
outreach programs from the Kennedy Center. And your website is?
    Mr. Wilker. kennedy-center.org.
    Mr. Regula. Tell the teacher to look up on the websiteall 
of the programs that could be brought to your school and each of you 
can be a missionary and make that happen. You will benefit not only 
yourself but all of the other students. You have heard Mr. Wilker 
testify as to some of the potential outreach programs that are 
available to students. That will make your mission here and your being 
part of this audience very useful if you go back to school and make 
that happen.
    Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, sir. I 
might just add parenthetically, my young daughter who is now a 
sophomore in college at Vanderbilt graduated from high school 
at Langley High School, and they had their graduation ceremony 
at the Kennedy Center 2 years ago. So it is a wonderful place 
for students to think about having a graduation ceremony. It 
was a wonderful setting. I join the chairman and other members 
of the subcommittee in thanking you for your service and work 
to make the Kennedy Center a great place.
    This subcommittee is focused on maintenance backlogs with 
the agencies under our jurisdiction. I am wondering what you 
identify as perhaps your most pressing maintenance backlog 
problems, how much they are going to cost, and when you can 
meet them. I know that we have had leak problems and other 
needs of the Kennedy Center that have been addressed in whole 
or in part.
    So if you could for the record identify what those are?
    Mr. Wilker. When we assumed control of the building from 
the Park Service, we had a backlog of $14 million and we have 
knocked it down to $9.5 million, but we are stalled at the 
moment because it comes out of our O&M appropriation and a good 
portion, almost $11 million, are fixed costs so it is very hard 
for us to make a meaningful dent in that backlog at the moment.
    Mr. Nethercutt. What is your most pressing backlog that 
makes up the $9 million?
    Mr. Wilker. Everything from elevators which are constantly 
breaking down to patching some of the utility systems to just 
general lighting system repairs. There is no one huge item.
    Mr. Nethercutt. Have you made a priority list?
    Mr. Wilker. Yes. Safety items obviously are at the top. We 
can provide that.
    [The information of Mr. Hamilton follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Nethercutt. I would appreciate that. I might also ask 
you with respect to your private fund-raising efforts, to what 
extent have you reached out and to what extent have you been 
successful in reaching out in meeting some of your budget 
needs? Maybe you can identify those for the subcommittee?
    Mr. Wilker. We are very proud of our public-private 
partnership whereby the Congress takes care of the building and 
the Kennedy Center trustees provide the funding for all of the 
programming and the administration of the facility. We will 
raise this year $37 million in contributions from throughout 
the United States, and we will earn roughly another $55 million 
in earned income, primarily from ticket sales. About two-thirds 
of our budget is from private sources.
    Mr. Nethercutt. Do you have goals to increase the public 
solicitation efforts, not just through ticket sales but through 
direct mail, I assume, or public advertising? What is your 
goal? You get $37 million you say?
    Mr. Wilker. Yes. Six years ago we were raising $14 million 
a year, and we have steadily put the pressure to increase that 
to where we are at $37 million this year. We are currently 
raising the second largest amount of money in the United States 
for a performing arts organization and we will constantly try 
to push that envelope.
    Mr. Nethercutt. I would suggest that you reach out to 
Seattle. There are something like 20,000 millionaires in 
Seattle now. That might be fertile ground.
    Mr. Wilker. Thank you for your suggestion.
    Mr. Regula. We are happy to welcome the students from Close 
Up that just came up. Is anybody from Ohio? Wow. We are well 
represented. Anybody from the State of Washington?
    How about New York? Well, Ohio is doing the honors today.
    Our witness is the Director of the Kennedy Center so if you 
have an opportunity while you are in town--how long are you 
here for the Close Up program, a week? So you will have some 
time. Go to the Kennedy Center any day at 6:00, and there will 
be a free performance. What is today, do you happen to know?
    Mr. Wilker. It is a group called QuinTango.
    Mr. Regula. Maybe we can get the mayor of New York to come 
down for that.
    Anyway, they have a performance every day at 6:00 so if you 
are in town the rest of the week, make it a point to go down to 
the Kennedy Center and enjoy it. It is free. There are so many 
wonderful institutions for you to visit while you are here. A 
week isn't very long.
    Any further questions?
    Well, thank you very much. Again, I want to say thank you 
for doing a great job. I am impressed with the management that 
you brought to the Kennedy Center and the outreach. I just said 
to Lori, we are going to alert our schools back home to get in 
on this and Mr. Nethercutt is going to alert his millionaires 
that you are going to be there to see them. Thank you again and 
we look forward to sharing and supporting the programs with 
you.
    Mr. Wilker. Thank you, Mr. Chairman. I thank you for your 
and the subcommittee's support for all we do. We couldn't do it 
without you.
    Mr. Regula. The committee is adjourned. We will reconvene 
at 2:00 with the Secretary of Energy.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, March 15, 2000.

            WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

                                WITNESS

LEE H. HAMILTON, DIRECTOR

                              Introduction

    Mr. Regula. I will call the committee to order. We are 
happy to welcome our former colleague, Mr. Hamilton, and I want 
to say at the outset you are doing a terrific job with the 
Woodrow Wilson Center. We had a point in time when we were not 
sure that it would survive as an effective institution, so much 
that one year in the House mark there was no money. We finally 
put some in at the end but I think what you have done is 
accomplished the mission that was perceived, that this would be 
a living memorial for us. In addition to being president, 
Wilson was a scholar and I am very impressed with what has been 
happening at the Center.
    We will put your statement in the record, and you might 
want to share a few highlights. As I say, we only have an hour 
scheduled for this hearing, so if we get more members, we may 
have to be a little repetitious.
    Mr. Hamilton. Thank you very much, Mr. Chairman. It is a 
pleasure to be here before you. You are right about President 
Wilson, he was the only United States president with a Ph.D., 
and so he had a particular interest in what the Woodrow Wilson 
Center is all about, which is to bring interaction between 
scholars and policy makers. His phrase is that the scholar and 
the politician are engaged in a common enterprise, and that 
pretty well expresses the mission of the Wilson Center--the 
idea that the politician can learn from the scholar and the 
scholar from the politician.
    We have had a very good year in 1999, and I want to thank 
you for your extraordinary support of the Wilson Center, I am 
deeply appreciative to you and the members of your 
subcommittee. Your support has been vital to the success of the 
center.

                           DIRECTOR'S FORUMS

    I said 1999 was a very good year. I am not going to dwell 
on the past because it is covered in the statement, but we have 
over 300 meetings a year, we have 150 scholars who come in for 
varying lengths of time, some for a few months, rarely more 
than a year. We have had 24 directors forums. That is where we 
bring in outstanding leaders. We had our former colleague Newt 
Gingrich, Bill Perry, President Gorbachev, and many others.
    Mr. Regula. I wonder if you would submit for the record a 
list of those. I believe that is good information.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hamilton. We will be happy to do. We have an ongoing 
schedule and we will have a large number of prominent people in 
this year as well. We also put out about a dozen books a year. 
We have a radio program that goes out to 200 stations, plus the 
Armed Services Network, the largest network in the world. We 
have The Wilson Quarterly, which has a subscription of about 
60,000 persons, which puts it at the top range of academic 
journals.

                          THE WILSON QUARTERLY

    Mr. Regula. If I can interject there, if you would suggest 
to the editor that they mix in some short stories with long 
stories because a lot of times I stick it in my briefcase and 
some of the long ones are quite good but sometimes I don't have 
time to finish them.
    Mr. Hamilton. That is a very good suggestion. We have an 
excellent editor, and he has made it more lively. He is trying 
to reduce the length of a lot of articles and we are putting 
more articles in. I will convey your message to him.
    Mr. Regula. A mixture.
    Mr. Hamilton. That is a good point, and I will convey that 
to him. We have had a lot of Members from the House and the 
Senate down to the Center. I don't know that I have an exact 
figure, but we have had 20 appear on various programs during 
the past several months.

                            CENTER PROGRAMS

    Our budget is $15 million, roughly half of it comes from 
appropriated funds, a little more than half is privately 
raised. We have a lot of very successful programs that work in 
various areas--I am not going to go into detail--in Latin 
America, Europe, the United States and Russia. We are 
developing some new initiatives that I will say just a word 
about because they are more future in their orientation.
    The Kennan Institute is, if I may say, the American 
institution in Russia today that has more credibility than any 
American enterprise in Russia. As you all know, the U.S.-
Russian relationship is bad. The perceptions of Americans is 
not good in Moscow today and the Kennan Institute has 
credibility there. The Institute has recently established 
offices in Moscow and the Ukraine to bring together the 
scholars and the policymakers in Russia and in Ukraine to try 
to do very much what we do here in Washington. That is 
desperately needed there, and it is a good program.

                            KENNAN INSTITUTE

    Incidentally, the Kennan Institute has just entered into 
the early phases of a contract with the Carnegie Foundation, 
which will create centers of excellence throughout the former 
Soviet Union. It is one of the large grants I believe that 
Carnegie has ever given. There has been such a deterioration in 
the quality of higher education in Russia, it is really a 
serious problem for the country because it means that good 
people are not coming along, and Carnegie is very interested in 
that. We are interested in it and they have asked the Wilson 
Center to supervise the implementation of the program.

                            CONGRESS PROJECT

    I mentioned Don Wolfensberger. He is a former staffer with 
the Rules Committee, and he has had a marvelous, long-term 
relationship with the Congress. He has had a program on the 
purse strings in which they talk about the politics of the 
appropriation process. There has been a lot of interest in this 
community because there is so much interest in what you folks 
do here around town. We have had some gaps in our programming 
in the past, and we are trying to pick those up.

                       other project initiatives

    We have a project going on on Africa that I am pleased 
about, focusing on AIDS and some of the other major problems in 
Africa today.
    One of the more exciting projects that we have in the mill 
is a joint venture, if you would, with the Los Alamos 
Laboratories. I am not the person to testify about this, but 
the computer capabilities are moving ahead dramatically so that 
you get exponential increases in the ability to compute.
    We can't help the scientists out there on the technical 
aspects of it, but they want to bring together some of the 
leading thinkers in the world to think about the consequences 
of these mega computers that are coming out, what it means for 
climate control, for the New York Stock Exchange, for life, the 
creation of life and all the rest of it, simulating the 
patterns of the brain.
    We are moving, as I understand it, into an entirely new 
world with the computer capabilities that are being developed 
today at Los Alamos. They are in control of the science, but 
what they are not so sure of is the social and intellectual 
impact of these mega computers, and so they want to bring 
people in and they have asked us to take part in organizing 
such a project.
    Mr. Regula. You don't think of Los Alamos as a computer 
center.
    Mr. Hamilton. I wish I had the figures. I am not that well-
informed, but there are billions and billions of computations 
per second that will be achievable. It just staggers the mind 
as to what they can do.
    I have always been concerned that we don't have enough 
attention paid to Canada in this city, and so I have begun work 
on a project on Canada. We have the support of the former 
Canadian ambassadors to the United States and the U.S. 
ambassadors to Canada. We are trying to raise money largely in 
the Canadian private sector to raise the visibility of U.S.-
Canadian problems.
    We also have a Middle East project underway, and a project 
on the future. One of my concerns has been--and I think many 
share this concern--that the Federal Government particularly is 
not very good at thinking long-term with the exception of the 
Appropriations Committee, of course.
    Mr. Regula. You are absolutely right. We will find that out 
this afternoon when we have the Secretary of Energy.
    Mr. Hamilton. But the private sector is much better than 
the government sector in terms of thinking 10, 15 years out on 
the problems that you are going to be confronted with. So we 
are starting up a project on the future just looking at future 
challenges to the country down the road. Just by way of 
illustration, I met the other day with one of the leading 
demographers in the country, and he was telling me what we can 
reasonably foresee in the way of challenges the country will 
confront just because of the multi-cultural diversity we are 
going to have in the country because of immigration patterns.
    We really need to be thinking a lot more about these kinds 
of problems, and so we are going to develop a project on the 
future, thinking about these things, not only identifying the 
problem, but trying also to figure out how you can get the 
Federal Government to pay more attention to them, which is a 
big-time problem in many areas. Some areas of government do 
pretty well at it but many do not.

                             Public Affairs

    I conclude here about unfinished business. I have never 
been satisfied with our outreach effort at the Wilson Center. 
We have all of this terrific activity going on, meetings, but 
we don't do a very good job of getting the word out. You were 
pointing that out, indeed just a few minutes ago, Mr. Chairman.
    We just got some money from the Ford Foundation to review 
all of this. It was over a $100,000 grant. We have completed it 
now. The reviewers have made recommendations to us, and I like 
the recommendations. We are going to be implementing them as we 
can through the enhancement and improvement of the website, 
better graphics, and better materials to inform people of what 
is going on at the center.

                                 Themes

    I have tried to bring more coherence to the work of the 
Center. That has been one of our big problems because we have 
all of these very bright people coming in from all over the 
world to do work. Incidentally our scholars are roughly 70 
percent American and 30 percent foreign. Sometimes that ratio 
varies a little bit. But I want to get more coordination and 
coherence to the work of the Center, and so we want the center 
to focus on themes. We have picked a few major themes: One, 
governance, democratic institutions, civil society; number two, 
the U.S. role in the world; and, number three, what I mentioned 
a moment ago, significant future challenges to the country.

                              Fund-Raising

    On fund-raising in the private sector, we are very active. 
I went to about 10 cities last year, and I will go to about 10 
or 12 this year on private fund-raising. We are reviewing our 
whole fund-raising effort now. We do it largely with dinners, 
but as you know dinners are used so frequently for fund-raising 
that they are wearing out a little bit, so we are looking for 
new ways to do it.
    Fred Bush heads up our development in the Center, and he 
has done a marvelous job. He is developing a corporate 
membership program and other means of raising money.

                             Joint Venture

    The last thing that I will say, Mr. Chairman, we find a lot 
of opportunities to move into joint ventures with other groups. 
I had lunch yesterday, for example, with the Aspen Institute 
people to talk about ways in which we could jointogether. We 
have had contacts from the Hudson Institute, the Tuck School of 
Business at Dartmouth, the National Endowment for Democracy, the 
National Endowment for the Humanities, the Aspen Institute, the 
Heritage Foundation and other think tanks around town. We look 
seriously at each one of those to see if we can enhance the outreach of 
our programs. We have to be careful about it because every institution 
is a little different, but we do think that it is a way to increase the 
effectiveness of what we do.
    The last comment is I think we have a terrific staff. 
Several of them are with me here, Ronnie Dempsey and Mike 
VanDusen and Donald Wolfensberger. We have a very good chairman 
of the board, Joe Cari, an active board, and it has been a 
great place for me to work.
    [The statement of Mr. Hamilton follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                Scholars

    Mr. Regula. Well, thank you. You have done a great job. 
This is the first time in 5 years that we have had the Wilson 
Center come for testimony. I think you were in a state of flux, 
but you have provided a good report. Do your scholars 
participate for a period of a year?
    Mr. Hamilton. Maximum a year. Most of them come on a 
sabbatical arrangement where they are here for 9 months, some 
of them only for a couple of months. We are very flexible on 
it. Most are there for 6 months to a year.

                                Taxpayer

    Mr. Regula. This is sort of an off-the-wall question, but 
if a taxpayer in Canton, Ohio says you are spending some of my 
money on the Wilson Center, what do I get out of that, what is 
a response?
    Mr. Hamilton. There are several responses, but one response 
is that I think the American public is disappointed in the 
quality of dialogue that takes place on public policy issues 
today. You hear a lot of that in the context of incivility in 
the Congress and other places.
    One of the things that we do right at the Wilson Center is 
to get the right people in the room. We don't have large 
meetings. A large meeting to us is a hundred, 150 people. Most 
of our meetings are 20, 30, 40, 50, 60 people, but we work very 
hard to get different points of view, scholars, policy people, 
politicians together to discuss a problem.
    If you were to slip into the back of the room and just 
listen for awhile, you would be very pleased with the quality 
of the dialogue that takes place. You wouldn't agree with 
everything, you would agree with some things, but you would 
like the way in which it is done. In other words, I think we 
discuss tough public policy problems in the manner in which the 
American public would like them to be discussed.
    We don't make recommendations. We are not a think tank, and 
everybody expresses their own views so the emphasis is on the 
quality of the dialogue, and I think we are able to raise the 
level of discussion of these issues. We have a lot of different 
programs.
    One, for example, is of a very different nature. We are 
carrying on a tremendous project about environmental problems 
in China. China has horrendous environmental problems. They 
very much need American know-how and technology. They are very 
sensitive about that. We can sometimes be a little arrogant in 
the way in which we present it, but this dialogue is the way to 
do it to get the Chinese and the Americans together to discuss 
their problems, and it raises the whole level of understanding 
of the problem.
    This program is so good, incidentally, that the White House 
contacts us and says we want to keep informed about this 
program and we want to have some input to it and keep informed 
about it because environmental concerns in China are a terribly 
important matter.
    Mr. Regula. Well, I think it says that you have 
credibility, which is the coinage of your institution.
    Mr. Hamilton. Absolutely.

                                Website

    Mr. Regula. What kind of feedback do you get from the 
university-college community? Also as part of that what kind of 
information would be put on your website that John Q. Citizen 
from Ohio might access?
    Mr. Hamilton. We have a very good, much improved website 
that is well designed, and it keeps a pretty good summary of 
the meetings, not as good as I would like it to be, but a 
pretty good summary of the meetings that go on each day. So 
they can access a lot of information about what takes place at 
the Wilson Center. On a daily basis it is updated. I mentioned 
the Ford Foundation survey, and one of the things that they 
recommend is that we bring in some people to help us design and 
improve the website so that it has a higher quality.
    I don't know the number of hits that we are getting on it. 
I can get that information to you so you have some sense of it, 
but it is a very active website.
    [The information follows:]

    The Woodrow Wilson Center's websites receive an average 
total of 1,160 visits per day. The Center's main website is 
updated daily to include information of forthcoming meetings, 
reports of recent events, and other information about the 
Center's staff, scholars, and publications.
    The Center also supports two more specific sites dedicated 
to the Environmental Change and Security Project (ECSP) and the 
Cold War International History Project (CWHIP). Each of these 
websites receives the following average number of visits per 
day: ECSP--125; CWHIP--535; main site--500.

    Mr. Regula. Maurice, have you been to the Wilson Center?
    Mr. Hinchey. I have not.

                           Director's Forums

    Mr. Regula. You should go. I went to the Gorbachev lecture. 
I refer to some of the things that he said, andit was a unique 
experience to be sitting in a lecture by him because I was over there 
with Speaker O'Neill when he first assumed power, and how the world has 
changed. His daughter was sitting beside me, Gorbachev's daughter and I 
said tell your father that history will be very kind to him because 
basically perestroika was his creation. Probably the wall would not 
have come down as soon had it not been for the impact of his period of 
time.
    But anyway I hope you can get there. It is a great 
institution.
    Mr. Hamilton. We will make sure that you get an invitation.

                             PUBLIC POLICY

    Mr. Hinchey. Thank you. I look forward to that. I must 
confess that I am not very knowledgeable about the Center and I 
am learning about it and it sounds like a terrific place. I 
know that your being there makes it an even better place. I 
know that I was struck by some of the things that you said, of 
course, and one of the obvious things is one that we don't 
often think about, and that is the disconnect between public 
policy and people who are engaged in deep thought about the 
underpinnings of public policy. Too often there is not the kind 
of connection that we really ought to have between Members of 
Congress, for example, who are making these decisions on a day-
to-day basis and people who have the leisure and the 
wherewithal to think about them more deeply and more carefully 
than Members of Congress do. You just don't have the time here 
to engage in that kind of activity.
    So I am just struck by what you said in that regard. I am 
also struck by the fact that the technology today is racing so 
far ahead of public policy, public policymakers are not really 
aware as they ought to be, and I speak for myself particularly, 
of the way in which technology is changing and the way that it 
is going to change the world and the different things that we 
have to deal with and ought to be dealing with. The idea that 
you can make billions of computations in a fraction of a second 
is about a reality. Those things are really happening. 
Miniaturization of computers and all of that kind of thing. I 
think this is so valuable.
    Mr. Hamilton. I might say in reference to your comment 
about the political science community--I think you used the 
word disconnect--I experienced often and I am sure you have, 
the feeling that academics are not very relevant to what you do 
in the Congress. There is a whole school of political science 
thinking that says that you should not be relevant in political 
science, and to the extent that you are, you are off base.
    I think we can begin to impact that. In other words, that 
is one of the messages of the Wilson Center to the higher 
education community, that they must become more policy 
relevant, if you would, to try to be helpful to the policy 
maker and the politician rather than operate in their own 
world.
    Most of our scholars interact well with the policy 
communities. Some need a little push, but most of them interact 
quite well. But your point is very, very well taken.
    Mr. Hinchey. Sometimes you get the sense in any legislative 
body, whether it is a state where I served for a number of 
years and particularly here, there is an awful lot going on 
that would be helpful to you if you were only aware of it in 
making the decisions that you have to make on a regular basis. 
All of us read a lot, as you know from the time you were here, 
newspapers and pamphlets and maybe even a book from time to 
time, but nevertheless you are always feeling when you are 
making the decision on something that you could benefit from 
information that is there and available if you only had more 
ready access to it.
    Mr. Hamilton. And if the information were digestible.
    Mr. Hinchey. Yes. The short stories in among the longer 
ones.
    Mr. Hamilton. You are exactly right.
    Mr. Regula. How many scholars do you have at any one time?

                                SCHOLARS

    Mr. Hamilton. About 150 a year, but if you just walk in 
there on any given day, 40 or 50 maybe.

                            STUDENT PROGRAMS

    I might say that one of the things that we are trying to do 
is--since the whole world revolves around television--is 
increase our capabilities and skill with television. You were 
in the auditorium, Mr. Chairman, you know the facility. We have 
good TV hookups there. We can improve them. One thing we have 
done is we have worked closely with C-SPAN and Close Up 
Foundation to film programs at the Wilson Center about an hour 
in length. Then those programs, including the interaction with 
the high school students and some resources, are shown on C-
SPAN, and then they edit down the hour to about 20 or 30 
minutes, so that they can be used in a classroom period. 
Teachers can show it for 20 or 30 minutes and discuss it. We 
are moving into that area. Close Up is very good because of 
their contacts with the high schools throughout the Nation.
    Mr. Regula. Like the Gorbachev lecture could be shown in 
some of the high schools on C-SPAN. I think I saw snippets of 
it.
    Mr. Hamilton. He was on C-SPAN. The ability to reach high 
schools through the Close Up Foundation is just unparalleled. 
There is nothing like it. They are in touch with more than 
70,000 high schools in the country. We want to try to develop 
that. Most of our work has been aimed at advanced research 
level, but there is a potential for helping high school 
students understand international issues. That is terrific and 
we want to try to exploit that and use it.

                            KENNAN INSTITUTE

    Mr. Regula. Is Ambassador Kennan still living?
    Mr. Hamilton. Ambassador Kennan is alive and well, yes. He 
is in his mid-90s. We had the anniversary dinner for the Kennan 
Institute, and he came down from New Jersey. Secretary Baker, 
former Secretary of State Baker, gave a really good speech on 
Russia for the dinner, but Ambassador Kennan also spoke. When I 
am 95 if I can get up and give a speech like he did, I will be 
pretty proud of myself. Crisp, clear, brief, thoughtful.
    Mr. Regula. He really formulated our post World War II vis-
a-vis Russia.
    Mr. Hamilton. That famous article on containment. The 
doctrine of containment had been adopted almost prior to that 
article appearing. He had been the person with the principal 
input into it, but that article articulated it in a marvelous 
way. It is one of the landmark articles of American foreign 
policy.
    Mr. Hinchey. Like anything, it was subject to 
overinterpretation, and there were some mistakes made as a 
result but nonetheless the underlying theories articulated in 
that article were very, very sound; also worked to the benefit 
of this country and I think the world.
    Mr. Hamilton. Ambassador Kennan has a very deepappreciation 
of the benefits of scholarship. He is a scholar on policy. He is the 
personification of what we seek, the politician-scholar or in his case 
the policy maker-scholar.
    Mr. Regula. Madeleine Albright was a Wilson Center scholar.
    Mr. Hamilton. That is correct.

                            POLICY RELEVANT

    Mr. Regula. And maybe some others around the city.
    Mr. Hamilton. I might just mention some of the activities 
that we have had underway last year developing a dialogue with 
China on global climate change, the evolution of democracy in 
Turkey, Democratic reform in Central Europe, a book on economic 
competitiveness is coming out, evaluation of NAFTA, building 
democratic institutions in the Ukraine, modern history of Iraq, 
the digital age and analog diplomacies. I can read the titles, 
but I don't know what some of these are.
    One of the things that you have emphasized to us repeatedly 
is trying to make our work more policy relevant, and we are 
really working very hard to do that, to try to see that we 
produce things that have some relevance.
    Mr. Regula. I think that is a tremendous improvement. The 
outreach has been remarkable.
    Mr. Hinchey. Yes. Your comment about the situation in 
Russia is one that we need to be reminded of I think 
frequently. It is one of the most disturbing aspects of the 
post-Cold War period that we continue to have an unfortunate 
relationship with Russia and that more is not being done 
energetically to close that gap and bring about a more 
harmonious situation.
    We think of the two relevant previous paradigms, the close 
of World War II and the close of World War I and every time I 
think about this, and I do when someone like you mentions the 
situation, the paradigm that we seem to be following is more 
like the one after the First World War than after the Second 
World War with regard to our previous enemy. There are 
differences. No situation is exactly alike. This is very 
different. But nevertheless there is a serious challenge to us, 
frankly, that is not going to be addressed by anyone else, by 
any other country or any other group of countries.
    We have seen the weaknesses of the European Community in 
trying to deal with circumstances like this in Bosnia, Kosovo 
and elsewhere. Unfortunately, one might say whether it is 
fortunate or not, the burden for these things falls on the 
United States.
    Mr. Hamilton. That is right.
    Mr. Hinchey. I am very interested in hearing from 
thoughtful people what we could be doing better, what kinds of 
things we ought to be doing in a practical way so we don't get 
back into an antagonistic kind of situation at some point.
    Mr. Hamilton. I probably ought to have you visit with some 
of our Kennan Institute people who know that very, very well. I 
just confirm what you said. I think the perceptions of Russians 
towards the Americans and I think vice versa, Americans towards 
Russians, has really gone downhill badly in the last few years. 
The perceptions were quite good a few years back, and now they 
have gone down. What you need to do is get institutions, to use 
the chairman's word, with credibility there, and you need more 
and more of them to begin to build it back up.

                      STUDENT VISITORS AT HEARING

    Mr. Regula. I see we have some students who have just come 
in. Where are you from and what grade are you?
    The Students. Sidwell School in Pittsburgh. We're juniors.
    Mr. Regula. This is Mr. Hamilton, who is a former Member of 
Congress and was the chairman of International Relations, who 
is now the Director of the Wilson Center. I don't know how long 
you are in town, but if you have time you should stop in at the 
Wilson Center. It is down in the new Reagan Building on 
Pennsylvania Avenue, and it basically is an institution created 
in honor of President Woodrow Wilson. They decided instead of 
building bricks and mortar to have a living memorial and they 
do a lot of things. They have scholars, about 150 a year, 30 
percent from overseas, who write information about various 
topics.
    What is your website address?
    Mr. Hamilton. www.wilsoncenter.org.
    Mr. Regula. You will find it very interesting. The group 
over here, where are you from?
    The Students. Falls Church High School.
    Mr. Regula. Well, we are happy to welcome you. This 
committee is Interior Appropriations. We have the 
responsibility to decide how much will be spent on parks, the 
Smithsonian, energy programs. We have Secretary Richardson 
before the subcommittee this afternoon. I think we may be a 
little crowded then. I would recommend that you come back but 
you will have to struggle for seats because Secretary 
Richardson is head of the Department of Energy and there will 
be some interest in what he has to say about gasoline prices.
    What Mr. Hamilton and the Woodrow Wilson Center do is to 
try to look ahead at how events and leaders in other countries 
around the world will impact on the policies of the United 
States, and in effect the energy policy is driven quite a bit 
by international events, i.e. the Gulf War. As I have said, if 
there wasn't any oil in Kuwait we wouldn't have been there but 
neither would Saddam Hussein.
    Where are you from?
    The Students. Falls Church High School.
    Mr. Regula. I think it is wonderful that you come into the 
Capitol and get a firsthand experience. This is Mr. Hamilton, 
former congressman, who is the Director of the Wilson Center, 
and they get part of their budget through our subcommittee.
    Look on the Internet when you get back to high school. Look 
up Woodrow Wilson Center. You will find it very interesting. 
Does the quarterly go out to high schools?
    Mr. Hamilton. Only if they subscribe.
    Mr. Regula. Tell your librarian that your high school 
should have the Wilson Quarterly because there are articles in 
there that you ought to read and that is part of your 
education.
    Well, as you might have guessed, I was a schoolteacher once 
upon a time.

                              WILSON FILM

    Mr. Hamilton. I might say, Mr. Chairman, we have a film on 
the first floor of the Wilson Center--which, as you said, is in 
the Reagan Building--on President Wilson, which in a space of 
about 20 minutes give a very good synopsis of President 
Wilson's career, and it is very, very well done. They would 
enjoy that and learn from it. It runs continually during the 
day.
    Mr. Regula. All of you students have a challenge. President 
Wilson played a critical part of our Nation's history because 
he was there during World War I. So if you have time this 
afternoon, go

down to the Reagan Building on Pennsylvania Avenue, and see the 
film. I haven't seen it so I am going to make a point of seeing 
it myself.

                               Conclusion

    Mr. Hinchey, any further questions?
    Mr. Hinchey. None that I can think of. I just want to thank 
you, Lee----
    Mr. Hamilton. Thank you. It is good to be with you again.
    Mr. Hinchey [continuing]. For the opportunity to know you 
when we were both serving here together and for the job that 
you are continuing to do on behalf of the country.
    Mr. Regula. There is an interesting article here in the 
Post.
    Mr. Hamilton. That is my PR department.
    Mr. Regula. Thank you very much.
    Mr. Hamilton. I didn't tell you about that.
    Mr. Regula. Thank you very much for coming. We are so 
grateful for the leadership that you have given the Wilson 
Center because I think you have helped it achieve what we 
really felt was the mission, and we had some disappointments in 
prior years.
    Mr. Hamilton. Thank you, Mr. Chairman. I want to make sure 
that we extend an invitation to all of the members of your 
subcommittee to come down. I will pursue that.
    Mr. Regula. That would be great. Thank you.
    Mr. Hamilton. Thank you.
    Mr. Regula. That concludes this hearing.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 23, 2000.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

WILLIAM IVEY, CHAIRMAN
    Mr. Regula. We're pleased to welcome Mr. Ivey, the Chairman 
for the National Endowment for the Arts. We're sorry we're a 
little bit late here, but we want to keep moving along.
    So we'll put your statement in the record and we welcome 
your comments about your goals.
    Mr. Dicks. Mr. Chairman.
    Mr. Regula. Yes.

                            Opening Remarks

    Mr. Dicks. I'd like to just also welcome our witness, Mr. 
Bill Ivey, and I want to compliment you as well for the 
outstanding job you're doing at the National Endowment for the 
Arts. I want you to know, one of the things I regretted last 
year the most was that we were not able to provide an 
additional $5 million to the National Endowment for the Arts 
that we were able to do for the Humanities. And certainly 
that's no reflection on our Chairman.
    But we were, and he did his very best, but there was just 
one of those situations that was very unfortunate. I think, I 
want you to know that I don't think it reflects at all on the 
work that's being done at the National Endowment for the Arts, 
because I think it's of the highest quality and something that 
our country respects and needs more of. And I just regret that 
this has become such a controversial item.
    I don't think, frankly, it's merited, because I think this 
Committee has asked you to make a number of reforms that have 
been put into place and are working. And I think that the 
country should be proud of what's happening at the National 
Endowment for the Arts. I think the Congress should be proud of 
what's happening at the National Endowment for the Arts.
    And I frankly look forward to a day when we can do better 
by the Endowment for the Arts and the Humanities. Hopefully, 
that day isn't too far away.
    Mr. Regula. I had a suspicion that there was some 
underlying motive there. [Laughter.]
    Mr. Ivey. Thank you, Mr. Dicks. Needless to say, I agree. 
And it's good to hear those words of support, and Mr. Chairman, 
it's good to be here. And I appreciate your quiet, behind the 
scenes work on behalf of the agency. I know you are a supporter 
of ours, and we're very appreciative, as we are of Mr. Dicks' 
support, Mr. Obey and other members of this Committee.
    It's wonderful to be here with you today to talk a little 
bit about the National Endowment for the Arts, where we are 
right now, and to talk on behalf of the President's budget 
request, which is a request for a funding level of $150 
million. This would represent a significant increase from our 
current $97.6 million funding level and would allow us tocarry 
out, with $49 million of that increase, our Challenge America 
initiative.
    I would hope, Mr. Chairman, that my written remarks could 
be accepted into the record.
    Mr. Regula. Without objection.
    Mr. Ivey. And I'd like to just talk a little more 
informally for just a few minutes, because I think this 
particular meeting between me as chairman and you as our 
Appropriations Subcommittee is the most important that's 
occurred since the agency was reduced in size back in 1996. I 
think from the perspective of 2000, we can look back at the 
changes that have occurred in the work of the NEA, and see that 
in effect, not in one fell swoop, not with a single stroke, but 
with a series of activities, some initiated here in Congress, 
some carried out by the agency itself, we can come before you 
today as a different agency, as a new agency.
    And let me tell you why I think that is the case. There 
were reforms put in place. Congress told us to change some of 
the ways in which we did business. No regranting, no seasonal 
support, no general operating support. We took control of our 
grant making and our panel review processes.
    Those reforms worked. Problem grants have ended. I think 
you're not hearing complaints about the agency and its work. 
Reforms were a very important part of this.
    I think in 1998, we developed a new vision and a new 
mission for the agency, and put that vision and mission into a 
strategic plan and in the Challenge America initiative that 
I'll come back to in just a minute. But more importantly, I 
think that there are some hidden indicators of how the NEA is a 
very, very different agency than it was only a few years ago. 
And I'm going to give you a few numbers and interpret them and 
we'll be delighted to provide these in a tabular form for the 
record.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Mr. Ivey. If you look at 1997, we had 2,390 applications. 
Nine hundred and twelve were funded. We funded about 34 percent 
of the total dollars requested and about 38 percent of the 
applications requested were funded. The average grant was a 
little more than $55,000. And those grants went to 51 percent 
of the Congressional districts in this country.
    Now we move forward to 2000. Twenty-seven hundred and 
twenty-one applications, more applications. We funded 1,483 of 
those applications. That means we're funding 55 percent of the 
requests. In 1997, we were funding only 38 percent.
    This year those grants are going to 68 percent, nearly 70 
percent of America's Congressional districts. That's the good 
news. More applications, more grants, more dollars requested, a 
higher percentage of grants funded, and the money is going to 
more places. And we're doing it with less, because every year 
since 1997, and that's after the big cut, every year since 1997 
our overall budget has gotten smaller.
    But there's a down side. And the down side is the 
following. Each grant is smaller. If you go back to 1997, that 
average grant was more than $55,000. This year, we're not quite 
finished with our fiscal 2000 work, but that average grant is 
probably going to be less than $25,000. And we're funding a 
smaller portion of the total dollars requested, so we have 
smaller grants. We fund a smaller percentage of the dollar 
request and we're dealing with more small organizations, so 
that the work is more labor intensive, because they need more 
technical services, and they need more help in implementing the 
task.
    So I think you can see in reforms, in vision, and in the 
actual operations, where the dollars go, a very dramatic change 
in the way the NEA does its work. And I think today we have in 
our Challenge America initiative, exactly the mechanism by 
which we can move forward. We are really topped out right now. 
If you're talking about hitting 70 percent of the Congressional 
districts, with grants of less than $25,000, with the kind of 
resources we have available, I don't see where that goes.
    So the challenge for us, I think, is to fund Challenge 
America, which has as its highest priority access to the arts 
for all Americans, more than $9 million in small grants that 
would go to 1,100 communities around the country. That's its 
highest priority. Fund Challenge America, and really begin to 
move what we have created together, which is an entirely new 
NEA, and move this agency forward to serve the American people 
the way we know it can.
    And I've got a prop or two--can I have my props? This will 
only take a second.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Mr. Ivey. Here are two lovely pieces of art, blown glass. 
And if I had been talking to you about these, perhaps a decade 
or two ago, I would have talked about how art like this 
enhances the home or communities, the intrinsic value of the 
arts, how it uplifts the human spirit to look at it, to live 
around it. But I think if we go behind this, one layer down, we 
look at glass blowing, this is a dirty, tough, hard, hot, 
dangerous business. People who do this are working hard.
    If you go back another layer and ask, who were the artists? 
Well, the artists were young students who came from the poorest 
neighborhoods in the Tacoma area and worked with Dale Chihuly 
to learn how to blow glass in an after school program that has 
taken these kids and put them into this hard, tough, hot work, 
in a way that transforms their lives.
    So I think if we look harder at what these products, what 
these artworks really mean, we understand how great a distance 
we've traveled in understanding what art means toAmerican 
society, that it is about uplifting the spirit, but it's also about 
making our kids smarter, keeping them out of trouble, preserving our 
cultural heritage, making sure we have the kind of communities and 
families and citizens that we want.
    So I'm very proud of what the agency has done. I think 
we've got the numbers to show that even with decreasing 
resources, we've answered the call of Congress to do our work 
more effectively and more places. And I look forward to 
answering your questions.
    And this is all happening in Mr. Dicks' district, so he can 
talk more about it.
    [The statement of Mr. Ivey follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. These are products of the same----

                    HILLTOP ARTIST RESIDENCE PROGRAM

    Mr. Ivey. Both the products of young people in the Hilltop 
Artist Residence Program in Tacoma.
    Mr. Dicks. I would just say, if the Chairman would yield 
just for a minute, in commenting on this, I myself went to the 
Jason Lee Middle School. My products, my blowing of glass, did 
not look quite as good as these. [Laughter.]
    But I do have them on my desk, and Dale Chihuly was in my 
office over the weekend, and I showed him, and he did not feel 
at all threatened. [Laughter.]
    But I will say this. To go there and see these young kids, 
many of which had been in trouble, some of them which were 
actually juvenile delinquents, who said by getting into this 
program and having something to do after school, and being 
engaged in this had changed their lives and had gotten them to 
do things that were productive, got them back into school, to 
get their education. That's what the education program is 
about.
    I think it's a tremendous investment of the American 
taxpayer dollars.
    Mr. Ivey. These pieces are always done by a team. And a 
young man named James Kinnard was one of the makers of these 
pieces. And he actually became a part of that Hilltop Residency 
program when he was running away from the police, he was 
literally running away, and he ran in the door to get away from 
the police.
    And what he saw was so fascinating that he came back and 
brought friends. And today, James is an instructor in the 
program that Dale is developing down in Taos, New Mexico.
    So I think this is wonderful, important work. I think we 
have a transformed agency. I think this is the time to really 
talk seriously about moving our work ahead.
    Mr. Regula. I don't think any member of this Committee 
disagrees. And you are a transformed agency. And I think your 
Challenge America is a great program. I think Mr. Dicks 
eloquently points out the value in his community. I'm quite 
sure that's happening all across America because of the 
outreach.
    You mentioned 30 percent of the districts did not have a 
project. Is it because there were no applications, or that 
there just wasn't an interest there? We'd think there would be 
100 percent.
    Mr. Ivey. Yes, and let me back up and comment on that in 
three ways. The Endowment supports creativity and cultural 
heritage in this country through three different mechanisms, in 
addition to convening and some of the research that we do. 
Forty percent of our money goes to the States. And of course, 
that money is regranted. And it reaches absolutely every 
Congressional district.
    We also provide grants that move through the country 
indirectly, that is, the check might be written in one city, 
but the actual activity, the arts activity, would happen across 
the country. I think if you look at our analysis of where our 
grant money goes, every district in this Nation receives 
indirect support.
    But it's always been, I think, the special concern of this 
Committee, a special concern of Congress, to look at the direct 
work of the agency. And one of the things we have found is that 
some areas in which there is arts activity really haven't 
developed the structures that will enable those areas to 
address the agency effectively.

                           ArtsREACH Program

    We have a program now called ArtsREACH. It's now in its 
third year. And it looked at the 20 States that had received 
the smallest number of grants. Alabama is one of them, Mr. 
Cramer. And it gave special emphasis to those States.
    And the ArtsREACH grants helped communities develop 
partnerships around arts programming. And in fact, right now, 
there's an ArtsREACH grant in the Muscle Shoals area that is 
working on a community cultural plan. And Muscle Shoals is a 
fascinating area. I know it because of my background in country 
music, I know it as a music center. But it's an area where we 
could really do a cultural plan, but in many cases, these parts 
of the country that haven't received direct grants need to take 
a chamber of commerce, an arts organization, a school district, 
a social service agency, pull them together around a cultural 
plan and then together, come to us.
    And what ArtsREACH attempts to do is put the structures in 
place so that these districts that haven't been working 
directly with the agency, have only been working indirectly, 
have the capacity, have the structures. Because many of these 
areas are rural, many of the towns are small. And they need the 
technical service and the partnering that comes along with an 
ArtsREACH type grant.
    And those first 1,100 grants, the first priority of 
Challenge America, is really an extension of ArtsREACH. That 
is, it's an effort to move our work into underserved 
communities, help them develop the structures so they can 
become regular customers of ours.
    Mr. Regula. Do you consider ArtsREACH as part of your core 
program?

                       Challenge America Program

    Mr. Ivey. Well, ArtsREACH is now in its third year. It will 
continue. Now, if Challenge America is funded, ArtsREACH will 
really flow right into the small grant part of Challenge 
America.
    Mr. Regula. Could you put Challenge America in the core 
program? I recognize something else would have to give a 
little, but I like the idea.
    Mr. Ivey. Well, it's a good idea, it's a popular idea. But 
we don't want to give up the wonderful programming that the 
agency is able to fund through its grant making now. In other 
words, I think that we have to be able to support mid-sized 
organizations that are able to apply to us.
    Mr. Regula. Well, tell us how the Challenge America program 
would reach a sector that apparently is not being reached in 
the core program.
    Mr. Ivey. Well, it has two or three components to make it 
attractive to communities that haven't worked with us in the 
past. One is that we provide technical service. That is, our 
staff helps communities craft applications and develop their 
projects.
    The second is that we will enact a fast track turnaround 
process, so that communities can find out quickly if they got 
money or didn't. We're going to give all or nothing grants, so 
that we won't be in a back and forth negotiation as to the size 
of the grant. It will either be funded or not.
    So what we have done is created a funding approach that's 
quite different from what the agency has done in the past, that 
will be especially inviting to communities that haven't worked 
with us in the past that have just small arts infrastructures. 
And we're piloting that right now with a small program. Because 
even though we can't do Challenge America, we are trying some 
of these tactics and strategies, so that when we do have a 
funded program, we'll know exactly how well things work.
    Mr. Regula. How do the communities find out about it? 
Because obviously, you're aiming this at communities that 
haven't participated or are not active. How do they get the 
message?

                           Community Outreach

    Mr. Ivey. We publicize it. And I think one of the classic 
ways, one of the best ways, although it's very labor intensive, 
is to go into a district, in many cases a community or 
Congressional district, and hold a grants workshop in which you 
actually invite all of the arts organizations, the potential 
applicants, to come to a meeting at which the Endowment staff 
explains face to face what the program is, how to go about 
applying.
    And we're able, with our current resources, to do 10 to 15 
of those a year, in areas where we're actually going out and 
stimulating activity by holding what amount to arts town 
meetings.
    Mr. Regula. It seems that if you could use the magazines 
that circulate, like from the National Education Association or 
the Ohio Education Association, and have a little story in 
there about this program, that then teachers and/or 
administrators would realize that this opportunity exists.
    Mr. Ivey. We use the press, we use our website. We use 
service organizations who are our partners, that is, State arts 
agencies and Americans for the Arts, who connect with many 
local arts agencies. We use every device we can.
    But the fact is, and I'll come back to this again, and I 
want to underline the fact that we've reached a point with our 
current resources in which we really can't take it further 
without your help.
    Mr. Regula. So the $5 million is designed really to alert 
people about the core program and the opportunity of 
participating.
    Mr. Ivey. That's the way it works now. In other words, what 
our strategy is, and I think it's an effective strategy, is to 
go into a community, help that community apply, help them 
partner so that in the future, after that initial program is 
gone, they can be regular customers of ours through our regular 
grant making process. They will know how the system works and 
they will be part of our process.
    Mr. Regula. Mr. Dicks.
    I have to go to a meeting on this Budget resolution, which 
of course will be of interest to all the people. So Mr. 
Nethercutt will take over the Committee, but I do want to tell 
you I appreciate your coming this morning. I like the goals, 
and I'm pleased to hear that some of the changes we made in 
past years in the way the program is administered are 
effective. And obviously, we haven't had any egregious problems 
that perhaps plagued this agency, historically.
    Mr. Dicks.
    Mr. Ivey. Thank you, Mr. Chairman.
    Mr. Dicks. I also want to compliment the Chairman. Because 
the Chairman was the person who led the effort on these 
reforms, which the Committee went along with. But he has played 
a very constructive role, in my judgment, on this whole matter. 
My concern is that we just have to do better in terms of the 
funding levels, and that will be another challenge for this 
year.
    Tell us some more about arts education. It's a recurring 
theme in your budget request. Your statement talks of the goal 
of every child being taught music, painting, sculpture, dance 
and theater. What can you tell us about the state of arts 
education in American schools today?

                             Arts Education

    Mr. Ivey. Well, arts education, and you've made the central 
point about the importance of the arts in education, but 
clearly, beginning 15 years ago, budget cuts at the local level 
forced the arts out of many school systems. And the National 
Endowment for the Arts, beginning nearly a decade ago, first 
invested in the research that laid the groundwork for setting 
and establishing national standards in arts education, helped 
found the national Arts Education Partnership, which brings 
together more than 100 arts and education organizations to work 
on these issues.
    And continues to make education an important, a core part 
of our programming. If you look at our grant making, something 
like $7 million of the Endowment's discretionary funds go to 
arts education projects, some in school and some channeled 
through the work of arts organizations.
    We are working now in a partnership with the Department of 
Education on a small pilot program, addressing media literacy. 
And we hope to expand that partnership with the Department of 
Education in 2001.
    Speaking honestly, the pendulum has begun to swing back in 
the direction of placing arts in schools. One of the primary 
reasons for that is that almost every week, we learn of new 
evidence that values arts education as a component of the 
success of young people, not only in creative work, but in 
other school subjects. So the evidence seems to build almost 
monthly with research at UCLA and Stanford and other 
institutions.
    We understand, as the Federal arts agency, that we're never 
going to be able to foot the bill. I mean, the Federal 
Government only pays a small part of our Federal education bill 
in total. We are a small agency compared to the Department of 
Education.
    However, we are the agency that gets up every morning and 
worries about America's creativity and cultural heritage and 
how important it is for our young people to have the 
creativeskills necessary to understand advertising, to create in an 
economy of ideas, help be good citizens. So we think we're the right 
ones to pilot programs, and to determine best practices and create the 
partnerships that will concentrate on moving the pendulum as far as it 
needs to go now in putting the arts all the way back in the schools the 
way I had arts in schools when I was a young man in northern Michigan.
    So we think it's a very, very important subject. The 
pendulum is swinging in the right direction. We've made a 
commitment with our current resources. We can do more with 
more.

                         AFTER SCHOOL PROGRAMS

    Mr. Dicks. You mentioned the Hilltop Artist in Residence 
program in Tacoma, which I think is an excellent example of 
this after school hour initiative. You talk about in your 
statement a million dollar leadership initiative to offer safe 
havens and art activities to young people during the critical 
after school hours. We talk a lot about having, you know, 
sports activities or things like that.
    But the arts could be just as important for some of the 
kids in terms of giving them something positive to do, or we 
wind up having their, we see them getting involved in juvenile 
crime and they get the whole law enforcement thing, which is 
also very expensive. Is this a better alternative?
    Mr. Ivey. Well, Mr. Dicks, I agree completely. In fact, I 
would assert, and partly I think it's my job to assert this, 
but I believe it, that the arts are even better than sports as 
a way of engaging young people----
    Mr. Dicks. Well, don't go too far here. [Laughter.]
    They're at least as good.
    Mr. Ivey. That's right. I don't want to step on your 
cultural heritage. [Laughter.]
    Mr. Obey. At least better than the Washington football 
team. [Laughter.]
    Mr. Dicks. I would remind the gentleman from Wisconsin that 
in 1959, the Washington Huskies played the University of 
Wisconsin and beat them 44 to 8. So let's talk about your 
football team. [Laughter.]
    Mr. Obey. That's 40 years ago.
    Mr. Dicks. Well, that's when I played, okay? [Laughter.]
    Mr. Ivey. I was on a panel Tuesday morning in which one of 
the panelists was talking about the difference between sports 
and art. And he simply said, sports are short, art is long. And 
there is, I think, an important message there in that for James 
Kinnard, who helped make this, this is something he'll do all 
the way through his life and it's an important transformation. 
The relationship between arts work and what happens to kids 
between 2:30 or 3:00 or 3:30 when school ends and their parents 
get home is a very, very important relationship.
    And one of the things we've done, I mean, you mentioned our 
Creative Links program, which is a $1 million pilot, which is 
very, very little money. That's a pilot that we cobbled 
together out of existing endowment funds for two reasons. First 
of all, we feel that after school programs for at-risk kids is 
really important.
    And second, it gives us a chance to try some of the 
techniques that we hope we'll be putting in place when 
Challenge America is fully funded, that is, the fast turnaround 
grants, the all or nothing grants and so on. That's also a 
component.
    But I'm pleased that you picked that out, because it's an 
important priority for us, and one that we think will, I think 
evidence will come along at an increasing rate that 
demonstrates how fine arts activity is, playing this role for 
young people after school.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Nethercutt [assuming chair]. Thank you.
    Mr. Obey.

                              NEA REFORMS

    Mr. Obey. Well, Mr. Ivey, I was out of the room during most 
of your testimony, and you may have already done this. But I 
guess what I would simply do is ask you for the record to 
respond to the same question that I asked of the previous 
witness with respect to the humanities. I think it would be 
simply useful to have in one place and on one page in the 
record what the criticisms were that were lodged against the 
Endowment over the past five years. What responses you think 
have been made to those criticisms and then segueing into what 
you think that means in terms of the major reasons why your 
budget increase should be supported.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Obey. I don't have a question. I would just like to 
read from something which I think shows the importance of arts 
in school. I have a fellow in my district by the name of Bruce 
Burnside. He's from a little town called Bayfield. They've got 
some of the best musicians in America in that little town.
    He has done a spectacular stage show on the history of the 
Civil War, using letters from Wisconsin Civil War veterans, and 
written some wonderful music to go along with it. But he also 
is one of those artists who works with kids in schools. And I 
just happened to run across this little CD from Meadowview 
Elementary Studio, Eau Claire, Wisconsin, a county which I 
share with Congressman Kind.
    He works with these youngsters. They wrote the lyrics, they 
wrote the melody, he helped them smooth out the rough edges, 
but basically it's their product. I just want to readyou one 
song written by a group of fifth graders. It's called ``Time.''

    Time keeps going by, it never stops to say hello or 
goodbye. It always has been moving on, and always will, too. 
Time keeps going by, by me and you. I've not been here for very 
long, neither have you. Years have passed by long before us, 
before plankton, too. There were suns and stars before us, 
millennia, we know. The light that travels to our eyes, it 
began long ago.
    We're Mrs. Sealy's students now, learning amazing things, 
fractions, backbones, light speed and things that fly with 
wings. Our parents taught us how to walk and to politely eat, 
to clean our room and be respectful, loving those we meet. And 
growing older will change us with more things to do. Getting 
smarter, getting stronger, getting wiser, too. Responsibilities 
adding to our daily plan, college, marriage, jobs and kids, 
preparing all we can.

    You get kids doing projects like this, you're not only 
going to produce some cute little tunes, it's going to 
sensitize them to the world around them, it's going to help 
them work in groups, it's going to do so many things to make 
them understand themselves and to understand their 
possibilities, most importantly.
    To me, this is just one small example of the kind of work 
that is being done all over this country and could be done in a 
far broader range if we recognize that your budget is one of 
those little grace notes that we cannot afford not to fund. I 
don't think that we can afford to let somebody's unhappiness 
with some idiot artist five or ten years ago get in the way of 
expanding this kind of work in every small community in 
America.
    Mr. Ivey. Thank you, Mr. Obey.
    When I was the director of the Country Music Hall of Fame, 
that not for profit organization had a program that connected 
70 volunteer song writers with young people all over Nashville. 
And it was remarkable to see not only the quality of the work 
that those writers co-wrote with the students of that age, 
fifth graders, but also the way in which sometimes students who 
weren't doing well in other components of their lives, in 
school or at home, could excel in expressing their feelings in 
song.
    And just a couple of weeks ago I was up in Vermont, looking 
at a wonderful program that uses the internet to connect young 
composers, seventh and eighth graders, with other students 
composing in other schools in Vermont, and with professional 
composers who critique their work. And it is a remarkable entry 
point into the lives of young people that I think we can't 
afford to not support.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you, Mr. Obey.
    Mr. Hinchey.

                     ARTS AND THE POLITICAL CLIMATE

    Mr. Hinchey. Mr. Ivey, thank you very much for your 
testimony.
    I also want to express my personal appreciation for the job 
that you are doing, you and Mr. Ferris, under what has been in 
the last several years, some rather difficult circumstances. 
You came into these positions at times when attitudes were 
changing and when the political climate in the country was 
changing and when budget allocations were being reduced. I 
think that you both responded to those circumstances very well.
    Mr. Ivey. Thank you.
    Mr. Hinchey. And one might argue, very appropriately.
    But I want to also express an opinion which I hope is not 
too heretical. And that is that the arts have a responsibility 
to be somewhat divergent. They have a responsibility to, in a 
sense, push the envelope, if you will, or in the parlance of 
the time, think outside the box and act outside of the box.
    And in any society where the arts are restricted by the 
instant political climate, there is a society that is 
suffering. Suffering in its creativity, and suffering in its 
growth.
    So I hope that in addition to the attempts that are being 
made to respect the present political climate and to be 
responsive to the present political climate that there are also 
activities going on, both within the National Endowment for the 
Arts and the National Endowment for the Humanities that are 
encouraging creativity in ways that may go beyond what might be 
prescribed at any moment by the current political 
circumstances.
    Mr. Ivey. Mr. Hinchey, that's a good reminder, a valuable 
reminder, and it gives me an opportunity to reassure the 
Committee that nearly 22 percent of our grant making is for the 
creation and presentation of new work. And we very much honor 
the rights of artists, even though we understand as a Federal 
agency from time to time there are going to be things that we 
can't fund. I think that's a given.
    But we can still push the envelope, emphasize creativity 
and support the new and the innovative. I think it's always a 
good reminder.
    And I will also say that while I understand that reaching 
Congressional districts, reaching out to communities is 
politically attractive, attractive to Congressional leadership, 
it's also important for the agency. We serve the American 
people. We can have great impact with even small dollars in 
small settings. And so it's not entirely something that we're 
doing for political reasons. It's something that we really feel 
is important as part of our mission.
    But thanks for the reminder about that core value around 
creativity and presentation of work.
    Mr. Hinchey. For me, it's been helpful to have your 
testimony following Mr. Ferris. Because he reminds us of the 
importance of knowing and honoring history. And in the context 
of art, historically, we must remind ourselves that there have 
been few moments in history when the art of the time, which 
came to be appreciated later by later generations in later 
periods, had the same kind of recognition at the moment it was 
being created.
    So that, I think, is an important part of the arts.
    Mr. Ivey. Yes.
    Mr. Hinchey. The arts that are the greatest are the arts 
that are leading society, leading the present climate, leading 
the present circumstances, and not being dictated by them.
    Mr. Ivey. Thank you.
    Mr. Hinchey. That's just my personal bias.
    Mr. Ivey. But thank you. I agree.
    Mr. Hinchey. Thank you, sir.

                              NEA REFORMS

    Mr. Nethercutt. Thank you, Mr. Hinchey.
    Mr. Ivey, I think you've been a refreshing change in the 
NEA. As you testified, it is a new NEA. I think the reaction 
that occurred in Congress in the mid-1990s now, after 1994, was 
a direct response to what many elected officials and many 
citizens across the country thought was perhaps alack of 
control or a misdirection on the part of NEA as it relates to the 
amount and the kind of art that was funded by taxpayer dollars.
    I think you're to be complimented in making this change, 
making the dollars that have been provided to you by the 
Congress and the taxpayers go as far as they could under the 
circumstances, and in a direction that wasn't so offensive to 
an awful lot of people in the country. So there was a cause and 
effect, I think, a stimulus response to the action that was 
taken in the mid-90's, that I think a lot of people in the 
country feel was very justified.
    Nobody quarrels with the idea of creativity, and the arts 
as a place for creativity. The challenge is, should the 
taxpayers pay for that creativity, when in the opinion of many, 
it was offensive to the senses. Maybe it was artistically 
acceptable to the artist, but to the general public, I think 
there was a great offense that occurred in terms of some of the 
art that was funded through the NEA.
    So you're to be complimented in making fewer dollars 
perhaps go farther. I am speaking as one who's been on this 
Committee for five years and has had concern about not only the 
dollar amounts that are spent in the Federal Government in a 
lot of different areas, but in this concept that the private 
sector, which funds a huge amount of art in this country, it's 
billions of dollars. I think the testimony here has been that 
for $100 million or thereabouts that goes to the NEA, it 
generates some $9 billion in artistic funding across the 
country. If I'm wrong on that number, I stand corrected. But 
it's a lot. It's a multiplier, a large multiplier effect.
    Mr. Ivey. Yes.

                         Private Sector Funding

    Mr. Nethercutt. My question for NEA over the years has 
been, that there is a tremendous artistic community in the 
Nation that is on the commercial side very profitable. If NEA 
is an endowment, is it not in the NEA's best interest to pursue 
the private sector opportunities that are out there, to 
supplement that which is the seed money for NEA, as opposed to 
looking past the private sector and only to the public sector 
for the funding?
    So if there is a change in the law needed that will allow 
you to go out in the private sector and build an endowment that 
will help supplement that which the Congress I think will 
continuously give to the NEA, and the taxpayers, is that an 
opportunity you see as a fruitful one? To the extent this 
Committee needs to do something to change the law, we'd be 
appreciative of knowing what needs to be done. And your 
response with respect to the changes that you've brought to the 
agency that have encouraged others to support NEA now as 
opposed to being against it in the past.
    Mr. Ivey. Thank you for the question. I'll respond with, I 
guess, two or three ideas. The first one comes from my 
experience when I was the director of a cultural not for 
profit, the Country Music Foundation in Nashville, that from 
time to time, did apply to the National Endowment for the Arts, 
was funded occasionally. And one of the things that I knew as a 
director of a cultural not for profit organization was the last 
thing that I wanted was to have our Federal arts agency out 
raising money from exactly the same kinds of entities that we 
were so reliant on for ongoing support. I wanted to see the 
Federal agency as a partner, not a competitor.
    So when I first came to the chairmanship, and Mr. 
Nethercutt, you and I have talked about this in your office a 
couple of times, I felt very strongly that the Federal 
Government should not be trying to take away the money for our 
general operations that might have as its destination otherwise 
a freestanding cultural not for profit agency.
    I also am a very, very strong believer, philosophically, in 
the importance of the Federal role in investing in creativity 
and cultural heritage. The Nation is still on a path to 
understand just how much we define one another to ourselves in 
a democracy through art and art making. I think we have yet to 
understand completely as a society the degree to which our 
cultural work is our calling card, is democracy's calling card 
all around the world.
    I think as we gain that understanding, understand how arts 
and culture connect us together, connect with the outside 
world, and serve young people, a Federal investment will become 
easier and easier to make. I don't think we're quite there yet.
    But I believe that the investment is an important one, and 
I think if you look back over the 35 year history of the 
agency, I think, we didn't pay for it, but I think we helped 
cause a tremendous explosion in the American art scene and 
provided a sense of centrality and continuity and leadership 
that helped make that possible. So I believe in the Federal 
role.
    Those two things, which are disclaimers, then lead me to 
say, I do think there are important times in which we can 
partner with outside entities around special projects. And I 
think it is appropriate for the agency and we do have the 
authority, because Congress did give us the authority to raise 
money for our activities, to partner with the private sector. 
It is appropriate for us to use that authority to bring in 
money.
    And right now, I had hoped I would be able to announce it 
today, but we're still, you know, in this case we're an 
applicant rather than a funder, and we are not entirely in 
control. But I'm very optimistic that within a matter of weeks, 
we'll know about a very substantial grant from a private sector 
entity to help us partner in our program to bring technology to 
arts organizations around the country.
    It's a very, very important activity. Our resources are 
limited, about $3.6 million. The private money will help us do 
that job better.
    So I will always, you know, whenever we meet in your 
office, we'll always have this conversation about the larger 
question. But I do agree that there are many times when the 
agency can and should partner with the private sector in 
carrying out its work. We're working on a very specific program 
right now that I think will be most exciting when it's 
completed. And there are other things in the pipeline.

                    Obligations of NEA Beneficiaries

    Mr. Nethercutt. We've also talked about the idea that a 
beneficiary of the NEA who goes on to commercial success, 
renowned commercial success, may have an obligation, should 
have an obligation, it seems to me, to pay back to that agency 
which was the foundation funding source for that success. 
Professional football players do it, get their college 
scholarships, go on to make a zillion dollars and they make big 
grants back to the university to enhance the university's 
purpose in life.
    Mr. Ivey. Right.
    Mr. Nethercutt. I'm just thinking, it makes sense for your 
agency to consider that. I've tried to get your predecessor to 
do it repeatedly. And it hasn't happenedparticularly, but maybe 
you have a different view.
    Mr. Ivey. Well, I do think that, we would hope that the 
agency would have the budget and the engagement with American 
society, so that every artist would feel, at the time they 
enjoyed success, that they had been touched by the NEA. Well, 
right now, Congress actually told us with a few exceptions to 
not give direct support to individual artists. And so we've 
actually moved a big step back from creating the kind of alumni 
association that would feel about the NEA the way alums feel 
about the great universities that produced them.
    Also, we have found that many artists, you know, they're 
taxpayers, they have their own interests in charitable giving, 
their own kinds of programs, sometimes they involve the arts. 
Just the other day, in fact, Meredith Brooks, contemporary rock 
singer, she has a program called AMP, Anybody's Mentoring 
Program. And it is about bringing performers into schools to 
mentor young people.
    And this is something she's doing on her own as a 
successful artist, with her own money. And I think that there 
is a real engagement.
    What I would like to see is a kind of Federal arts agency 
that does connect with American art making to such a degree 
that we build exactly the kind of loyalty that you're 
describing. Where a successful artist, where Garth Brooks feels 
he should support the NEA because we were able to touch him 
when he was a struggling songwriter.
    Right now, we're not quite that kind of agency. But I think 
that it would be wonderful to have that sort of relationship 
with the artistic world.
    Mr. Nethercutt. I agree with you, because there's a lot of 
resource out there, I think, to enhance your mission and 
enhance your funding resources. So I thank you for your good 
work, especially your history in Nashville. I have a young 
daughter, Meredith Nethercutt, who's a sophomore at Vanderbilt. 
And we're very happy with your former residence.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Nethercutt.
    I agree with the description that Mr. Ivey is doing an 
excellent job as head of the National Endowment for the Arts. I 
even agree with the concept that it would be nice if some of 
the beneficiaries contributed back to what the NEA is doing. 
Although if that were suggested at the outset of a grant, I 
think it would inhibit some of the grantees from seeking those 
grants.
    I have never known of an athlete who was recruited who it 
was suggested, now, we expect that once you're successful, 
you're going to give back to the university. They do because 
it's voluntary and because they want to, and because there's a 
substantial reason for the sense of loyalty.
    And, the reality is that most grantees don't make much off 
NEA. NEA gives them seed money and then they subsequently may, 
oftentimes, go on to prominence. But Mr. Nethercutt, I'm going 
to pick on you, because you're the only one left here. 
[Laughter.]
    Mr. Nethercutt. I think your time has expired, Mr. Moran. 
[Laughter.]
    Mr. Moran. I don't think so, yet.
    This characterization that we have been getting, that the 
NEA was substantially in need of reform and transformation, and 
that now that it is finally being changed, we can afford to 
give it money, and restore its funding, is false. The reality 
is that the National Endowment for the Arts has always been an 
extraordinarily excellent organization.
    I think what the Republican party did in 1995 with NEA's 
budget and for succeeding four to five years was absolutely 
reprehensible. It was not accurate. What your colleagues did 
was to pick a few grantees that received very little money, 
most of them were subcontracts, subgrants, and deliberately set 
out to embarrass the NEA and embarrass its supporters. It 
backfired, because what it did was mobilize support throughout 
the American community, and so now it would be foolhardy for 
most people except the most extreme ideologues in the most 
conservative districts of the country to continue with this 
kind of mischaracterization and destructive attitude towards 
the NEA and the NEH.
    But Jane Alexander did a wonderful job. She should have 
been commended. She never should have gotten the criticism that 
she got. The few little things, pockets of money that went to 
people who acted in controversial ways, was not at all 
reflective of what that organization did. And if we were judged 
for 100 percent of our actions instead of the majority of our 
actions, and certainly if people were to pick one-tenth of 1 
percent of the things we do in a day or in a year, we would be 
subject, rightfully so, to far more scrutiny than the NEA and 
NEH received.
    It was wrong what was done to them. And one of your 
colleagues, Mr. Hoekstra, for example, put together a 
compendium, hired a person, I understand, full time, and it can 
be refuted if it's not true, but to go after the NEA and NEH. 
At one point there was a grant that was a compendium of 
independent film makers. The only thing that was funded was the 
compendium itself, which was inclusive. And then suggested that 
the films that were listed, all of them were recipients of NEA 
funding.
    That was not true. It was a mischaracterization. I heard it 
on the Floor, and I heard a whole lot of other things that just 
amounted to very unfair criticism.
    We need to get off this. We need to go back to bipartisan 
support for the arts. As you suggested, it's a very small 
amount of money that is put into the arts in this country. But 
it's seed money. And the NEA and the NEH deserve the 
credibility that they have when they identify prospective 
grantees. That helps those grantees generate more money. And 
that's why it is so important, because it multiplies the amount 
of funding that our artists deserve.
    Now, I want to ask, there's a suggestion by Mr. Goodling, 
whose contribution has been less than constructive, in fact 
it's been destructive, with regard to NEA and NEH, because he 
chairs the authorizing committee. But he has a long list of 
things that he wants included in this appropriations bill. I 
trust that some of them are going to be wholly rejected by the 
Appropriations Committee.
    For example, he wants to place the NEA under the Chief 
Financial Officer's Act. Has this been discussed?

                     Chief Financial Officer's Act

    Mr. Dicks. Not that I know of.
    Mr. Moran. Good. Well, he wants to place the NEA under the 
Chief Financial Officer's Act. In a letter that he wrote to Mr. 
Regula, he wants to give more power to the NEA's inspector 
general, which would come out of their funds, and he wants to 
cap administrative expenses at 10 percent.
    Administrative expenses are at 16 percent now. And one of 
the things they do is to go about identifying the very best 
grantees. That takes a lot of expertise, it takes a lotof 
administrative costs to do this. It's not just a matter of funneling 
money. It's a matter of making some very difficult judgments.
    I'm surprised they're able to do that with just a 16 
percent overhead. Certainly they shouldn't be limited to 10 
percent.
    My question is, what would be the impact of placing the NEA 
under the Chief Financial Officer's Act. Would it constrain 
you? It seems to me that it's a superfluous, unnecessary thing 
to do. But if you have no objection to it, then there's no 
sense in our objecting to it.
    Mr. Ivey. We believe it would cost additional money. We 
already obviously, and properly, comply with all of the 
regulations in terms of accounting. And this would simply make 
us hire more people. So it would increase our overhead and have 
no material effect on the way in which we accounted for our 
activity. I don't know of any problem. We're in compliance with 
all agency regulations in terms of our financial practices and 
financial management.
    Mr. Moran. There's no backup to show why in God's name this 
would be necessary or appropriate use of money.
    Mr. Nethercutt. Would you yield for a minute on that?
    Mr. Moran. Yes, I'd be happy to yield.
    Mr. Nethercutt. You acknowledge, though, that virtually 
every single Federal agency has an IG.
    Mr. Moran. No, not the small agencies. Large Federal 
departments do. Not small agencies like this.
    Mr. Nethercutt. But many agencies do. And so IGs are not an 
unusual phenomenon.
    Mr. Ivey. We have an IG.
    Mr. Nethercutt. Yes.
    Mr. Moran. No, we're talking about being put under the 
Chief Financial Officer's Act. And you have an IG. What Mr. 
Goodling wants is to put more money into the Inspector 
General's office, hire more people to oversee the agency. And 
then at the same time, he wants to cut back your administrative 
costs by 60 percent.
    Well, I don't see how you can do that. And that's what I'm 
asking. On first impression, it doesn't seem like, it's 
inconsistent and virtually impossible for you to do.
    Mr. Ivey. We have a very effective IG's office. It seems 
fully staffed and is effective.
    Mr. Moran. So it would not make a lot of sense, promote the 
mission of this agency, to require that this be done. Okay. 
Well, that's what I wanted to hear. Thank you.
    Mr. Nethercutt. Thanks, Mr. Moran.
    Mr. Dicks.

                   Challenges for Arts Organizations

    Mr. Dicks. In your statement, you mentioned a recent 
conference to evaluate the overall financial and management 
stability of American art organizations. You mentioned the 
issue of better use of technology. But what can you tell us 
about its broader conclusions, about the stability and health 
of the American arts infrastructure?
    Mr. Ivey. Well, I think that it's, one of the important 
aspects of our work is supporting the arts organizations, 
organizations that deliver services all over the country. We 
actually took a year off from funding the stabilization of arts 
organizations, endowments and cash reserves and so on, in order 
to look at how an agency with limited resources could do the 
best job of connecting and strengthening arts organizations.
    And we brought in more than 60 experts to talk to our staff 
and others in the arts field about the problems facing arts 
organizations today. And there are some very significant ones. 
They tend to be undercapitalized. There's a real graying of 
leadership. Many people came into the arts field in the 1960s, 
and they've stayed with it, but young people seem to be 
pursuing other career paths. There's a great problem with 
transmitting knowledge from one generation to another in arts 
organization leadership.
    And I think most importantly, we've seized on this for a 
special initiative, many arts organizations have not really 
engaged the world of technology to the greatest ability, to the 
greatest benefit. And so we are piloting a program to which 
we've committed about $3.6 million, which is the part of our 
budget that we devote to strengthening arts organizations, 
through a special initiative that will connect technology with 
arts organizations in many different ways. In other words, 
we're basically going to look at 20 plus pilot programs that 
would in some cases use technology for financial management, in 
some cases for website presence, in other cases for marketing 
programs, educational outreach and so on, and see what works 
best.
    This is the very program, Mr. Nethercutt, that we are 
anticipating a private sector partnership on. And we're 
increasing, Challenge America, ArtsREACH, those programs work 
on what you might call the demand side of our equation. In 
other words, it's all about getting more art in more places for 
more people. You don't move that agenda very far before you 
have to say, how strong are the organizations that we're going 
to call on to deliver, to service that increased demand.
    And so right down the pike I think is a real need to begin 
to address our arts organizations' needs in relation to their 
permanence, their stability, their leadership and so on. And 
we're starting with technology and think it's a very important 
first step.

                       Moving to New Office Space

    Mr. Dicks. You're going to make a move, is that correct? 
You're going to have to move out of your offices?
    Mr. Ivey. Yes. Right now, GSA has indicated that there's a 
directed move.
    Mr. Dicks. Have you got money to do it?
    Mr. Ivey. Well, when you say we've got money, we are----
    Mr. Dicks. No, I didn't say that. I said do you have money.
    Mr. Ivey. Well, we do not. But we have, because it is a 
directed move, we have budgeted for that move. So when you look 
at our budget request, it does include for rent increases, and 
in our present site and in a new site, about $1.2 million of 
additional administrative money. And we really haven't priced 
the move itself yet. Because it's a directed move, we're hoping 
that GSA will find the resources to pay for all or a large part 
of it.
    But we don't know yet exactly what the move itself will 
cost.

                              NEA History

    Mr. Dicks. See, I think in discussing this issue, and I've 
listened to the gentleman from Washington, who I have great 
respect for, for many years, I would go back and have you 
review the history, starting in 1965 when the Endowments were 
created, and look at the private sector money that, because of 
challenge grants and Treasury grants and things of that nature, 
the private sector contributed, sometimes three to one, two to 
one, two and a half to one, four to one, to match the money 
that the Federal Government put up. It was kind of seed money.
    And that's how we got the private sector to really 
startcontributing to the arts, was because of these challenge grants. 
And so you see a direct correlation between how much money the Federal 
Government invested and how much money we were able to get the private 
sector to invest.
    And I don't know the facts here, but I would bet, since we 
have tailed off, that we're not, we may have seen a decrease in 
the private sector contribution. Because they used to look at 
this as, the Federal Government was a partner in this, and now 
we have become an unreliable partner.
    Mr. Ivey. Well, overall private giving in the arts has 
remained flat, even as overall philanthropy has increased 
dramatically with new wealth coming on line. I think that your 
recognition of the importance of challenge grants is useful, 
because when the agency was made smaller, those grants, which 
had such an impact in addressing endowments, capital projects 
for not for profits, those grants went away. We don't offer 
those challenge grants.
    And I think that we've extracted ourselves both from the 
world of support for individual artists directly and from 
fairly medium dollar, $500,000 to $1 million grants to these 
big organizations when they were really trying to move 
themselves ahead.
    Mr. Dicks. I can remember in 1977, when I was a freshman, 
new member of the Committee, Livingston Bidwell and I went out 
to Seattle and gave two challenge grants to, I think it was the 
Northwest Ballet and the symphony. They had an extremely 
positive impact in terms of stabilizing those institutions, 
getting them to grow. Now they're two of the best institutions 
in the country.
    So I honestly believe that what the Federal Government did 
here was proper, and that by cutting back, what we have done, 
and not intending to do this, but undercut the private sector's 
contribution to these types of grants.
    Again, as I said at the start of this hearing, I hope that 
there will be a better day. And also, I would say to my friends 
in the majority that this is something that is working, it is 
doing, the Endowments are doing a fantastic job around this 
country. You can see, especially in the educational areas, the 
value of it. I just hope that we can get back to a better level 
of funding and show the support of the Congress.
    And I disagree with Mr. Moran in this one respect. I think 
the reforms have been important. And I think the emphasis on 
quality, quality has been important. Not to say that you can't 
have things that are controversial. Certainly you will. But 
again, if you look at the number of controversial grants, it is 
so de minimis in terms of all the grants that have been made by 
the Endowment over the years, it is hardly worth discussing.
    But they were unfortunately controversial. And I think the 
way we're dealing with it has been appropriate for a public 
funded agency. And I just hope that there will be a recognition 
of the success of your work, and that we can get the funding 
levels back to where they ought to be.
    Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you, Mr. Dicks.
    I will just close the hearing by saying thank you. I can 
take a lot of time and rebut Mr. Moran. I know he feels very 
passionately about his view of the change that occurred in 
1995. And subsequently, Congress is doing what it's supposed to 
do in analyzing everybody's budget and deciding what's an 
appropriate expenditure and what isn't.
    So part of the oversight of Congress is doing just that, 
overseeing and making judgments. And the majority made a 
judgement and some people disagree with it. That happens every 
day around this place.
    But I respect his views with respect to his passion for 
your agency. And we're going to do our best. I think you've 
brought changes that make Mr. Moran's and Mr. Dicks' argument 
easier to swallow for a lot of Republicans and a lot of people 
in the majority. Because we wanted to see these changes.
    Mr. Dicks. We know there's hope. [Laughter.]
    Mr. Nethercutt. Absolutely.
    Mr. Dicks. The sinners will come to their recognition. 
[Laughter.]
    Mr. Nethercutt. Thank you very much. Nice to have you.
    Mr. Ivey. Thank you, Mr. Chairman.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 23, 2000.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

WILLIAM R. FERRIS, CHAIRMAN

                            Opening Remarks

    Mr. Regula. I think we'll get started this morning. We're 
happy to welcome you, Mr. Ferris, for your presentation on 
behalf of the National Endowment for the Humanities.
    As you know from the schedule, we have an hour for each 
Endowment. So we'll have to stay on a pretty tight schedule. 
We'll be interested to hear what you have to say on your 
outreach programs and what you've been doing in the way of 
activities.
    Mr. Dicks, do you want to make any comments?
    Mr. Dicks. First of all, I want to welcome Mr. Ferris here 
as Chairman of the National Endowment for the Humanities. And I 
want to compliment him on the job you've been doing and the 
responsiveness to members of Congress. And I just want you to 
know I appreciate your hard work and effort, and I think that 
the humanities have never been in better hands.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Okay, we look forward to hearing from you. We'll put your 
entire statement in the record, and any comments or 
observations you'd like to make, we'll welcome.

              Statement of NEH Chairman William R. Ferris

    Mr. Ferris. Thank you, Mr. Chairman.
    I'd like to open by welcoming our new Deputy Chairman, John 
Roberts, who comes to us from the great State of Ohio and is 
doing a great job.
    I'm absolutely delighted to have the opportunity this 
morning to present testimony on behalf of the President's 
fiscal year 2001 budget requesting $150 million for the 
National Endowment for the Humanities. I recognize that the 
Subcommittee faces significant challenges as you consider the 
requests of various agencies under your jurisdiction.
    But I think we all know that the NEH is your best 
investment for the tax dollar because it provides a significant 
return to the American people. We at the Endowment will 
continue to use our budget to do the work that matters most, 
enriching classroom teaching, developing programs for public 
television, supporting some of the country's finest museum 
exhibits, preserving invaluable historical materials from our 
past, supporting new research by scholars and partnering with 
State humanities councils across the Nation.
    The budget that I present to you today will allow the NEH 
to extend its reach to all Americans, to harness technology, to 
educate and provide access to the humanities. It will rebuild 
the core areas: challenge grants, education, preservation and 
access, public programs, research and State councils--for which 
the Endowment was founded.
    The nearly 40 percent reduction of our base funding in 
fiscal year 1996 dramatically reduced the number of grant 
applications that we can fund. I want to stress that while our 
$150 million funding request represents a 30 percent increase 
over our current appropriated level, this amount is well below 
the $172 million budget the agency had at its disposal in 
fiscal year 1995.
    Since 1996, the numbers of grants that we award to 
humanities scholars, to teachers and institutions has been 
deeply cut. These cuts represent a major loss for all 
Americans. Each summer, 1,600 teachers can no longer 
participate in our summer seminars and institutes. But the 
ultimate losers are the 240,000 students who are taught by 
these teachers.
    Endowment-supported films and museum exhibits have also 
suffered deep cuts that deprived approximately 70 million 
television viewers and 4 million museum visitors of programs. 
But within our current budget, the NEH is working hard to do 
the very best for the American people. This summer, our 
seminars for teachers cover topics as diverse as exploring the 
Great Plains history and culture, teaching Shakespeare in the 
new millennium, and developing history and social studies 
curriculum for teaching Native American history.
    On the Internet, our award winning website, EDSITEment, 
which was created with funding from MCI WorldCom, has linked 71 
humanities websites and provides teachers and students with 
access to high quality educational resources on the web. You 
have in your packets a beautiful poster describing this very 
powerful tool that is enriching the lives of every teacher and 
student in the Nation.
    With a cover story in Parade magazine on November 21st, 
1999, we launched our ``My History is America's History'' 
project, which encourages all Americans to preserve their 
family history. We have a guide book and a powerful poster, 
again, that have been placed in libraries throughout the 
Nation. These projects are being used by teachers in classrooms 
and by communities to delve deeper into their own family 
history as a way of understanding their relationship to our 
Nation.
    We are especially proud of this year's award winning 
documentary films, such as ``New York,'' the beautiful series 
that was on public television earlier this year, ``Eleanor 
Roosevelt,'' of special interest to those who care about the 
First Ladies of our Nation, ``Africans in America,'' ``A 
Paralyzing Fear: The Story of Polio in America,'' and ``Frank 
Lloyd Wright.'' Next month, we will unveil yet another award 
winning film in ``The American Experience'' series on George 
Wallace.

                     Support for Documentary Films

    Mr. Regula. Do you pay part of the cost of these films?
    Mr. Ferris. We do.
    Mr. Regula. Do they get a grant to make the films?
    Mr. Ferris. It varies. Our money is usually the seed money. 
It may be half a million dollars for a $20 million series. But 
the imprimatur of NEH--saying, ``this is justified to be 
funded''--allows the film maker, whether it's Ken Burns or 
other film makers, to then go to foundations and corporations 
to get the additional money. But the first step of NEH support 
is the most critical. These are the films that have been so 
deeply cut, so that 70 million viewers are being denied access 
to quality films such as these.
    And, I would stress, there is a pipeline effect. These 
films were funded before the cuts. It takes five to six years 
for a major film to be finished. So that within the next year 
or two, we will see a dramatic fall-off in the quality of 
public television films that we've been able to make possible. 
So the legacy of these cuts is significant.

                      Regional Humanities Centers

    Our fiscal year 2001 request will establish new grant 
opportunities designed to dramatically increase the Endowment's 
outreach to communities across the Nation. We seek support to 
create 10 regional humanities centers where America's rich 
regional heritage of the Midwest, of New England, of the 
Pacific Northwest, will be explored.
    We launched our regional humanities centers competitionin 
the fall of 1999, using $1 million raised from private gifts. Sixteen 
planning grants have been awarded in seven regions and we anticipate 
making four additional grants in three regions this summer. For fiscal 
year 2001, we request $4 million to launch four of the ten centers. We 
at the Endowment will raise the additional $6 million from private 
gifts.
    Because I am on leave from the University of Mississippi, 
which is one of the institutions that received a planning 
grant, I have recused myself from all aspects of the regional 
centers' initiative, except for fund raising for regions 
outside of the deep south.

             ``EXTENDING THE REACH'' AND OTHER INITIATIVES

    Through our ``Extending the Reach'' initiative, and you 
each have a lovely brochure that showcases some of the aspects 
of this work, a series of new NEH outreach programs will be 
aimed at 14 underserved States and at historically Black, 
Hispanic and Native American institutions. We are also 
requesting $1 million in additional funds to preserve 
endangered sound recordings of folk music, jazz and blues.
    This initiative responds directly to guidance provided in 
the fiscal year 2000 House conference report. I think 
Congressman Obey has a special interest in this, as do I. We 
are requesting funding for folklore projects that explore the 
music, the stories, and the folk art of all the American 
people. We will work in close partnership with State humanities 
councils, all of which will receive significant funding 
increases at our request level.
    While it is not in our budget, and I've spoken with many of 
you about this already, we are developing plans to support 
encyclopedias in every State of the Nation. These encyclopedias 
will be both online and in printed forms, and will showcase the 
rich history and culture of each State in the Nation for the 
world.
    Mr. Regula. Well, do all the States have humanities 
councils?
    Mr. Ferris. Yes, sir, they do.
    Mr. Regula. There are 50 of them.
    Mr. Ferris. That's true.
    Mr. Regula. What about the regional centers?
    Mr. Ferris. They will all be linked to the regional centers 
as well. There will be a special relationship that will allow 
the networking within each of the five States in each region to 
be bridged, in a sense, through these humanities councils and 
through the regional centers. And that is part of the planning 
process: to articulate the infrastructure that will vary from 
region to region.
    This will allow us to have a much stronger command of the 
humanities, and a much better infrastructure for reaching out 
to small communities with institutional support that is 
specific to their needs.
    So, in this way, our budget will enable us to bring the 
humanities to significantly greater numbers of Americans. At 
the Kennedy Center this coming Monday evening, I invite each of 
you to sample one of our finest humanities programs when 
historian James McPherson delivers the NEH's 29th Jefferson 
Lecture in the Humanities. Professor McPherson, a recipient of 
the 1989 Pulitzer Prize for his extraordinary book on the Civil 
War, Battle Cry of Freedom, spoke before this Committee about 
the importance of the humanities.
    McPherson's fine book, which was funded by NEH, is one of 
12 books that have received NEH funding and gone on to win 
Pulitzer Prizes. For the record, I would like to submit a list 
of award winning books that we have funded. I hope that each of 
you will join us at the Kennedy Center Monday evening to enjoy 
James McPherson's Jefferson Lecture. There is a wonderful 
background of McPherson's life and work and the Civil War as a 
part of the Nation's history in our latest issue of Humanities 
magazine.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ferris. The National Endowment for the Humanities is 
the gatekeeper of our Nation's memory. We preserve and 
celebrate America's cultural heritage. At the beginning of a 
new century and of a new millennium, it is time to make this 
important commitment of $150 million to our Nation's cultural 
heritage.
    Mr. Chairman, I ask that I be allowed to submit my full 
statement for the record.
    Mr. Regula. Without objection.
    Mr. Ferris. And I am happy to answer any of your questions 
at this time. Thank you.
    [The statement follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            OUTREACH EFFORTS

    Mr. Regula. Thank you.
    How's the outreach going? Are you getting more 
applications? Are you getting a broader dispersal of activity?
    Mr. Ferris. I'm delighted to say we are. The outreach to 
the States is being done through our State councils. They have 
all submitted applications and been funded for specific 
outreach projects that address the needs of their States. In 
Louisiana, in the Dakotas, there are different and very 
exciting projects that are already underway. We will bring 
those projects back in once they are completed and talk with 
the directors about how to expand and extend those more deeply.
    We've also been sending teams of our program officers into 
these States to conduct workshops to encourage applications to 
the Endowment. And we're seeing in every division increases in 
requests and increases in funded applications, in research, in 
challenge grants, in all of the divisions. There are 
significant increases in funding for underserved communities, 
States, and institutions around the Nation.

                       STIMULATING PRIVATE GIVING

    Mr. Regula. Do you think your grants, and you mentioned 
this, generate private giving for programs?
    Mr. Ferris. They do. And the most dramatic example of this 
is in our office of Challenge Grants. Again, becauseof cuts, we 
have lost over the last five years some $60 million in private matching 
support that would have come under the normal level of funding.
    While private support can never match or replace the 
Federal dollars, it does indicate strong support from the 
private sector to be a partner with Congress in trying to 
improve the educational and cultural worlds of our Nation.
    I would like to add that our awards have directly 
stimulated in matching private support $1.59 billion since the 
agency was created. In FY past year 1999 alone, our matching 
support for federally funded projects was $44 million. So the 
American people are willing to reach into their pockets and 
help support the leadership that you so nobly have brought 
forward on behalf of the humanities.

                      VOLUME OF GRANT APPLICATIONS

    Mr. Regula. How many different applications would you get 
in a year for grants?
    Mr. Ferris. Let me just say, and I'll get that information 
shortly, we fund approximately 20 percent of the fundable 
projects that come to us. So what we are seeing is a dramatic 
inability to help deserving projects. Now, these may be museums 
or they may be individual scholars. At every level of our 
funding, we are funding only a small percentage of 
applications. The number of applications that we received this 
past year is 3,674. That's down dramatically from before the 
cuts, when we received 8,315 in 1995.
    We're receiving fewer applications, and sadly, of those few 
we receive, we fund roughly 20 percent of those that are 
deserving of support.
    Mr. Regula. Mr. Dicks.

                    COMBATTING ``HISTORICAL AMNESIA''

    Mr. Dicks. Thank you. You mentioned James M. McPherson. He 
testified, after receiving the Pulitzer, Professor McPherson 
appeared before this Subcommittee as a public witness to 
testify in support of the National Endowment for the 
Humanities. In his testimony, he warned that the United States 
was facing the danger of historical amnesia.
    What do you think he meant by that?
    Mr. Ferris. What he meant is exactly what we mean in trying 
to reach out to all Americans. The Nation is facing a major 
crisis in the loss of memory. That loss of memory is in our own 
family, as we lose parents and grandparents that we've not done 
oral history with, it is a loss of memory within our 
institutions as brittle books and newspapers are crumbling and 
being lost forever unless they are preserved. And it means an 
inability to see toward the future if we do not have the 
grounding in our history. It's been said that if we don't 
understand the past, we will be forced to repeat its problems.
    This great Nation, with its wealth, can ill afford to 
forget its past and to lose its memory through what Professor 
McPherson has called historic amnesia. I would suggest you talk 
with young people today and ask them about Martin Luther King, 
about Thomas Jefferson. Many of them simply don't know who 
these people are.
    There is a significant problem, a disconnect within our 
educational systems. These projects, which are so underfunded, 
are the answer to that issue.

                 JUSTIFICATION FOR $150 MILLION BUDGET

    Mr. Dicks. So you think that the President's request for 
$150 million, which is, $22 million below where we were in 
1995, is completely justified?
    Mr. Ferris. Absolutely. I consider it a modest request, 
given the depth of need. Over the next decade, we will need 2.2 
million new teachers. Of the teachers in our K-12 schools 
today, four out of five say that they are inadequately trained 
in the subjects they are expected to teach. They are 
inadequately trained in the use of technology.
    How do we address these needs? These summer institutes, 
these humanities websites, these various programs we have ready 
to come out of the gate, are the answers. Our Schools for a New 
Millennium initiative is, a model program that allows 
individual schools around the Nation to bring together parents, 
teachers, and students to use technology to advance their 
educational initiatives in partnerships with libraries and 
museums and universities.
    We're doing these projects with a wing and a prayer, with a 
very modest budget. The President's request will allow us to 
move these projects forward in a much bolder and more effective 
way.

                        IMPACT OF LEVEL FUNDING

    Mr. Dicks. If we have a level of funding as we did last 
year, what things will you not be able to do? What are the 
things that we will not be able to accomplish if the Committee 
funds this at the level we funded it last year?
    Mr. Ferris. We will see fewer young James McPhersons, fewer 
young Ken Burns able to get their first grant to do work on a 
potential Battle Cry of Freedom, or on a potential Civil War 
series. We will see fewer museums able to create quality 
exhibits. At every level of our activity, which I can tell you 
touches every district that you represent in the most intimate 
way, we'll be cut back.
    Mr. Dicks. Tell us about the Extending the Reach initiative 
again. You mentioned this earlier, but tell us more about it.

                 OUTREACH AND ``REDISCOVERING AMERICA''

    Mr. Ferris. The Extending the Reach is the backbone of what 
we're calling ``Rediscovering America.'' It is the mantra of my 
leadership at the Endowment.
    We have been perceived as an ivory tower, an isolated 
world, that is inaccessible but all to the few. That, I can 
assure you, is changing. We are going out to what my friend 
Congressman Regula has called Joe Lunchbucket and Joanna 
Lunchbucket. [Laughter.]
    Wherever the American people and the working people are, 
before we're finished, their lives will be enriched, whether 
it's simply recording the oral histories of their parents and 
grandparents, or going to a local library and looking at 
resources that we've made available there. And I would stress, 
we've just received a million dollars from the Carnegie 
Foundation in support of a partnership among the Endowment, the 
American Library Association and the Library of America to put 
the most recent 50 volumes of this extraordinary series on 
American literature and history into 800 libraries. These 
volumes will go along with public programs for the people of 
each community that will celebrate these new books.
    So I can tell you, we're going where the rubber hits the 
road with the humanities, and you will be very pleased to see 
in your districts tangible differences that this budget will 
allow us to make.
    Mr. Dicks. Washington State also has 26 federally 
recognized tribes who have a rich cultural heritage. I 
appreciate some of the things that you have done in the past 
such as providing grant support for the Makah Tribal Museum. In 
what ways does the National Endowment for the Humanities plan 
to reach out to Native Americans in the future, and will your 
Extending the Reach initiative be part of this effort?
    Mr. Ferris. Absolutely. We are offering and in the process 
of making special consultant grants, not only to Native 
Americans, but to historically Black and Hispanic institutions, 
which will be institution building grants, so that rather than 
have a sweeping mandate that treats all as one, we want to look 
individually at each tribal museum, at each project, and allow, 
with a consultant's help, that institution to then come to us 
with specific requests, so that each institution is judged on 
its own needs and its own resources.
    In this way, we will build from the grass roots up an 
infrastructure of these historic institutions that are so 
fragile and in deep need of our support.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.

                   IMPACT OF THE FY 1996 FUNDING CUTS

    Mr. Obey. Just a comment and a question. I don't represent 
a single city larger than 40,000 people. And I'm frankly not 
very worried about what happens to bigger urban centers if we 
lose a lot of the opportunities that you've described that 
you're involved with this morning.
    It seems to me that we hear a lot of talk about the digital 
divide. It seems to me that the real losers, if we diminish our 
ability to bring to everyone in the country examples in our 
culture are those in the small communities.
    I've got a lot of communities in my district where over 
half the households are headed either by widows or people over 
65. No tax base there to finance a lot of things. And it just 
seems to me that we do those communities the greatest service 
by strengthening your budget and the budget for the arts folks 
as well.
    My question would simply be this, and Mr. Dicks has touched 
on it already. But I think it would be good if you put it in 
one place in the record. Let's assume that ET came into this 
room and sat down and listened to what was going on, and was 
wondering what in God's earth was going on here, because you've 
got an agency asking for a 30 percent increase on the same day 
we're going to consider a budget resolution which cuts $30 
billion out of the President's domestic recommendations for 
this year.
    I think he'd wonder, having not been through what we've 
been through, why this request for this increase is here. So 
whether it's ET or an average citizen on the block who doesn't 
know what's happened, would you recite again largely so that 
it's in one place in the record, what were the criticisms of 
your agency a number of years ago? How do you think you have 
reacted to those criticisms and adjusted to those criticisms? 
How have you responded? How do you think that justifies the 
request that you're asking today? And what would we be losing, 
not just by way of opportunities that you recited to Mr. Dicks, 
but what would we be losing in your judgement in terms of your 
ability to also leverage other funds to support the same kinds 
of activities?
    Mr. Ferris. That's a wonderful question. I was not here in 
the Office of Chairman when those cuts were made. My sense is 
that it was a new leadership, a partisan cut that was made to 
reduce all budgets. There was a sense in the country that all 
budgets were inflated, and we unfortunately were part of that. 
We were given much more severe cuts, nearly 40 percent as 
opposed to 5, 6, 10 percent for some other agencies. And we 
have remained, until this current year, flat in funding since 
those cuts.
    Now, your question about ET is a good one. If ET were 
arriving on this planet and walked into this room with zero 
knowledge of what is going on here, he'd come to the right 
place. Because the humanities could in short time acquaint him 
with the nature of this process that we're involved in here. 
And my response to these cuts is, it's like the downsizing of a 
corporation, and then like the phoenix, you are reborn.
    I look at the glass as half full rather than half empty. 
What we have done is to reinvent and rearticulate the 
humanities in terms of outreach. We have, with the help of 
friends like Morgan Freeman, created a powerful five-minute 
video called ``Rediscovering America'', which every State 
humanities council and each of you now have, as a way of 
articulating for the American people what are the humanities.
    Every American has an opinion about the arts, but few 
really think of what the humanities are. The humanities are the 
stories we tell around our dinner table at night, and 
especially at holidays when families gather together.
    The humanities are the backbone of our educational system. 
In K-12, they are two-thirds of the curriculum, one-third is 
science and math. The humanities are around us, they are the 
water in which we swim, the air that we breathe. We simply 
don't think of history, of literature, of languages as the 
humanities.
    What we're doing is to translate the critical work that the 
Endowment has done for 35 years into the language of everyday 
people, so that every home will understand that when you talk 
about genealogy and the stories of your grandfather, that 
you're talking about these traditions.
    I come from a rural State of Mississippi and grew up on a 
farm. I have the same concern about the small communities that 
are languishing and at-risk. One of our guests, who is the 
president of the University of Nebraska, described his Great 
Plains area as an over-fly zone. He said: ``we feel that people 
don't care what goes on in our region.'' Every American, I 
think, can identify with that. We have to change that to make 
every American feel that they are part of the process that's 
going on at this very table, that goes on in the Nation's 
capital. They need to feel connected to that daily process and 
to the history of that great institutionthat is the beacon of 
hope for the globe.
    When we talk about democracy around the globe, it is this 
Nation that holds that beacon highest. And it is voices of 
people like James McPherson, in probing the Civil War, that 
help us understand that out of that tragic conflict came a 
single Nation undivided that allows us to do the things that we 
do for those little communities. We are your bearers of good 
news to those communities. We tote the water for you to every 
American in ways that will make a difference. And if the budget 
we've requested is funded, you will see dramatic differences in 
the little towns and the homes that you represent.
    Mr. Obey. For the record, I would simply ask that you ask 
your staff to go back and find the three main criticisms that 
were levied at you over the past five years and spell out in a 
written response how you think you've responded to and adjusted 
to those criticisms. Because I think the way your agency is run 
today is a much different ship than it was a decade ago. And I 
think people need to understand how it's changed.
    Mr. Ferris. We will be happy to do that, sir. And we will 
share it with the whole Committee.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Mr. Moran, can you come back or would you like 
to get a question in before the vote on the House floor?
    Mr. Moran. I can do it quickly.
    Mr. Regula. Okay. You have about two minutes.
    Let me just say that you're doing a great job, Chairman 
Ferris. Some of those objections may have been valid, I would 
say to my friend, the Ranking Member of the Full Committee, Mr. 
Obey, in terms of NEH. But not many of them. I think that was 
simply a victory for the forces of darkness and ignorance a few 
years ago that I trust is being rectified now.
    Mr. Obey. Not a rare occurrence. [Laughter.]

                        NEH's Edsitement Website

    Mr. Moran. But certainly, Mr. Regula understands that. And 
I think the majority of the Congress is beginning to understand 
it. And certainly, your presence has been a tremendous positive 
factor.
    Just quickly, I'm interested in the digitization of your 
information. Are you able to integrate this with what the 
Library of Congress is doing? Much of it is similar. If 
somebody gets to one of these two websites, can they be 
referred to the other to complement the information they're 
getting?
    Mr. Ferris. Absolutely. Our Edsitement project, which I 
mentioned earlier, links the Library of Congress, the 
Smithsonian, a total of 71 websites. By the end of this year, 
that number will be 100, and by next year we hope to add even 
more websites. So, for this child in Mr. Obey's district, for 
example, in a small community, in a school, he or she will be 
able to access the Library of Congress and 70 other websites 
within seconds. And then the teacher can ask for a teaching 
syllabus and quickly get that.
    So that what we're doing is taking these great collections 
and sharing them with every American.
    Mr. Moran. That's wonderful. That will keep them busy for 
the rest of their lives. [Laughter.]

                   Leveraging Private Sector Dollars

    And I just want you to make it clear, from what I gather, 
you're looking at a three to one private sector match for the 
money that funds these regional humanities centers. So 
basically it's only a 25 percent Federal contribution.
    Mr. Ferris. Right.
    Mr. Moran. And, I hope that we can make this as clear as 
possible: for every dollar of Federal money we withdraw, we 
jeopardize another $3 of private sector money. So any arguments 
that this isn't maximizing leverage is not accurate.
    You're doing a terrific job. I love the Endowment, I love 
what you produce. Thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. On that positive note, we'll recess.
    Mr. Ferris. Thank you, sir.
    [Recess.]
    Mr. Nethercutt [assuming chair]. The hearing will be in 
order, while we wait for the real Chairman to get back. We will 
continue to have some questions.
    Welcome, Mr. Chairman.
    Mr. Ferris. Thank you, sir.

                       Reaching Rural Communities

    Mr. Nethercutt. Thank you for being here.
    I enjoyed our meeting last week. We had a good discussion 
with respect to your leadership of the Endowment. The focus 
that I think you have coming from the Fifth District of 
Washington, and a relatively rural community has been 
commendable. I was pleased to introduce an amendment last year 
that added $5 million to the Endowment because you'll spend it 
well and it is a valuable commodity that you're protecting. It 
is really the heritage of the country and all the great works 
that go into making up that heritage.
    I appreciate that the NEA is different than the NEH, and 
the NEH is different than the NEA and they shouldn't be linked. 
I think there's a distinct mission that you have that is very 
valuable.
    I mentioned to you in our meeting my concern that there be 
a greater focus on rural communities--getting what you doout 
into smaller communities that might not otherwise have the opportunity 
to see what you do as compared to larger cities. In that respect, I 
mentioned to you the Dayton experience, Dayton, Washington, which is a 
small farm community, south in our district, in the southern tier. They 
had a wonderful World War II exhibit that was participated in by the 
State council.
    The community response was just tremendous. It was just 
very impressive, the amount of people, number of people who 
came to Dayton, a little small farm community. And so I commend 
you on that. Maybe you could testify for the record more about 
your rural initiatives and the impact that you see them having.
    Mr. Ferris. Well, our rural initiatives are going to make a 
big difference. One of our most popular projects, an exhibit 
called ``Barn Again,'' on rural landscapes and the barn, this 
has been touring with several copies around the Nation for a 
number of years. We are also looking at, as we speak, a study 
that will give us specific guidance on how to create 
inexpensive, very mobile exhibits that can be placed in rural 
communities.
    We're also looking in our Extending the Reach initiative at 
ways that we can create support within the rural areas. I've 
been speaking with colleagues at the Department of Agriculture 
about how we can use the farm extension service offices in 
every county. I was a 4-H club student growing up, and I know 
how important these offices are.
    So we're going to seek relationships in that way to promote 
projects like ``My History is America's History'' as part of 
the outreach efforts of the Department of Agriculture, which is 
specifically mandated to deal with rural areas. In a number of 
ways such as this, we're going to be treating the rural 
American experience. Radio programs are also being developed, 
some of which are now on the air, that treat rural America, and 
our regional initiatives will be mandated.
    The planning grants underway are going to ask each of these 
institutions how they will address rural areas and the issues 
of rural America. This is a critical question that we have only 
begun to deal with.

                    NEW PROGRAMMING FOR RURAL AREAS

    Mr. Nethercutt. Thank you for that response. I mentioned to 
you when we met before the little museum in Oakesdale, 
Washington, which is a small farm community. It has a marvelous 
collection of farm history and Oakesdale history that is not 
unique in our other rural communities in eastern Washington and 
I'm sure across the country.
    So to the extent that the National Endowment can assist 
through grants or by providing some technical expertise on 
cataloging what they have or displaying it better or other such 
assistance, it's going to be a great value to the small 
communities who want to maintain their history at a time when 
rural America is threatened with loss of its history.
    So, to what extent will the Extending the Reach initiative 
provide assistance to little museums like Oakesdale's?
    Mr. Ferris. Well, it is designed specifically for museums 
like that. We've created categories of funding in our public 
programs division specifically focused on museums that are only 
for those institutions that have never had funding from us 
before. It's designed to make them welcome with fairly simple 
application forms. These $10,000 grants will allow the 
beginning of a process where a consultant could come in over a 
year's time and assist the small museums--to look at their 
collections and to make sure that they're doing everything 
possible to grow those collections.
    I would mention also the initiatives in the area of 
cultural tourism. As we develop encyclopedias online and in 
print for every State, as we develop our regional centers, and 
other resources, we're going to be showcasing cultural tourism. 
Often in the poorest economic areas, you have the richest 
culture. People are curious and want to learn as they travel. 
They want to learn about agriculture, about music, about many 
of the traditions that are embedded within rural America.
    They simply need to know how to get there, where to stay, 
the places to visit. Within the infrastructure of all of these 
outreach initiatives, we're going to create subregions, such as 
the oil area in Pennsylvania, and areas where you have coal 
mining that are largely changed. So that people can come in and 
learn farm techniques such as, how you plant a crop and harvest 
it. Americans would love to go visit a farm and learn about 
them. This not only creates new sources of income, it creates a 
new dignity for farmers who all too often feel they've been 
overlooked and bypassed economically and culturally by the 
Nation.
    It's the yeoman farmer that Thomas Jefferson felt was the 
backbone of our Nation that is at risk. Unless the Humanities 
Endowment steps in and begins to showcase those stories through 
My History and other initiatives, we are simply not doing right 
by the American people.

                      INADEQUACY OF THE NEW BUDGET

    Mr. Nethercutt. Do you feel your budget adequately provides 
the resources to get that message out to places like Oakesdale 
or other farm communities or other regions of the country that 
may want to take advantage of the programs that you have to 
offer?
    Mr. Ferris. The requested budget will go a long ways in 
that direction. I am pushing every staff person and every 
division toward outreach. That means that our staff are 
traveling increasingly with teams to encourage small museums 
and communities to apply. But those travel funds, those 
resources of time, those new applications, require added 
support in the way of staff and travel, which we simply do not 
have.
    Our budgets, as we speak, are strained to the limit, 
because there's not a person at the Endowment who does not 
believe in this outreach effort. I would go back to the earlier 
question asked by Rep. Obey: There were no issues with the 
National Endowment for the Humanities when these cuts came. It 
was part of a sense of reducing the budgets in Washington.
    But there was not a single issue that has been raised since 
about our programs. I am proud to put these projects and 
programs on the table and to talk about them, because they 
touch every American. Who would be opposed to preserving 
Presidential papers or making better classroom experiences for 
all our students? So we simply need help to help you, and we 
are doing it, but we can do it a lot better with the 
President's requested budget.
    Mr. Nethercutt. Mr. Cramer.
    Mr. Cramer. Thank you.
    Welcome back to the Committee.
    Mr. Ferris. Thank you.

             FUNDING FOR ``EXTENDING THE REACH'' ACTIVITIES

    Mr. Cramer. You're doing a great job and I've appreciated 
our relationship very much.
    You've been asked a good bit about the ``Extending the 
Reach'' program. How would it be affected if you received 
noincrease in funding, and how new is the program?
    Mr. Ferris. In a sense, outreach has been in effect since 
we were created because the Endowment in its various ways has 
always been reaching out. I'm an example. I've benefitted all 
my life in the State of Mississippi from the Endowment's 
programs.
    But what we are doing is a much more carefully vetted 
outreach. We're not waiting for the individual scholar or 
institution to walk in and say we need help. We're going to 
them and saying, you should be thinking about these programs. 
You should be looking at our website. You should look at these 
materials, because we can help you. It may not be a big grant, 
but we can make a difference in your community in these ways.
    So that we are much more effective in delivering support 
and in also letting the American people know that this support 
is available. I would stress that every step of our way is a 
bipartisan step. We are here to serve the American people. 
Whatever their political background and interests, they all 
have children and grandchildren they care about. They all want 
those children to be better equipped for the future.
    That's what we're doing. Outreach is a powerful vehicle. We 
talk about the sort of food chain of the humanities, a small 
grant given to a scholar like a young James McPherson a decade 
or two later yields a Pulitzer Prize winning book.
    Mr. Cramer. How much money will you spend this year on that 
program?
    Mr. Ferris. On ``Extending the Reach''?
    Mr. Cramer. Yes.
    Mr. Ferris. We have $2 million specifically identified for 
the program. But in other programs throughout the Endowment, we 
are stressing, whether it's preservation and access or 
challenge grants, that this is a motivating force in how we 
will judge and select recipients. So, the $2 million in a sense 
is the identifiable piece that goes with this particular 
initiative.
    I can assure you that every NEH division is carefully 
looking at the projects it supports. We just vetted hundreds of 
grants to scholars around the Nation who are starting research 
projects and found that a much larger number of grants this 
year went to the 14 States designated for outreach.
    That means we had more applications, they were good 
applications, and we funded them. This is a change in the 
pattern of funding within the entire agency, and it's a change 
that will increase with each year. But it can only increase in 
a significant way with increased funding to allow our staff to 
serve these constituents more effectively.
    Mr. Cramer. How much do you hope to increase that funding 
by, if you get what you want in this next budget?
    Mr. Ferris. We have an additional $2 million specifically 
for the outreach. But I would stress that if we were to measure 
outreach agency-wide, it would be far greater than that. We 
could look, for example, at States that have only received a 
small number of grants in the past, and there will be a 
dramatic increase in those numbers. There already is this year, 
and there will be even more of an increase next year.
    I'm going to many of these States--the State of Washington, 
for example, the State of Alaska and others--specifically to 
say that the Chairman cares about outreach and I'm here with 
our staff to join with the local and state political leadership 
in saying that we want you to apply and we want to help you in 
ways that make a difference.

                       NEH Programs for Teachers

    Mr. Cramer. What programs do you have that help teachers? 
Would you describe some of those?
    Mr. Ferris. Yes, I can do it with great pleasure because my 
first love is teachers. And so many Congressional leaders, 
including Chairman Regula, come from a teaching experience.
    Our most important teacher programs are the summer 
institutes and seminars. And I've taught three of those over 
the years. They bring high school teachers and college teachers 
together for four- or six- week sessions.
    Mr. Cramer. Where are those held?
    Mr. Ferris. They are held all over the Nation. They are 
held----
    Mr. Cramer. Regionally?
    Mr. Ferris. Yes. But wherever you find a major scholar, if 
Jim McPherson, for example, wanted to do a summer seminar on 
the Civil War, it would be taught at his home institution in 
Princeton. I taught three on the blues at the University of 
Mississippi. We have brochures on both the high school and the 
college teaching seminars that describe where they're being 
held this year.
    Again, these have been cut with a severity that makes your 
heart bleed. We have----
    Mr. Cramer. Cut because of budget impact?
    Mr. Ferris. Yes, because of the budget. We're talking about 
hundreds of thousands of students denied the quality of 
education they could have if we had the funding that was there 
four years ago.

           State Humanities Councils and the Regional Centers

    Mr. Cramer. You made reference, I believe, to the regional 
humanities centers.
    Mr. Ferris. Yes.
    Mr. Cramer. How do those centers differ from what the State 
humanities councils generally do?
    Mr. Ferris. The State councils, as the name suggests, are 
State focused. They essentially deal with humanities projects 
in each State. These regional humanities centers will be the 
hub of spokes to an infrastructure of the entire education and 
cultural worlds. They will deal not only with the State 
humanities and arts programs, they will deal with libraries, 
with museums, with K-12 education and they will set up a kind 
of clearinghouse for activities over a five State area, so that 
if Alabama and Georgia and South Carolina decide they want to 
do a special initiative looking at the Caribbean, there will be 
a regional humanities center there that can bridge those State 
worlds together immediately and offer a way of advancing 
projects within the region.
    I would stress to all of you that the economic advantages 
that adhere to all of these projects are significant. The 
encyclopedias will be a portal to every State, so that a 
potential investor seeking a place to build a factory can look 
at the State of Ohio's website and its encyclopedia or Alabama, 
and quickly not only get the economic picture but the cultural 
picture. The fact that Hank Williams and Martin Luther King and 
many other Southerners have an association with your State----
    Mr. Cramer. W.C. Handy.
    Mr. Ferris. W.C. Handy. Thank you. If I'm a Japanese 
investor, I probably know a lot about these parts of history, 
but I may not know that Alabama was a significant part oftheir 
lives. So, we're going to be working not only culturally and 
educationally, but economically to help you.
    Mr. Cramer. Those encyclopedias, those are works in 
progress, right?
    Mr. Ferris. Yes. We have three encyclopedias already 
underway, in Georgia, South Carolina, West Virginia, and other 
States are moving forward. We're going to move these through 
our State humanities councils in partnerships with major 
universities and with technology, so that if I'm interested in 
New Mexico, I can pull up a website that will give me the 
history of Santa Fe, the history of the great Hispanic, Native 
American, and Anglo cultures that have merged there.
    And I can do that in seconds. I don't have to travel and 
visit the State. I can do it from anywhere in the world. And I 
can assure you that that's going to have a significant impact 
on every State once these are up and running.
    Mr. Cramer. Thank you, Mr. Ferris. You do good work.
    Mr. Regula [resuming chair]. Mr. Hinchey.

                Schools for a New Millennium Initiative

    Mr. Hinchey. Mr. Chairman, thank you very much.
    Mr. Ferris, thank you very much. I think that both you and 
Bill Ivey at the National Endowment for the Arts do an 
astonishing job. And I think that both NEH and NEA are 
themselves national treasures, and we are very fortunate, we 
are very fortunate to, I think the country is very fortunate to 
have leaders like you and Bill Ivey heading up these two very 
important institutions.
    On a personal note, I am personally very grateful to NEH 
for the early recognition of Mr. McPherson. It's a great book, 
I enjoyed it immensely. And it certainly contributed to my 
knowledge of the Civil War period and I'm sure to a great many 
other people who have read it and enjoyed it.
    I think you're doing a wonderful job and I think that we 
ought to be supporting you in every way that we can. And I'm 
astonished, frankly, at the breadth and depth of the work that 
you're able to accomplish on such a very small budget. And I 
know you're asking for a 30 percent increase.
    My assumption is that the intention there is to try to 
bring the NEH back at least part-way to where it was before the 
40 percent cut that it received back in 1996. I've been 
listening to you very intently as you so adroitly manage your 
testimony before this Committee and mention the things that are 
important to us and to the people that we represent.
    One of the things that I'm interested in is the Schools for 
a New Millennium program, which as I understand it is an 
attempt by NEH to reach out into the neighborhoods, into the 
communities across America, into the schools and to do 
something about this propensity toward the national amnesia, 
and to reacquaint people with their history, both nationally 
and locally.
    I was listening to Mr. Nethercutt talk about what sounds 
like a wonderful little museum out in the State of Washington. 
And I'm familiar with other similar museums in other places, 
including in New York. I know that that's the kind of focus you 
have, as well as the larger museums.
    So what is this program all about? How does it affect 
schools? How are you reaching out? How many applications do you 
get? How many applications can you approve, and who will be the 
beneficiaries?
    Mr. Ferris. This is a wonderful question, and I will try to 
be brief. We're in a new day, as we all know, with digital 
technology, but most teachers feel inadequate to deal with it. 
Their students know more about the Internet than they do.
    So we've got deep educational problems, as Secretary of 
Education Riley will certainly agree. The Schools for a New 
Millennium program is a bold new step, essentially to deal with 
the whole array of problems that we have in our schools. What 
they do is take the entire school district, they deal with the 
school teachers, with the students, and with the parents. They 
bring them together so that we're not talking about a piece of 
what the problem is but the whole infrastructure of the school. 
They articulate an issue.
    Now, the Booker T. Washington High School in Memphis, 
Tennessee, decided to look at the history of the civil rights 
movement, where Martin Luther King tragically was killed. These 
are students who don't know who Martin Luther King was. These 
are kids just coming of age who don't remember the civil rights 
movement.
    So they're going out and interviewing parents and 
grandparents about this history. That school is partnered with 
the National Civil Rights Museum in Memphis, a wonderful 
resource on the history of civil rights from the beginning of 
our Nation to the president. They are also partnered with 
Northeastern University in Boston, so that you have national 
scholars, you have museum exhibits and resources, and you have 
the school brought together in order to make a deeper 
connection to not only education but the places in which the 
students live.
    We have Native American projects that are being done in 
Arizona, on the Navajo reservation. In Virginia, George Mason 
University is partnered with a high school. In your State, 
Congressman, the Cairo-Durham Central School Disrict is looking 
at issues of human rights. The LaGuardia Community College is 
partnering with schools in the New York City area. And I could 
go on.
    These are a few of what I would love to see in every school 
district. Because what we have in all of our programs is a sort 
of seeding effect. We've made small planning grants, 34 of 
which have been awarded, of $30,000 over the last two years. 
We're now moving into the implementation phase to let the best 
of these be moved forward over a three year period with grants 
of $100,000.
    Now, we received 50 applicants for the Schools for a New 
Millennium implementation grants, and we expect to fund 10 in 
the current year.
    This 10 for the Nation, this is what we're talking about. 
We don't even have one per State that we can support. But they 
are successful. They work. We've identified a problem, and 
we've got a solution. Why can't we make a connection that will 
allow this to happen in every district?
    Mr. Hinchey. And the increase in the budget that you're 
requesting will allow you greater outreach?
    Mr. Ferris. It will allow us to support far more of these 
schools, which, as they come online, will attract other funders 
because I am by heart entrepreneurial. We take Congressional 
support but as I said to Congressman Regula earlier, we're like 
priming the pump because I want to see private support for 
projects in these schools.
    And it's not expensive. Every community could find $30,000 
to launch them. Or every community down the road could find 
$100,000 to make that district a better district. But we have 
to have the incubator schools to bring people to and say, 
``Look at what's happening here in the State of New York and in 
Massachusetts and in Arizona.You should be doing it in your own 
State.''
    And that in fact is starting to happen. We are having those 
discussions. But we have to get these schools up and fully 
implemented in order to show how it works.
    Mr. Hinchey. I think my time may be up, the way the 
Chairman is looking at me. [Laughter.]
    Mr. Regula. Well, we want to get to Mr. Ivey and try to be 
fair in the allocation of time.
    Mr. Skeen.
    Mr. Skeen. Thank you. Thank you very much. I'm sorry I 
wasn't here for the beginning. We have all kinds of committees 
going at the same time.
    The reference to New Mexico was very important. Thank you. 
We have such a great history in New Mexico, with all the 
various steps in the development and so forth, from the 
original natives to this day. The only thing we need now is a 
little bit of rain. [Laughter.]
    And no coyotes and no wolves.
    Mr. Regula. Now you know how to get that extra money. 
[Laughter.]
    Mr. Skeen. We're all for you.
    Mr. Ferris. Thank you, sir.
    Mr. Skeen. It's a pleasure, because we have so much to give 
and so many things that are important. You've been tracking on 
the right track all along. Thank you for the reference. 
Appreciate it.
    Mr. Ferris. I'm well aware of your love for oral history 
and the recording of the stories of our families. And you'll be 
pleased to know that we're doing more and more of that each 
year. New Mexico is a great State and a great legacy that we're 
very pleased to have as a significant partner in all of these 
initiatives.
    Mr. Skeen. Well, we appreciate it, too. Because I was 
parked and getting some gasoline before it had gone up, and a 
gentleman walked behind the car and said, New Mexico, he said, 
what are you doing? I said, I'm a member of Congress. He said, 
you're from Mexico and you're a member of Congress? [Laughter.]
    When I was going to school, my father was an engineer, and 
we moved all over the western part of the United States at that 
time. Every time I was entering a school, they wanted to know 
if I'd had my shots before I came into the country. So I want 
to tell you, thank you for the help. [Laughter.]
    Mr. Ferris. You'll be pleased to know I've had those 
questions about Mississippi, too. [Laughter.]
    Mr. Skeen. It's always entertaining.
    Mr. Regula. Mr. Nethercutt, you had a couple quick ones.

                 NON-FEDERAL SUPPORT FOR THE HUMANITIES

    Mr. Nethercutt. Very quick, Mr. Chairman.
    I want to ask you for the record the question of how can we 
be sure that the scholarly work that is done, that doesn't 
receive the high profile that some of the high profile works do 
receive, gets out to the public and doesn't just sit on a shelf 
somewhere, even though it may be very good work?
    So maybe for the record you could answer that. Another 
comment I want to make quickly is that I've been an advocate 
along the way for NEA and NEH to reach out to the private 
sector. Chairman Regula had a meeting with some of us on the 
Subcommittee earlier this week with the National Park 
Foundation, which supplements the work of the National Parks. 
It's a wonderful organization that makes a contribution through 
the private sector.
    To what extent are you willing and able to do that in the 
NEH--to get private sector support to be a supplement to some 
of the objectives that you have and want to reach?
    Mr. Ferris. I'm both willing and able to respond to that. 
It's a very high priority. As you know, we have an enterprise 
office, a small but very well staffed office that is 
aggressively raising nonfederal support. The recent gift of $1 
million from the Carnegie Foundation for the Library of America 
initiative is one example of that. The $1.5 million from MCI 
WorldCom for the EDSITEment project is another.
    We're building a careful strategy for each of our areas, 
whether it be research or challenge grants, or preservation and 
access. We're looking at the new wealth of technology. And 
we're addressing this daily. I was on the phone yesterday with 
the former head of Ross Perot's enterprise. We are very excited 
about the potential.
    It takes a while to cultivate major gifts, but I can tell 
you that our enterprise office and I work daily in seeking this 
support. I see it as essential. Given the resources of this 
Nation, the private sector needs to be more generous to the 
humanities. But it will never, ever replace Congressional 
support. It will always be a part of, an important part of, but 
not all of.
    Now, your question about scholarly support is quite 
important. There's a growing sense among the universities of 
the Nation that institutions of higher learning need to be 
connected to the communities in which they are located. They 
need to be part of the solutions to problems. You can't simply 
teach your courses go home at night and think that the world is 
going to be able to go on in a sort of normal way.
    So we are working with scholarly groups of historians and 
other scholars on this issue. We'll be speaking at the American 
Studies Association this fall. We have exciting new 
relationships, where graduate students in the field of American 
studies and other areas will be going out in each State in the 
communities, working with the State humanities councils 
networks, to enrich those worlds.
    Jim McPherson, after giving the Jefferson Lecture here, 
later will go through our Pennsylvania Humanities Council to 
address the Pennsylvania legislature, at the invitation of that 
institution's Speaker of the House. We want to see very public 
visibility for scholars we support and scholars want that as 
well.
    Some new members of our National Council on the Humanities 
have had very exciting public roles . I mentioned Ira Berlin, 
who is a historian here in Washington, D.C., who's been very 
involved with the D.C. Humanities Council. We would like 
increasingly to put the scholarship online, so that more 
individuals and students are able to work and access these 
materials.
    I would also mention the National Trust for the Humanities, 
which is a private, 501(c)(3) institution, through which 
nonfederal funds are channeled, and we are seeking to make that 
sort of a counterpart of the National Park Foundation. Roger 
Kennedy, the former head of the National Park System, is a 
personal friend, and he and others have been giving us good 
counsel on how to move this initiative forward.
    But I can tell you, you will be pleased to see added 
support coming from these sectors, much of it for scholarly 
projects like documentary editions of Presidential papers.
    Mr. Nethercutt. Thank you very much.
    Mr. Regula. Thank you very much, Mr. Ferris. And for 
members that have additional questions, please put them in the 
record, and we'll submit them to Mr. Ferris.
    Mr. Skeen. Well done.
    Mr. Ferris. Thank you.
    Mr. Dicks. Are you keeping Mr. Bagley busy down there? 
[Laughter.]
    Mr. Ferris. He's keeping me busy. He's there seven days and 
nights a week.
    Mr. Dicks. I saw him passing those notes to you. That's 
what he used to do for me.
    Mr. Ferris. You trained him well.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 15, 2000.

                UNITED STATES HOLOCAUST MEMORIAL COUNCIL

                               WITNESSES

SARA JANE BLOOMFIELD, DIRECTOR
JAMES RICHARD GAGLIONE, ACTING BUDGET OFFICER
EUGENE RODGER BROWN, DIRECTOR, OPERATIONS
    Mr. Regula. This hearing is with the Director of the 
Holocaust Museum. For you students, if you have an opportunity, 
I would urge you to go there and visit. Have some of you been 
there? It is great. If you have any comments on whether you 
think it was impressive or well done, you can whisper them in 
my ear afterwards. We have the Director here, who is going to 
testify. We fund the Holocaust along with lots of private 
contributions.
    So I am glad you did have an opportunity to visit that 
facility. We are happy to welcome you, Sara, if I may call you 
that.
    Ms. Bloomfield. Please.
    Mr. Regula. We don't have a lot of time but we are 
interested in your comments. I know that you have made an 
effort to implement the recommendations of the NAPA report, and 
I think certainly the feedback I get from my constituents who 
visit the museum is very positive. It is an enormous challenge 
to tell the story and develop a museum that will be there long 
after we are gone to remind people ``never again.''
    We are happy to welcome the new chairman of the board, who 
is with us today, and you may want to make a few comments also. 
We do have a short period, about a half hour. I don't think 
that we have had anyone from the Holocaust Museum before the 
Subcommittee in 3 or 4 years.
    So with that Sara, we are happy to hear from you.
    Ms. Bloomfield. I submitted a statement for the record.
    Mr. Regula. Without objection it will be part of the 
record.

                               VISITATION

    Ms. Bloomfield. We have had extraordinary successes since 
the museum opened. In less than 7 years, over 13.5 million 
people have visited, including almost 10 million non-Jews, 1.5 
million visitors from foreign countries, and 1.5 million 
minority visitors. But the most important visitors are the 
guests we have here today, which are America's children, and we 
are pleased that over 4 million children from across the 
country have come. We have also had about 2,000 officials from 
130 different foreign countries, including 61 heads of states, 
and these are not just heads of states from nations that were 
connected to this history but places as distant as Chad, 
Eritrea and Peru, who feel that a visit to the museum speaks a 
lot about the past and obviously has important implications for 
the future.

                           NATIONAL OUTREACH

    Every year we have about a million and a half visitors on 
our website, we serve 25,000 teachers across the country and 
hundreds of thousands more through our new traveling exhibition 
program. You have been a follower since when we were just an 
idea, long ago. We have really transformed from being a 
Washington based institution to a national institution. This 
was one of my primary goals and one of the important goals of 
the Founding Fathers and of congressional support which we have 
had from the beginning.
    In 2\1/2\ years we have taken exhibitions to 25 cities in 
15 different States. We support these exhibitions with teacher 
training and public programs. Right now we have exhibitions in 
Oklahoma City, Chicago and Ann Arbor, and as you know, we had a 
very successful experience in Canton. That was one of our most 
successful based on the community support there. In recent 
months we have taken on some very interesting specialized 
educational programs.
    We work with the District of Columbia Police Department. 
All new police officers, as a result of a directive from Chief 
Ramsey are required to spend a whole day of educational 
training at the museum. We will to launch a similar program 
with the FBI, and for the last couple of years we have had 
annual programs for the freshman class of both Annapolis and 
West Point. So you can see that the interest is really quite 
diverse. I think you may know that about 2 years ago we were so 
stunned by the popularity of the museum we did a national 
survey to see if the interest was more than what we saw in 
Washington, and 80 percent of Americans said the Holocaust was 
extremely or very important in learning the lessons of history, 
and two out of three said that they wanted to learn more about 
it. The figures are even higher for minorities, 75 percent for 
African Americans and Latinos. And we even asked our 
respondents on the survey if after 50 years itwasn't time to 
put this behind us, and 83 percent insisted no, the lessons of the 
Holocaust are still important.

                         Federal Appropriation

    I think you know this well through all of our conversations 
over the years. We have much more demand than we can fulfill, 
and we are mindful of the need to serve the entire Nation, even 
those who can't come to Washington, but also be prudent about 
how we allocate our resources. I hope that you understand that 
we really take our public-private partnership very seriously. 
This year we have requested for fiscal year 2001 an increase of 
1.3 million, less than 4 percent. Basically this allows us to 
keep our programs at the same level. There is an increase in 
$325,000 for repair and rehabilitation.

                            Private Funding

    Secondly, we are very energetic about our private fund-
raising. We have begun to raise endowment funds. I have become 
actively engaged in the fund-raising. I am spending a quarter 
of my time doing that, and hope to spend more on that. You have 
followed us for quite a while. You know that our initial 
success was quite unexpected, and we thought maybe after the 
first couple of years it would perhaps taper off, but that has 
not been the case. The demand has increased. We are a very 
young and dynamic institution, and we grew extremely rapidly in 
those early years in an effort to respond to the demand for the 
services that the museum offered. We have raised the private 
side of our budget very substantially since the museum opened, 
almost 90 percent.

            National Academy of Public Administration Study

    This rapid growth, which you watched from your perspective, 
led us to self-examination about how we are running ourselves 
and growing so we could be most effective and efficient in 
everything that we did. Just as we were in the midst of that, 
you asked the National Academy of Public Administration to do 
its report, and actually it came at a most opportune time. 
These two initiatives really dovetailed very nicely.
    I want to thank you for taking that initiative because I 
think it has enhanced the institution. I sent you a report. We 
have taken several steps and I am working with the staff to 
implement the report.

                             Council Chair

    Finally, there is another transformation that we are going 
through. Our chairman is just about to leave his role. He is 
staying with the museum and sitting on the council. This is 
Miles Lerman, whom you know well. I will just say about Miles, 
because of his extraordinary service to the museum over 22 
years, from the point it was just an idea to the reality and to 
its early leadership, this is a man who has played a role in 
every part of the institution's life, a survivor of the 
Holocaust who fought Hitler in the forests of Poland and I 
think never dreamed that he would come to such a wonderful 
Nation and that this Nation and this committee would respond by 
building and helping him build such an extraordinary museum.
    We are very sad that Miles is no longer going to sit as 
chairman, but extremely pleased and gratified that the 
President has selected Rabbi Irving Greenberg to be the new 
chair. He officially begins his post in about 2 weeks. I want 
to say a word about Rabbi Greenberg.
    First of all, he is not new to the museum. He was the staff 
director to the President's commission in 1978 and 1979 so he 
was really one of the Founding Fathers and the visionaries that 
laid out the blueprint which has been realized through the 
support of you and hundreds of thousands of Americans. In 
addition to his connection with the Holocaust Museum, he is 
without a doubt one of the most distinguished spiritual and 
intellectual leaders of the Jewish community but with a broad 
reach way beyond the Jewish community. He is highly respected 
among Jews and non-Jews alike for a lot of his pioneering work 
about spirituality and modern society, and so we are very 
delighted that he will now be leading the council.
    [The statement follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            National Academy of Public Administration Report

    Mr. Regula. Thank you. We have been very pleased with your 
leadership in implementing the NAPA report. I think it was a 
very constructive set of recommendations and Rabbi, I think I 
can say that you are inheriting a very fine institution. It is 
well managed, and it is meeting its mission very effectively. I 
like the outreach program. As you were mentioning, we had a 
visiting exhibition in Canton, Ohio and it was very well 
received by the community, and I think very instructive.
    I also want to mention my predecessor as chairman of this 
subcommittee, Mr. Yates. He was absolutely a key person in 
making the Holocaust Museum a success, not only from the 
standpoint of providing funding in this committee but also a 
lot of leadership. I think the combination of Chairman Yates 
and Miles Lerman was a very powerful duo in bringing it to 
where it is today and meeting the mission that was envisioned. 
As I said to Miles, it is a legacy that will be here long after 
we are all gone, and I think it is important that we keep those 
things in mind.
    Mr. Hinchey, do you have any questions or comments?
    Mr. Hinchey. Well, thank you very much, Mr. Chairman. My 
first comment is that it is a very powerful experience to go 
through the Holocaust Museum. I think that the original design 
work and the thought that went into the way that this story is 
presented is very, very effective and very powerful. That is 
one of the reasons why you are able to come here and talk about 
the large number of people that go there. People leave there 
profoundly affected by the experience and tell others. That is 
one of the reasons why I think you get so many people in 
attendance.
    I am a little bit new to the NAPA report but I understand 
how it was done. I understand that all of the recommendations 
have been implemented but one, so curiosity requires me to ask 
which one.

                       Council Member Term Limits

    Ms. Bloomfield. Yes, there was one legislative 
recommendation which we did not pursue. This was a 
recommendation to limit council members to 1 term. Our board is 
appointed by the President of the United States, 55 members. 
They each have 5-year terms. Eleven rotate off each year. We 
also have 5 members of the House and 5 members of the Senate. 
Congressman Regula himself has been a member. This 
recommendation referred to the 55 private citizens appointed by 
the President. The council felt unanimously and I supported 
them in this. Because of the unique nature of the institution 
and because of the fact that these appointments are made by the 
President and we don't control the appointments to the council, 
we needed to ensure that we got the right kind of expertise and 
talent to lead the institution, particularly in its early 
years. We wanted to ensure that there was, for example, 
adequaterepresentation from the survivor community or 
descendants of people who experienced the Holocaust, perhaps liberators 
and rescuers living in this country, people who felt a connection, 
scholars of the Holocaust.
    Another example is Father John Pawlikowski from Chicago, a 
Polish Catholic priest who has been very active in Catholic-
Jewish relations, particularly around the history of the 
Holocaust, what happened in Poland during the war, the reaction 
of the churches and what that has meant in the postwar period. 
He has been very important to the museum, especially in helping 
us reach out to the Polish American community. There are not 
too many Father John Pawlikowskis in the country. Because of 
the specialized expertise and the fact that we could not 
control who sat on the council, we felt that limiting terms 
might harm the ability of the museum to fulfill its mission in 
the future.
    Mr. Hinchey. The idea of term limits is an interesting one 
that gained some ascendancy here in the Congress a few years 
ago. I have noticed over a period of time, with regard to some 
people at least, the enthusiasm diminishes as one approaches 
the end of that term.
    Ms. Bloomfield. We have instituted term limits for members 
of our committees so that we ensure that there is a lot of 
rotation in terms of committee membership and leadership. We 
also have put in place kind of a nominating committee, it is 
not an accurate name given that we don't really control 
nominations to the council, but as a way to develop some 
criteria to present to the President. So hopefully we can get 
people with the qualifications that we need as the museum 
grows. So we have tried to address these issues in ways that we 
feel work best for us.

                              Fundraising

    Mr. Hinchey. You have been very active in private fund-
raising as well?
    Ms. Bloomfield. Yes. We have had over 300,000 individuals 
or corporations support the building of the museum or ongoing 
operations. Right now 40 percent of our base operating budget 
comes from the private sector.
    Mr. Hinchey. And you have an endowment as well?
    Ms. Bloomfield. We have just started to raise endowment 
funds. We have 77 million in the endowment. Most of it is for 
restricted programs; for example, fellowships for our Center 
for Advanced Holocaust Studies. A small portion is 
unrestricted, and we are in the process of launching a major 
endowment campaign.

                          Educational Outreach

    Mr. Hinchey. The idea of the outreach is very important, 
too, and I think this is becoming more and more popular and 
being done more and more effectively.
    We had the chairman of the Smithsonian here last week and 
he talked a great deal about the outreach of the Smithsonian 
generally. I think those efforts are very positive and 
absolutely should be encouraged so that people across the 
country can get an opportunity to see what is going on.
    Ms. Bloomfield. Right. Most Americans don't come to 
Washington and this summer one of the gratifying things, we 
sent an exhibit to Alaska and I got a letter from the public 
library in Juneau, and they said our exhibit produced the 
largest public program they ever had in the history of the 
library. So we can make a big impact in faraway places with a 
relatively small exhibition. We were very pleased.
    Mr. Hinchey. You seem to be doing a very good job. I think 
that feeling is echoed across the country from what I have 
heard from my own constituents and others in New York and 
elsewhere. What a powerful experience it is to visit the 
Holocaust Museum, and of course we all recognize, particularly 
our chairman recognizes, how important it is to have that 
experience available to people.
    Ms. Bloomfield. Thank you.
    Mr. Regula. We just had a new group of students join us. 
Where are you from?
    The Students. Falls Church.
    Mr. Hinchey. I think they cancelled classes there.

                            Reauthorization

    Mr. Regula. Where is the teacher? Do you have a teacher? 
Chaperone? Are you just in for the day?
    We are hearing testimony about the Holocaust Museum. I hope 
you will all visit it. If you haven't, you should. We fund it 
in our subcommittee, so we are pleased that you could come and 
visit us. We have a wide variety of responsibilities. We are 
going to have the Secretary of Energy this afternoon which will 
fill the room and then some.
    Sara, you are up for reauthorization?
    Ms. Bloomfield. Yes.
    Mr. Regula. How is that progressing?
    Ms. Bloomfield. We got approval from OMB. We made requests 
for a few changes. All of the ones other than this one 
requested by NAPA, we did submit. OMB approved the entire 
package. We submitted it to Congress on February 10th and right 
now it is working its way through the system to be assigned to 
its committees. We expect that it will go well.
    Mr. Regula. When does your authorization expire?
    Ms. Bloomfield. In September of this year.
    Mr. Regula. So you need to get it done this year?
    Ms. Bloomfield. Yes, and we would appreciate any help you 
would care to offer.
    Mr. Regula. I think some of the NAPA recommendations are 
being implemented with the authorizing language.
    Ms. Bloomfield. Yes.

                             Museum Website

    Mr. Regula. Do you have a website?
    Ms. Bloomfield. Yes.
    Mr. Regula. Do you get a lot of activity?
    Ms. Bloomfield. We have about one and a half million 
visitors a year and, like everybody else's, that is growing 
substantially. We use it for everything from basic information 
about how to visit, donate, buy books from our shop to 
exhibitions, scholarly programs. We try to really make it 
basically another door to the museum. Everything we do 
internally, if we can have a website version that is another 
way to expand our outreach.

                         Traveling Exhibitions

    Mr. Regula. Are you expanding the traveling exhibits as 
much as possible?
    Ms. Bloomfield. Yes, as much as possible and we plan to do 
more with that in the future. I would like to say that we fund 
that whole program basically from the private side, both within 
our operating budget and trying to find donors to support 
exhibits to come to various sites.

                      Council Fundraising Activity

    Mr. Regula. Do your council members raise money?
    Ms. Bloomfield. Miles has been extremely active in this 
regard, and some members of the council. I know NAPA referred 
to the fact that we need to have more council members engaged 
in that. I know Rabbi Greenberg will be engaged. I myself will 
be spending the majority of my time raising money as well.

                            Director's Goals

    Mr. Regula. You have had about a year now as Director. Have 
you accomplished the goals that you set out to achieve?
    Ms. Bloomfield. Well, in all honesty I set my sights very 
high. I feel like I laid the groundwork for a lot ofthings that 
I wanted to do. One of my issues was raising the level of 
accountability in the museum, improving some of the management 
structures. NAPA referred to this and I agreed very much with their 
assessment of some of those internal initiatives. I feel that we have 
made great progress. Certainly in creating the national presence, we 
are well on the way to doing that.
    And the other big goal I had was building the Center for 
Advanced Holocaust Studies, which I believe in the last couple 
of years is off the ground although it has more to go, and this 
is an area where we are raising private funding to support the 
growth of the Center. So I am pleased. Is there more I wish I 
could have done? Always. I hope I always have that attitude 
toward any job.

                   Collections and Space Requirements

    Mr. Regula. That is true. Your collections continue to 
grow. How do you foresee your space requirements?
    Ms. Bloomfield. There is a continued growth in collections. 
As you know, we are in a period when the survivor generation is 
passing on so a lot of them are ready to give their collections 
away or giving them to their children who in short order are 
donating them to the museum. I would guess that collections 
growth will maintain at this level certainly not indefinitely 
because we have a very finite period that we are devoted to. I 
think it is fair to say that probably for the next 10 years we 
will see this level and then we will see it taper off.
    We have space issues, as I think you know, in many areas of 
the museum, not only collection storage but office space. Right 
now we are in a holding pattern and trying to live with the 
space that we have because we are going to complete a strategic 
plan this year and there is no sense in expanding space until 
we really have laid out the future for the next 5 to 10 years. 
So we will hopefully get that done by the end of this year and 
then be able to have a long-term vision of the museum and what 
are all of our resource needs and how we can best meet them. 
Space does continue to be a problem, but for now we are trying 
to reconfigure to maximize the space we have.
    Mr. Regula. Well, it will be a problem. We know that you 
are hemmed in down there. I think probably you are wise in 
trying to think of ways in which to most effectively utilize 
what is available.
    Do you have any further questions, Mr. Hinchey?

                        Committee on Conscience

    Mr. Hinchey. Yes, Mr. Chairman. Thank you. There is 
something called a Committee on Conscience. Can you tell me 
what that committee's responsibilities are?
    Ms. Bloomfield. The Committee on Conscience actually went 
back to the original President's commission report, this was 
under President Carter, the commission he appointed under Elie 
Wiesel, produced this report and laid the blueprint for the 
museum. It recommended three things. The Memorial Museum, an 
Annual Commemoration, Days of Remembrance, which is held in the 
Capitol Rotunda, and the third recommendation was a Committee 
on Conscience because Elie Wiesel felt that ``a memorial 
unresponsive to the future would violate the memory of the 
past,'' and those are his words, and if there was a reason that 
you were building a Holocaust Museum, it was not to be static 
and looking backwards, but really to be a lesson and warning 
for the future, and that there was a moral obligation at the 
museum to speak out against contemporary manifestations of 
genocide.
    The idea is not to find ourself in a situation where we 
have to respond to genocide but to anticipate it before it 
breaks out. As we know sadly from history, once it breaks out 
and in this modern day it is usually in the context of war, it 
is very complicated to stop it or even respond to it. We hired 
a staff director last fall, and he is going to set up a series 
of educational programs, in many cases looking at recent 
genocides or past genocides in an effort to study them so we 
can better understand how this phenomenon erupts. We held a 
major conference at the museum in 1998 about preventing 
genocide. We brought people from all over the world from 
various perspectives, theologians, legal scholars, the 
military, governments, journalists, to all offer their 
perspectives on tackling this issue. Obviously it is one of the 
major issues confronting humanity. I hope that we can make a 
contribution. I think it is quite a daunting challenge.
    Mr. Hinchey. It certainly is. I assume that your attention 
was directed at Rwanda?
    Ms. Bloomfield. Yes. We did several public programs on 
Rwanda and Bosnia.
    Mr. Hinchey. That is a major contribution. I think that is 
certainly to be encouraged.
    Ms. Bloomfield. Right.
    Mr. Hinchey. I think Elie Wiesel was absolutely correct in 
that observation. Having this museum is very important 
obviously in and of itself because it tells a story about what 
happened, but the main point is to ensure that it doesn't 
happen again, and an ongoing dialogue and discussion about that 
area is very, very important. So I am very happy that you are 
doing that and I think that obviously should be encouraged.
    Ms. Bloomfield. Thank you.

                                Security

    Mr. Hinchey. Have there been any security arrangements or 
problems? I know that you had some increase for security?
    Ms. Bloomfield. Because of the nature of the institution, 
and Congressman Regula knows, we have devoted a substantial 
amount of resources to security. We have magnetometers and 
scanners at our entrances. I don't want tocompare us to other 
institutions, but I think that is unusual compared to the other 
cultural institutions on the Mall. We have gotten a lot of advice. We 
recently did a report through the Navy, asked them to do an assessment 
of our security, and we were granted, thanks to the generosity of 
Congress, $2 million to provide some extra infrastructure enhancements, 
one-time money to do that. So we do invest a lot in it and I am happy 
to report that we have had no problems.
    Mr. Hinchey. I just want to say thank you on my behalf and 
on behalf of the people that I represent for the wonderful job 
that you continue to do there. It is a great mission and we 
thank you for it.
    Ms. Bloomfield. Thank you.
    Mr. Regula. Mr. Dicks, do you want to make any comments?
    Mr. Dicks. No. I had a chance earlier this year to go 
through the Holocaust Museum and I was extremely impressed and 
feel that they are doing a tremendous job and hope that we can 
help them in their requests for additional funds. We are very 
pleased to have you here today.
    Ms. Bloomfield. Thank you.
    Mr. Regula. I am going to adjourn the formal part of this 
hearing and ask Rabbi Greenberg if he would like to make any 
off the record comments. So the committee is adjourned for this 
hearing.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, March 22, 2000.

                           THE PRESIDIO TRUST

                               WITNESSES

JAMES E. MEADOWS, EXECUTIVE DIRECTOR
CRAIG MIDDLETON, DEPUTY DIRECTOR, OPERATIONS AND GOVERNMENT AFFAIRS
BRUCE ANDERSON, DEPUTY DIRECTOR, FACILITIES
    Mr. Regula. Okay, we'll get started.
    We're pleased this morning to welcome you, Mr. Meadows. And 
I see you have Craig Middleton and Bruce Anderson with you. So 
if we stump you with questions, you can always turn to them. 
But I don't think that's going to be a problem.
    Your statement will be made a part of the record, and any 
summary you'd like to present to us, we'd be very interested.

                            Opening Remarks

    Mr. Meadows. Thank you very much, Mr. Chairman.
    My name is James Meadows. I'm the Executive Director of the 
Presidio Trust. I want to thank you for this opportunity to 
testify today on behalf of the board of directors of the Trust, 
and the many constituents, both in San Francisco and throughout 
the country. I want to express our appreciation for the support 
the Committee has given us over the years.
    You have already introduced my two staff members I brought 
along, and yes, I will turn around and ask for their help on 
any technical questions you might have.
    Earlier this month we had the opportunity to give you a 
personal briefing on what's happening at the Presidio. The 
Subcommittee was out there, I think, under two years ago. 
Things have changed in the last 20 months so dramatically that 
we would encourage, if the Subcommittee has the opportunity to 
visit, we would love to have you back and take a look at what's 
going on.
    We have submitted a full copy of our statement for the 
record, and I just wanted to touch on a few highlights rather 
than read it verbatim.
    First of all, I'm pleased to say that the Trust experiment, 
such as it has been termed by some people, is working at the 
Presidio. We are protecting the Presidio as a National Park and 
the park has probably never looked better, with the combination 
of the trust resources and the National Park Service's 
resources working in partnership.
    We are modernizing the infrastructure, rehabilitating and 
restoring buildings. We're creating a revenue stream that will 
allow us to be at a break-even position by the year 2013, and 
to maintain that break-even position well beyond that point.
    We are working primarily in partnership with the National 
Park Service and one of our key goals, again with some of your 
help, that we're working on is increasing the visitor 
experience at the Presidio.
    We are here today talking about and requesting our fiscal 
year 2001 budget. We're requesting a real dollar decrease in 
appropriations, larger than what was originally forecast in the 
financial management plan that was submitted in 1998. When the 
Trust assumed jurisdiction of Area B, as you recall, of the 
chart on my right, over there is the Area A, Area B map, and 
the green area is the area that the Trust manages, which is 
virtually all the buildings and 80 percent of the total area of 
the Presidio.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Meadows. We assumed control through no fault of anyone, 
but many of the historic buildings had suffered substantial 
deterioration. The infrastructure was not working properly. The 
environmental cleanup was at a standstill, and key revenue 
sources remained untapped.
    One week after we assumed management jurisdiction, on July 
8, 1998, we submitted a report to Congress which was our 
financial management plan for how we would break even by the 
year 2013. I can tell you that today the park buildings are 
being renovated and leased ahead of schedule. We have over 800 
housing units and 800,000 square feet of space that's been 
leased in less than 18 months. One-third of our infrastructure 
has been updated and we've assumed control over the 
environmental remediation in a landmark agreement with the 
United States Army. Revenues tripled over that time period.
    The financial management program basically submitted in 
July 1998 shows how we'll achieve that financial self-
sufficiency. It has four key elements: lowering operational 
costs by a minimum of 20 percent over what they were when we 
took over, and we're ahead of schedule on that;increasing 
revenues basically to allow us to lease out the existing historic 
buildings and non-historic buildings at market rates; reserves 
replacements. That was not originally contemplated, but if we have no 
appropriations and no taxing authority beyond 2013, we will have to 
have a reserve in place of almost $12 million a year for replacement of 
housing, replacement of buildings, trees, grass, roads, water systems, 
etc.

                          CAPITAL IMPROVEMENTS

    We have been able to substantially reduce our operating 
costs since we've taken over. We plan on further reductions by 
the year 2013. However, with two years of operating history, 
we've found that the original estimates that we inherited for 
the historic renovations were not sufficient for what it's 
going to cost. So whereas we originally thought it would take 
about $350 million to support all of the capital requirements 
to upgrade the Presidio, the actual cost will be closer to $450 
million. That's primarily in the area of historic renovation. 
By the time we take buildings and restore them to current code, 
to ADA qualification, to seismic requirements for San 
Francisco, all within the historic guidelines context, it costs 
a lot. They're very expensive to maintain, but they're well 
worth it because of the architectural style.
    Mr. Regula. You're talking about the housing and all the 
extra buildings that are there?
    Mr. Meadows. Yes, sir, all the historic buildings that are 
there.
    Mr. Regula. Well, when you're saying historic buildings, 
does that encompass most of the buildings?
    Mr. Meadows. It encompasses about half of the buildings 
that are there, sir. And in the Trust, you all provided us the 
flexibility that where a building is not financially feasible, 
we have the right to start the process of having that building 
taken down. But that is the process that we have to go through 
on historic guidelines.
    Basically, that $450 million also includes something that 
was not previously contemplated, and that's the fact that the 
historic forest, which is about 330 acres of the Presidio, is 
reaching its mature life. And over the next 30 years, we're 
going to have to replant a large portion of the Presidio and 
the historic forest to avoid a denuding effect. Because all the 
trees were planted at the same time, they're all reaching their 
life span at approximately the same time.
    We are working with the Park Service on a vegetation 
management program that will make an orderly process that will 
keep the Presidio as beautiful as it is today.

                       ENVIRONMENTAL REMEDIATION

    I'd like to just cover several specific issues that we have 
with you. Under environmental remediation, we believe this may 
be our most important achievement in 1999, and that is with the 
help of members of this Committee and others in Congress, we 
reached an agreement between the Army, the National Park 
Service and ourselves for taking control of environmental 
remediation at the Presidio. In that historical agreement, the 
Army transferred $100 million, or are in the process of 
transferring $100 million, to the Trust, and we take over 
responsibility and control of the environmental cleanup.
    That means four things. We can use private sector 
technologies to basically do the cleanup literally faster, 
better, cheaper. We can establish our own priorities so that 
basically if we know that we have to establish a certain area 
sooner, that we can do the remediation of that area sooner. We 
can work more closely with the local, State EPA and EPA as far 
as regulations they require.
    But to ensure we are able to do that, we did one other 
thing that's somewhat unique, and that is, we bought a $100 
million environmental insurance policy to cover ourselves for 
100 percent overrun. So we have characterized the costs, we 
think, quite closely. But we're covered up through costing of 
over $200 million.

                            LEASE AGREEMENTS

    In leasing, today we had over 100 organizations, as I said, 
we've leased about 800,000 feet of commercial space and over 
800 houses. We are the beneficiaries of a very strong real 
estate market in San Francisco. We're trying to take full 
advantage of that to increase our revenues and to sign up long 
term leases where possible.
    Those commercial leases include an already opened movie 
post-production studio, and high-tech tenants who are primarily 
related to the internet industries that are filling up the main 
post areas of the Presidio. In 1999, we advanced our lease 
agreement with the Lucas Film Works people, which we could not 
finalize until after we had published our environmental impact 
statement, which was just published March 17th. We will now 
finalize that lease on our preferred alternative, which is the 
Lucas Film Works. That will be the only major new construction 
on the Presidio, but that will be 900,000 feet of new 
construction taking the place of the 900,000 square foot 
Letterman Hospital.
    Mr. Regula. Will there be standards they have to meet to 
make it consistent with the rest of the buildings?
    Mr. Meadows. Absolutely. As part of the environmental 
impact statement we've put together design guidelines. And they 
have to meet our standards. We think that they're an ideal 
tenant for the Presidio, but we're not in awe of ``Star Wars,'' 
and basically they have to meet our standards. We're not 
working to theirs.
    One of the other things as far as leasing that we're very 
excited about is the fact that we've put together a partnership 
with a veterans health organization called Swords to 
Plowshares. And that's where a group of Vietnam era veterans 
who have fallen out of the mainstream are working with us. 
They're an established program that's been around for 20 years. 
And they're moving, after training off-site, they're moving 100 
veterans that basically will work and live at the Presidio for 
up to two years while they work back into the mainstream.
    This is part of our outreach, and it's a program that's 
been universally supported, nationally and locally. It's 
something that we feel this is a good program for us to be in.
    Mr. Regula. Would they live on the facility?
    Mr. Meadows. Yes, sir. They have taken over two buildings 
close to the Letterman complex. They're renovating those 
buildings at their cost. Then they will live and work there 
after they've been trained off-site for as much as two years. 
It's called the Veterans Academy, and once they graduate from 
their initial training, they would come to the Presidio.
    Mr. Regula. Will they get their training in some other 
government program, such as the various government-sponsored 
training units?
    Mr. Meadows. They do, but primarily they're locally funded. 
They do have some Federal grant monies, but they have their own 
training programs. And then we put them into jobs. We also have 
relationships with the San FranciscoConservation Corps, which 
basically they can become a part of. But they'll be working at the 
Presidio. Again, it's one of those programs where it's a winner for all 
parties.
    Mr. Regula. Sounds like a win-win situation.

                            ECONOMIC SAVINGS

    Mr. Meadows. Yes, sir.
    Under cost reductions, you and I have talked about these in 
the past, but basically with these infrastructure upgrades, 
we're saving almost $300,000 a year in sewer charges. We found 
a major water leak, the infamous water leak that was generating 
about a 2 million gallon of loss a year, which in and of itself 
is $900,000 in savings. These are just examples of the things 
that we're doing.
    In the renovation of our buildings, we saved almost $6 
million between what would have been contractors' costs. We 
actually hired crews of our own staff to do the renovations. In 
San Francisco, because it's such a good real estate market, the 
timeliness of outside contractors is difficult and the cost is 
prohibitive. So we've had to go to having some of our own crews 
for the smaller renovations and we've had substantial savings.
    In the commercially renovated buildings we've saved almost 
$2.6 million, basically, in what we're doing versus what would 
be outside contracts.
    In the areas of sustainability, the Trust is committed to 
sustainable practices. We will exceed the 2005 Federal 
Government standards for energy conservation by a full four 
years. By the end of 2001, we will have already exceeded the 
Federal guidelines that have been established to be set by the 
year 2005.
    We've established recycling policies that are doubling 
annually. We've received awards already from EPA in 1999 and 
from the National Conference of Mayors in 2000 for our 
environmental responsibility and recycling provisions. That 
means that we're deconstructing buildings rather than tearing 
them down. So rather than materials going out to a landfill, 
we're re-using the materials, we're grinding up the concrete 
and using it on site, rather than carrying it off to a 
landfill.
    Green building guidelines basically is an area where we had 
to establish because there were no green building guidelines 
for historic buildings. We actually established these 
guidelines and now they've been adopted by the National Green 
Building Council. And we've established them, we're using them 
at the Presidio.
    The chart on my right shows basically we're doing 
experiments with various alternative fuels for our vehicle 
fleet and for operations at the Presidio. We have our own CNG 
station, about 15 percent of our fleet is compressed natural 
gas vehicles. We've worked out a deal with Ford Motor Company 
and GSA where we're bringing in electric vehicles to experiment 
at the Presidio.
    And actually, taking it one generation further, we're 
entering into a car sharing program to try to get people who 
are already living there to share cars. Four vehicles will be 
brought in that will be allowed where they can rent by the hour 
and by the day, and where these are electric vehicles, 
primarily for commuting purposes back and forth.
    Mr. Regula. I notice that some of the car rental agencies 
are now allowing you to rent a car for a couple of hours 
instead of on a daily basis. And that gives more efficient use 
of the vehicles.
    Mr. Meadows. Yes, sir.
    Mr. Regula. So that's what you're doing.
    Mr. Meadows. That's what we're doing. Matter of fact, one 
or more of the car rentals companies will be managing that 
program for us. We like to manage programs instead of managing 
individual things like that.
    We are working with the Park Service in supporting their 
efforts on Crissy Field, which you've seen, which is a $32 
million environmental sustainability project which is being 
done down on the bay front of the Presidio. And that's all 
being done with private funding, philanthropic funding.

                            PRIVATE FUNDING

    Mr. Regula. The entire $32 million?
    Mr. Meadows. The entire $32 million, yes, sir.
    Mr. Regula. That's remarkable, to get that much in 
contributions. I know the Haas family has contributed.
    Mr. Meadows. The Haas family was very generous in their 
lead gift, and the people of San Francisco have been very 
generous in following up on that.
    In public programming, the goal of the Presidio is to make 
the Presidio a center for innovation and new technologies. As I 
mentioned, some of our new tenants will include Lucas Film 
Works. We have a division of Amazon.com, we have other internet 
related companies.
    One of the companies out there has the ambitious task; 
they're archiving the internet. They download the entire 
internet every month. That sounds unworkable, but basically 
they're archiving what we're doing today so that it can be seen 
for the future.
    Inspired by the language in this year's appropriations 
report, the Trust is collaborating with a team from the 
Smithsonian Institution to basically take a look at the 
affiliation process and try to become an affiliate of the 
Smithsonian Institution.

                           OUTREACH PROGRAMS

    Mr. Regula. You would contemplate an outreach program from 
the Smithsonian on a permanent basis there. Is that correct?
    Mr. Meadows. Yes, sir.
    Mr. Regula. And they would change the displays, I assume, 
periodically?
    Mr. Meadows. We are looking at the feasibility of a 
traveling display, which would change periodically, trying to 
set up a permanent display, but trying to, with Secretary 
Small's new outreach program, to try to create perhaps a 
permanent display museum at the Presidio. A team from the 
Smithsonian and a team we have hired are looking into that and 
will report back to the board in May.
    Mr. Regula. I think it's a great idea because it expands 
the outreach of the Smithsonian vastly.
    Mr. Meadows. Yes, sir.
    Just this month we've announced that we received a grant 
from the Irvine, the Packard and the Hewlett Foundations to 
study the feasibility of a thought center at the Presidio at 
Fort Scott. This would be a center for studies, long-term 
studies in the areas of, not necessarily limited to, but 
initially the areas of environment, population, the whole 
Pacific Rim association between what's now San Francisco and 
the Pacific Rim and the western United States and the Pacific 
Rim. We're going to study this program over the next six months 
and make a report to the Board of Directors about how we can 
turn the entire Fort Scott into a center for education.
    Part of that program will be using distance learning 
concepts. Because we have these high technology programs at the 
Presidio to initiate programs at the Presidio that couldbe used 
by other institutions.
    Mr. Regula. Do you have fiber optics underground? Do you 
have the capability so those tenants that will come in will 
have the ability to use their high speed transmittal equipment?
    Mr. Meadows. Thanks to the United States Army and also with 
some of the upgrades put in by the National Park Service before 
1988, we have a fiber loop that connects all of our commercial 
buildings currently. We're expanding that fiber loop, where 
right now it's just dark fiber. Through Mr. Anderson, all the 
buildings as we upgrade them and all the houses as we upgrade 
them, we're making them smart buildings.
    So not only do we have energy controls, where you have 
lights going on and off as you enter and exit the rooms, but we 
have them wired where literally a new tenant can walk in or a 
new resident can walk in and plug into the fiber loop and have 
high speed connectivity anywhere in the world.
    So we hope to expand on ideas that we created when we were 
working in Denver and make them much better and more high tech 
at the Presidio. With the type tenants that we're attracting, 
we're almost obligated to do that. They would not be there 
without that fiber loop. I'm grateful that it's there, but 
we're having to add substantially to it.
    Today, basically we are requesting $23.4 million for fiscal 
year 2001. This is a $1 million or 4 percent less than you 
provided us in fiscal year 2000. It's also a larger decrease 
than we submitted in 1998 for our financial management program 
of reduced appropriations between now and 2013.

                      TREASURY BORROWING AUTHORITY

    We're also requesting the remaining $10 million in Treasury 
borrowing authority. Our Treasury borrowing authority remains 
one of our greatest potential assets to achieve financial self-
sufficiency. Currently, it's one of our greatest impediments to 
that self-sufficiency, because we've not been able to tap 
effectively into that borrowing.
    This procedure was intended to be a simple loan basically 
between the Presidio Trust and the U.S. Treasury as any other 
Federal agency. And it has now become a very convoluted process 
that we're not able to basically get through at this point.
    The Treasury Department has made a policy decision because 
of their interpretation of the Trust Act that they are 
requiring the Trust to obtain a full investment grade credit 
rating before we can have access to those funds. At least in 
our opinion, the original Trust Act did not direct them to 
establish credit rating, it asked them to establish that there 
was creditworthiness of the loans.
    The Appropriations Committee and Congress put together a 
technical corrections bill just last year that was just signed, 
that changed the word ``determine creditworthiness'' to just 
``review the creditworthiness''. That has not resulted in a 
change in the process so far.
    Mr. Regula. We had provided language in our bill, but 
apparently the Treasury Department is ignoring it?
    Mr. Meadows. No, sir, that would be a wrong statement. I 
think they feel that the language doesn't give them the 
flexibility.
    Mr. Regula. They don't feel the language that's in the bill 
is adequate or what's in the Trust Agreement?
    Mr. Meadows. Yes, sir.
    Mr. Regula. So maybe that needs to be remedied.
    Mr. Meadows. There are other agencies, as far as we know, 
this is the only time a Federal agency has been required to 
obtain a credit rating for funds from another Federal agency. 
Organizations such as the Overseas Private Investment Corp. and 
the Import Export Bank, have hundreds of millions of dollars in 
loans, and they have no such credit rating. Basically the loans 
that we're using in this case are not to turn around and lend 
to other people, because they're for projects within the 
Presidio that remain the property of the Federal Government.
    Mr. Regula. What's their rationale? Do they give you one?
    Mr. Meadows. Their rationale, sir, as I understand it, is 
that the Trust Act, as their policy determination, that the 
Trust Act requirement that they either determine or review the 
creditworthiness, that they don't feel that they can establish 
internally a creditworthiness, so therefore they need an 
outside credit rating.
    Mr. Regula. Oh, okay.
    Mr. Meadows. We have given them two letters from two 
agencies establishing creditworthiness. But they're not full 
credit ratings, and they therefore feel that those are 
inadequate.
    I will tell you, we are working with Treasury, we are 
working with OMB, we are working together to try to resolve 
this. But right now, as it continues, it has cost us about $3 
million in lost revenue to date. And it will impede our self-
sufficiency plan if we don't resolve it. Because early dollars 
to this Trust Act are much more important than dollars that 
happen in years 14 and 15.
    To conclude, basically despite the impasse with Treasury, 
the Trust is on track to meet our twin goals of preservation 
and financial self-sustainability. The Park is flourishing. 
Your continued support has really helped to further the initial 
successes. The solution may only work in this unique setting, 
because the Presidio is very unique, but it is working.

                          CAPITAL IMPROVEMENTS

    Our funding for capital improvements remains from three 
sources: private funding, meaning the tenants come in and 
dotheir own improvements, such as basically the film center did $8 
million in improvements. If Lucas Film Works is signed, they'll be 
spending over $300 million in improvements for their own building.
    The lease revenues, basically that pays for our capital 
costs. The Treasury borrowing is the third key element.
    But I must reassure you all that the appropriation that you 
all have seen fit to give us on an annual basis remains the 
bedrock that allows us to use these other dollars to do these 
capital improvements of almost $450 million.
    I'd like to thank you for the support on behalf of the 
Trust and its board of directors. I again would like to invite 
you to visit the Presidio and see what's changing out there 
very, very quickly. And I'd be happy to answer any further 
questions you might have.
    [The written statement follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       ENVIRONMENTAL REMEDIATION

    Mr. Regula. Thank you.
    As you know, I was there a couple of weeks ago, had an 
opportunity to see the progress you've made. I told Mr. Hansen, 
who really was a key player in making this whole thing come 
together, that I think he'd be very proud of what's been 
achieved there. It's demonstrated an effective way to use a 
vacated base for the benefit of the recreation public as well 
as the housing public. And the community, of San Francisco 
benefits mightily.
    You're getting the remediation taken care of, do you think 
you'll make it with $100 million?
    Mr. Meadows. Yes, sir. We believe that we can produce it 
for a small amount less than $100 million. Our agreement is 
that we can use the balance of that money for any other 
environmental remediation.
    Mr. Regula. I was going to ask you if they'd let you keep 
the balance.
    Mr. Meadows. Not without strings attached. But as you know, 
as a matter of policy, the Department of Defense does not do 
cleanup for asbestos or lead-based paint. And that cleanup in 
and of itself is almost $40 million for all the buildings at 
the Presidio because of their age.
    So any excess that we have after we've done the cleanup to 
State and Federal standards will be used on other environmental 
remediation programs.
    Mr. Regula. Well, I assume you have some buried junk. Most 
military bases were not particularly careful about where they 
got rid of the motor oil and worn out products. You may even 
unearth a jeep. [Laughter.]
    Mr. Meadows. There is a story about a pool and a jeep 
somewhere in the Department of Defense that I've heard about. 
But we've been relatively fortunate that our underground 
components to the remediation are primarily landfills. Although 
the Army, I will tell you, does remain responsible for unknown 
contaminants. So if we come across something that is not 
characterized in both their studies and studies that we have 
done and we've all agreed to, then they're required to come 
back in and basically to pay for that cleanup.
    However, to avoid delays, the beauty of the insurance is 
that the insurance company would come in and do the work and 
then go back and discuss with the Army as far as who would pay 
on that. So that's why we have such a large insurance policy.
    Mr. Kingston. Mr. Chairman.
    Mr. Regula. Yes, go ahead.

                            LEASE AGREEMENTS

    Mr. Kingston. Mr. Meadows, who are your 14 tenants and how 
are they selected, and what is the lease agreement with them?
    Mr. Meadows. There is a wide variety of tenants. They range 
from small, non-profits that basically are clustered in what's 
called the Rowe Center, to existing tenants that we have that 
were signed by the Park Service, everything from things like 
the San Francisco Conservation Corps to an actual Burger King 
that was on the site. Then we have the more high tech tenants, 
the largest of which were the San Francisco Film Center, which 
is an organization put together for movie post-production 
studios that they sublet within their building.
    Mr. Kingston. Is it open to everybody, or are these tenants 
that tend to have a political nature, or an agenda?
    Mr. Meadows. Absolutely not. It's open to everybody. And 
our goal, whereas the original ideas for the Presidio was that 
it be a haven for non-profits only, our goal is to have a 
mixture of both non-profits and for-profits.
    Mr. Kingston. Is the rent a break?
    Mr. Meadows. A break?
    Mr. Kingston. Yes, is it from market?
    Mr. Meadows. No, sir, they're actually, all of our tenants 
are paying market rates for San Francisco. Basically the things 
that we have to offer that are different from downtown San 
Francisco is that we have this jobs-housing balance. So we have 
an opportunity for people to live and work there, which is a 
break, if you will.
    Mr. Regula. Excuse me, just give Mr. Kingston an idea of 
what a duplex, let's say, two bedrooms, would rent for there.
    Mr. Meadows. Well, at market rates, a two bedroom, two bath 
apartment in the Presidio would rent from $1,800 to $2,000 a 
month. To avoid this becoming an elitist type location, we have 
created a preferred renter program which basically allows those 
people in the lower echelon of the income stream to cap out 
their rent at 40 percent of their household income.
    That seems high, but in San Francisco, those same people 
are paying an average of 50 percent of their household income. 
So we're basically capping out their rent. For example, if they 
were making $25,000 a year, they could rent that same unit for 
$800 a month instead of $1,800. Again, our goal is to have all 
the housing in the Presidio filled with people that work there.
    Mr. Kingston. How many tenants will you have?
    Mr. Meadows. We'll have, as far as number of tenants, I 
can't show you today. We plan in our planning accounts for 
about 6,000 employees by the time we're completed.
    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Regula. I suggest if you have an opportunity, to go out 
and visit. I think it's a very innovative use of this base. It 
had these 800 units of housing for the military. And of course, 
the scenic location, beach front onthe San Francisco Bay and 
the Pacific Ocean are still retained by the Park Service.
    So it's worked out very well, and it's very handsome. I 
myself have spent quite a bit of time out there, and we did the 
legislation that made it all possible.
    Mr. Kingston. I remember when it was being debated. I was 
in San Francisco about three weeks ago, and wish I could have.
    Mr. Regula. If you can get out there, get hold of Mr. 
Meadows. It's worth your time to see it.
    Mr. Meadows. We'd love to have you out. I'd love to see you 
there.
    Mr. Regula. They are utilizing the resources.
    Mr. Kingston. Thanks.
    Mr. Regula. Mr. Dicks, ready to go.
    Mr. Dicks. Mr. Chairman, if you have any further questions, 
I'll get into this in a second.

                            Funding Request

    Mr. Regula. Yes. You're requesting $400,000 less in fiscal 
year 2001 than was indicated in your financial management 
program, and $1 million less than we appropriated last year. 
Was that your initial request to OMB?
    Mr. Meadows. No, sir, our initial request was $400,000 
higher, which was in keeping with our financial management 
program. We have agreed that this is within our constraints of 
what we can operate, and we'd like to show the fact that we're 
showing real decreases in advances scheduled as long as we can 
maintain that.

                         Management Challenges

    Mr. Regula. I think we discussed the cleanup, and you're 
saying it's going very well. What do you think is the greatest 
challenge you face, looking ahead in the management of the 
Trust?
    Mr. Meadows. The challenge is going to be that we won't 
always have this robust economic market that we're in today. 
And so both in our financial management program, we've used 
conservative numbers rather than the benefits that we're 
receiving today. So in the numbers that we're achieving today, 
we won't always be able to do that. But to the extent we can 
lock up long-term leases, then we will be able to take 
advantage of that market.
    The longer we have to delay improvements or delay our 
activities----
    Mr. Regula. Which reflects your bonding capacity issue, is 
that right?
    Mr. Meadows. Our Treasury borrowing, yes, sir.
    Mr. Regula. That's what I mean.
    Mr. Meadows. If we have to delay and we have a soft real 
estate market, then basically that will have an impact.
    Now, everyone hopes that the real estate market will never 
change. But I've been through three of these cycles now since 
1971, and basically it does change. So our biggest challenge is 
to get things done as quickly as possible.
    Mr. Regula. As part of the Trust could you accommodate a 
somewhat add-on arrangement for Fort Baker?
    Mr. Meadows. You see my gray hair, sir. That comes from 
operating the Presidio. [Laughter.]
    Fort Baker would be a challenge, and I think we have our 
hands full already. I'd just as soon leave that with the Park 
Service, if you don't mind.

                     Approach to Golden Gate Bridge

    Mr. Regula. Would the relocation of the Golden Gate Bridge, 
which as I understand it, is in the works, by the California 
Highway Department, have an impact on the Presidio?
    Mr. Meadows. That's actually the flyway; that's the bridge 
approach. It would not impact the bridge per se. But no, they 
wouldn't dare move the Golden Gate Bridge.
    But the Chairman is exactly right, the entrance to the 
bridge----
    Mr. Regula. That's what I'm referring to.
    Mr. Meadows [continuing]. Basically is right now a flyway 
that's not seismically improved. The plans are to bring that 
down to a surface level street. That will require, I assume, 
Federal funding in addition to California highway and transit 
funds. But those plans were part of a steering committee that's 
going through the environmental impact of that particular 
change right now.
    Given our 'druthers, we'd like to have it under 
construction in the next five years. How that's planned and 
what it does, could either split the Presidio in half or could 
make it a better place. With the plans that we've proposed and 
have been proposed by a major traffic designer, it actually 
would enhance the Presidio and the views of the Pacific Ocean, 
and the Golden Gate, San Francisco Bay.
    So it is a key element. The planning is underway. Right 
now, the flyway is non-seismically improved, although the 
bridge itself is being improved for seismic improvements. So 
that's a touchy question we still have to deal with.

                             Horse Stables

    Mr. Regula. What do you plan to do with the stables? I 
think they're still empty.
    Mr. Meadows. Not empty. We have a mounted horse patrol. As 
you know, our public safety is U.S. Park Police. They occupy 
one stable. Two of the stables are occupied temporarily by the 
National Park Service for archiving. As you know, we also have 
several batteries out there, which are concrete bunkers which 
are very dry, very secure, and much more amenable to things 
like archiving materials.
    So we're working with the Park Service to try to, over a 
period of time, make a transfer out of the stables into those 
bunker type facilities. When that's accomplished, we will be 
using those stables for commercial lease opportunities.
    Mr. Regula. The golf course you lease to the present 
concessionaire, is that correct?
    Mr. Meadows. Yes, sir.
    Mr. Regula. And I assume that's a pretty busy activity. Do 
you get a percentage of the receipts there?
    Mr. Meadows. Yes, sir. We get a percentage of the receipts, 
and that is a major revenue source for the Presidio Trust. It's 
in excess of $1 million a year.

                         Public Health Hospital

    Mr. Regula. Has there been any solution to what I think was 
a hospital on, it could be the south side?
    Mr. Meadows. The public health hospital.
    Mr. Regula. Yes, right.
    Mr. Meadows. The public health hospital, there's not a 
short-term solution. We had to pull that off the market because 
so many environmental issues surfaced. That's where the bulk of 
our environmental remediation activity will occur. The historic 
building itself was built in two time periods, the historic 
hospital was built in the 1930s, and then in the 1950s, there 
were two wings added. When they tied the two buildings 
together, we now have found that there may not be structural 
integrity, if you tear down the non-historic building, for the 
remaining historic building.
    So we're having to go back in and look at remediation, the 
standards of the building and whether or not they can be re-
used. Fortunately, the Trust Act that you all providedgives us 
the flexibility, if there isn't a feasible way to re-use that building, 
to actually cause it to be deconstructed. But our first goal is to re-
use it where possible. But that's going to take a couple of years to 
really work out.
    Mr. Regula. Mr. Dicks.

                            Funding History

    Mr. Dicks. I've had a chance to visit the Presidio, and of 
course, I appreciated the leadership that our Chairman has 
given us on this issue. And in general terms, as I look back at 
this, we've spent about $180 million, is that right?
    Mr. Meadows. As far as combination of appropriations----
    Mr. Dicks. Since 1994?
    Mr. Meadows. If you count the Army remediation funds, I 
think that would be accurate, yes, sir.
    Mr. Dicks. What have we basically achieved with that money, 
that investment?
    Mr. Meadows. Well, the $180 million you're referring to 
would be an aggregate amount of appropriations to date and 
future appropriations from the Department of Army for 
environmental remediation. I've been working in base closure 
now for about six years. And environmental remediation remains 
a hidden cost that is a very high cost for all base closure.
    The $100 million that we have been able to obtain for 
remediation at the Presidio will make it, as originally 
estimated, an avoidance cost that the Army might have spent to 
do the same level of cleanup, as much as $270 million to do the 
same cleanup over the same time.
    Mr. Dicks. So of the $180 million, $100 million has been 
used for cleanup?
    Mr. Meadows. The $100 million will be used for cleanup. 
We're just going into the cleanup process, sir. And then the 
$80 million you're referring to, I would assume, would be our 
appropriations since 1994. Those have gone toward operations. 
You all directed, in creation of the Trust, that you didn't 
want this to be the most expensive national park in perpetuity. 
And so the whole idea of the Trust is to basically reduce those 
appropriations to zero by the year 2013.
    Mr. Dicks. And so, the $24 million has been used to operate 
the Presidio? Because part of it is a park at this juncture?
    Mr. Meadows. It is all park, sir.
    Mr. Dicks. So how much of the $24 million per year has gone 
into, as you say, it says operating budget. Is that entirely 
for the operation?
    Mr. Meadows. Yes, sir. When we took over in 1998, the last 
year's operating budget for the National Park Service was 
actually, the total budget was almost $29 million annually. We 
are reducing our appropriations, which are by Trust Act a 
maximum of $25 million per year. We're reducing that annually, 
and then it goes to zero by the year 2013.
    What that accomplishes, which was your original question, 
sir, is that allows us to take the lease revenues and use that 
for about $450 million in capital improvements that have to be 
accomplished to bring all the buildings up to standard, all the 
infrastructure up to standard. And that's in addition to the 
environmental remediation.
    Mr. Dicks. Four hundred and fifty million?
    Mr. Meadows. Yes, sir.
    Mr. Dicks. Just to get the buildings in shape?
    Mr. Meadows. That's buildings, that's infrastructure, 
including roads, water and sewer system. That includes the 
actual forest itself, which will have to be replanted over the 
next 30 years. That includes the main plants areas, which have 
a lot of deferred maintenance associated with them.
    It's operating all the elements of a small city, when 
you're operating the 14,080 acres.
    Mr. Regula. Would you yield?
    Mr. Dicks. Yes, sure.

                            Military Housing

    Mr. Regula. Have you resolved the issue of the military 
housing? I know the military wanted to retain some housing 
there. Has that been worked out?
    Mr. Meadows. Yes, sir. We have not yet finally executed an 
agreement, but General Van Antwerp and the Pentagon and myself 
worked out an agreement. And we have local agreement with that. 
As you recall, the elements critical to us were that we not 
have to pay for the subsidy for the Army staying, because they 
have no mission at the Presidio, and that there be a definite 
time period when they would leave.
    And we worked out those two elements, where they'll be 
leaving over a period of five years. They're reducing from 306 
down to 22 units as of next year. And then basically at the end 
of five years, they will be gone totally from the Presidio. And 
they're paying for the cost difference between their allowance 
and what the markets are.
    So we're very happy. We believe that between ourselves and 
the Army, we've worked out a good agreement. We have an 
excellent relationship on all levels with the Army.
    Mr. Dicks. Is the $100 million, are they going to provide 
$100 million for the cleanup?
    Mr. Meadows. Yes, sir.
    Mr. Dicks. When does that happen?
    Mr. Meadows. The first $50 million has already been funded 
to the Presidio trust out of BRAC appropriations for the year 
1999 and 2000. And the balance is due over the next two years, 
subject to their annual appropriations.
    Mr. Dicks. So the $100 million for the remediation is paid 
for by the Army?
    Mr. Meadows. Yes, sir.
    Mr. Dicks. Will that do the entire job?
    Mr. Meadows. Yes, sir, it will.
    Mr. Dicks. So the $180 million, that is a separate item?
    Mr. Meadows. No, sir. The $180 million, I'm not totally 
familiar with your numbers.
    Mr. Dicks. Well, we just have this chart, let me show it to 
you. On the last, from 1994 through 2000, if you add it up, 
it's roughly $180 million.
    Mr. Meadows. Then we are talking, I'm talking apples and 
oranges.
    Mr. Dicks. We're talking two different things?
    Mr. Meadows. Yes, sir.
    Mr. Dicks. The $100 million comes from the Army, from BRAC?

                            Funding History

    Mr. Meadows. That's correct.
    This number that you're referring to is the funding 
history. That includes the first four years, first five years 
for funding two operational budgets to the National Park 
Service, and then from 1999 through 2001, that includes funding 
for either the National Park Service or the Presidio Trust.
    If we could put up the AB chart there. The way in which the 
Trust Act is set up, the Presidio Trust operates and manages 
the green area of the Presidio, which is virtuallyall the 
buildings and 80 percent of the total land area, and the National Park 
Service operates the beach fronts and the bay front.
    Mr. Dicks. Okay. So they're still doing that separately?
    Mr. Meadows. Yes, sir. Separately is probably too strong a 
word. We work together.
    Mr. Dicks. Right.
    Mr. Meadows. We do a lot of their maintenance work for 
them, they basically help us with interpretive services. So 
it's a partnership for the whole Presidio.
    Mr. Dicks. Can you give us some examples of how the Trust 
is bringing private investment to the Presidio?
    Mr. Meadows. Yes, sir. One of our functions, because of our 
limited borrowing authority, is that we have asked tenants to 
come in and do their own improvements to the buildings, and 
then we've lowered their rent for the time period that they're 
repaying. In the case of the San Francisco Film Center, 
basically $6.6 million they brought in with their own money, to 
renovate that building. We reduced their rent for the next 20 
years. And then they go to market rates.
    In the case of the Lucas Film Works, when we finalize that 
lease, they're building 900,000 square feet and ground leasing 
the property from us. They will put in almost $300 million of 
their own capital to build their 900,000 square foot structure.
    We had received funds from various agencies, for instance, 
the San Francisco International Airport had a mitigation issue. 
And we're renovating a lake that's on the Presidio. They gave 
us $500,000, because that was their offset for mitigation of 
wetlands. And we're able to use those mitigation funds to do 
the restoration of Mountain Lake.
    We also have received over $32 million in private 
endowments for projects on the Presidio. The most obvious one 
of which is Crissy Field. That was all philanthropic money that 
was funded by citizens of San Francisco.
    Lesser amounts----

                              CRISSY FIELD

    Mr. Dicks. Tell me about Crissy Field again. Explain what 
happens there.
    Mr. Meadows. Crissy Field is the front door to the Presidio 
and San Francisco Bay. Two years ago, it was an area of cyclone 
fencing, asphalt, concrete and basically that's all been taken 
down. There was a marshland recreated that opens to San 
Francisco Bay. That has been completed. There's a grass area on 
the west end of Crissy Field that's being restored as if it 
were the natural airfield that was there before the Golden Gate 
Bridge.
    So that whole project, which will create this marshland, 
the wetlands, and then this open area at our front door, will 
all be completed by August. And that's all being done with 
private philanthropic dollars.
    Mr. Dicks. Congratulations. That's good. I remember when we 
were there, you mentioned that.
    Do lease agreements signed with commercial entities specify 
in detail what activities are and are not allowed in terms 
which clearly protects the public nature of the Presidio?
    Mr. Meadows. Absolutely. In addition to what activities 
they can perform, they also very specifically say how they must 
improve the buildings, what they can and cannot do, and more 
importantly, what sort of outreach do they have to basically 
make the park a better place.

                               OPEN SPACE

    Mr. Dicks. What are the rules under the Trust for 
protection of green spaces and different animal and plant life 
which is indigenous to the property?
    Mr. Meadows. First of all, our primary rule comes right out 
of the Trust Act, and that is that we will only do development 
within disturbed areas and the 800 acres of open space which 
comprise the natural areas of the park will be absolutely 
preserved.
    Our second goal, which we are achieving, is to increase 
that open space by about 200 acres, so that out of the 1,500 
acres of the Presidio, over two-thirds will be open space in 
perpetuity. Working with the National Park Service, basically 
we are working with native plant restoration, including plants 
that are on the endangered species list. We're working with the 
Presidio forest as far as that replanting is concerned. That 
will be accomplished over the next 30 years, in partnership 
with the National Park Service.

                             FINANCIAL PLAN

    Mr. Dicks. The Trust submitted a 15 year financial plan in 
1998, as required by the authorizing statute. What is the total 
Federal appropriation envisioned under this plan?
    Mr. Meadows. The total appropriation, I haven't added up 
exact figures, but it started with $25 million, it reduces by 
roughly 4 percent a year. We're actually reducing it in excess 
of that this year. And then by the year 2013, it's for zero 
appropriations from there forward for the Presidio.
    Mr. Dicks. Put that in the record, please. I assume we have 
a copy of the financial plan, but I'd like to know for the 
record what the anticipated number is.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Dicks. The law requires that you be entirely 
independent, as you've mentioned, financially, after 2013. What 
are the responsibilities of the Trust to the public after the 
Federal appropriation ends?
    Mr. Meadows. Our responsibilities are, we are a National 
Park, sir, and are responsible to a national constituency. And 
the board is committed, and by law required, to enhance the 
open space and to create furthervisitor experience 
opportunities in this most urban National Park.
    Mr. Dicks. The budget includes the last $10 million of the 
$50 million of public financed borrowing authorized in 1996. 
Are these funds used for specific, unique purposes, or just as 
a part of general renovation financing?
    Mr. Meadows. These funds are intended to be used for 
basically specific projects that are capital improvements, 
primarily to historic buildings, to bring them up to code 
standards, both seismic code, building code, ADA qualifications 
and historic renovation standards. As I mentioned earlier in my 
testimony, we have not yet been able to effectively use those 
funds because of an impasse we had with Treasury over how to 
use the funds.

                      TREASURY BORROWING AUTHORITY

    Mr. Dicks. So are you trying to work this out with 
Treasury?
    Mr. Meadows. Yes, sir, we are.
    Mr. Dicks. What's the sticking point?
    Mr. Meadows. The sticking point is the Trust Act as 
modified by language that was just put into law these last two 
weeks, was that the U.S. Treasury Department would review the 
creditworthiness of the projects for which the funds were to be 
used. As a policy matter, Treasury is determined that this 
means that we would get a formal, outside credit rating from 
two credit agencies for a BBB rating or one agency for a AA 
rating. That's almost impossible to get, and it's the first 
time that a Federal agency has been required to obtain a credit 
rating to get a loan from another Federal agency.
    Mr. Dicks. So do you need to have the statute clarified?
    Mr. Meadows. We've attempted to clarify the statute. We are 
asking for help to try to get this resolved. I think it could 
be resolved at the policy level.
    Mr. Dicks. You don't think it requires legislation?
    Mr. Meadows. It may. But from our position, it could be 
done on a policy level.
    Mr. Dicks. Do you have terms for repayment?
    Mr. Meadows. No, sir, we have terms for repayment which 
allow for 15 years of interest only and 15 years of repayment 
of the full $50 million. And that's part of our financial 
management program. Of course, also in our financial management 
program we anticipated use of those funds starting last year.
    Mr. Dicks. And you haven't been able to do that?
    Mr. Meadows. Yes, sir.

                            LEASE AGREEMENTS

    Mr. Dicks. Are you on schedule for leasing all 1,100 
housing units which are described in the budget?
    Mr. Meadows. We're actually ahead of schedule and ahead of 
rate schedule. We have the benefit right now of an almost 
insanely strong real estate market in San Francisco. We have 
leased every unit that we have available to rent so far. We 
have about a 3 percent vacancy rate, and we're renovating 40 
units per month. By the end of this fiscal year, we'll have all 
1,116 units rented. And by the end of fiscal year 2002 we 
actually we will have all those at market rates, except for a 
very specific program that we have that's called our preferred 
renter program, which makes sure that people of lower income 
streams that work at the Presidio have the right to live there. 
So we reduce the rents for those people working at the Presidio 
in that lower income stream.
    Mr. Dicks. Well, that's very good. Could you describe the 
range of housing which will be available, including the range 
of rents being charged?
    Mr. Meadows. Yes, sir.
    In San Francisco today, a two bedroom, two bath apartment 
will bring approximately $1,800 to $2,000 per month for rental. 
A four or five bedroom, three bath home or duplex, as most of 
the homes are in the Presidio, will bring between $5,000 and 
$7,000 a month in average rental.
    This would drive out all but senior managers from the 
Presidio. So we've established this program for both public 
safety people, our park police, our fire department, and for 
people in the lower income spectrums, that their rent is capped 
at 40 percent of their household income. So that the single 
apartment that would rent for $1,800 to $2,000 a month could 
rent for $800 a month for someone making $25,000 a year.
    But that's limited solely to people that work at the 
Presidio. That's not a general public discount program.
    Mr. Dicks. I think that's it, Mr. Chairman. Thank you. I 
want to congratulate you. I think you're doing a great job. We 
hope this works for you.
    Mr. Meadows. Thank you.
    Mr. Regula. It really is impressive. I was there a couple 
of weeks ago.
    Mr. Cramer, do you have any questions?
    Mr. Cramer. Mr. Chairman, a couple of brief comments. I 
wanted to come in and, unfortunately, I had to be very late 
coming in to tell you that from what I know, I appreciate what 
you're doing. Also, to make sure I had the opportunity to 
really believe that you were requesting a decrease in 
appropriations.
    The housing issue, does that provide 50 percent of all your 
trust revenue?
    Mr. Meadows. Actually, it's closer to 60 percent. It's 57 
percent of our total trust revenue will come from housing 
rentals. And that's not likely to change over the long term.
    Mr. Cramer. Keep up the good work.
    Thank you, Mr. Chairman.

                               OPEN SPACE

    Mr. Regula. Okay, well, thank you very much.
    I'm just curious, I noticed that from the chart, the Park 
Service hooks around the back there. Yes, the brown, down on 
the left there.
    Mr. Meadows. Yes, sir.
    Mr. Regula. What is that? There's a frontage, obviously.
    Mr. Meadows. That represents both the native plants area 
and also an area that's been under their control that's an 
endangered species area.
    Mr. Regula. So it's just an open space?
    Mr. Meadows. Yes.
    Mr. Regula. Sort of a natural area, you might say.
    Mr. Meadows. Yes, sir.
    Mr. Regula. And when you replace the forest, do you try to 
replace it with similar trees?
    Mr. Meadows. There are several driving questions regarding 
the types of trees we're going to replace. We have the trees 
people that would like more trees, we have the plants people 
that would like more plants. So we have the types of trees, the 
location of the trees, and even how to plant them. As you know, 
the signature of the Presidio are the plantation style planting 
of rows and columns of trees, which we find quite enchanting. 
Some people would rather see us plant a more natural forest.
    So we have a lot of input. [Laughter.]
    Mr. Regula. I'm sure you have a lot of input on the 
wholemanagement of the Presidio.
    Mr. Meadows. Yes, sir, we do.
    Mr. Regula. And you're working with the Forest Service 
people and other knowledgeable people to determine what you'll 
do when those trees need to be replaced.
    Mr. Meadows. We have the expertise of the National Park 
Service. We have our own forestry people that we've brought on 
board. I believe it just started this week. We have the person 
who did the major replanting of Golden Gate Park that worked 
for the city park system. We have his expertise of going 
through this very type program we're entering into.
    We also brought in people from around the country that have 
expertise in these areas to say how we can best replant this 
forest. This is a one-time, very unique place, and we want to 
make sure that we do it right.
    Mr. Regula. I think you said what percent of the entire 
1,500 acres is open space.
    Mr. Meadows. When we're completed, almost two-thirds. Right 
now, it's 800 acres of the 1,500 acres, and it will be 1,000 
acres when we're completed.
    Mr. Regula. Mr. Dicks, do you remember those white 
buildings that they were talking about tearing down on the 
Pacific side? They made those into nice apartments.
    Mr. Dicks. Good.
    Mr. Regula. Well, thank you very much, and congratulations 
on a good job.
    Mr. Meadows. Thank you very much, sir.

                               VOLUNTEERS

    Mr. Regula. We'll recess until 11:00 o'clock, or as soon as 
we get back from the vote, and we'll hear from the Energy 
Information Agency.
    Let's keep the record open. A couple of quick questions. I 
was interested, do you have volunteers out there?
    Mr. Meadows. Sir, we couldn't reach our overall goals 
without a very extensive volunteer program, started by the 
National Park Service. And we're trying to augment and continue 
that.
    We have several hundred thousand hours of volunteer 
programs where they're doing plantings. They're doing actual 
endangered species plants. They're generating new plants, by 
going out and harvesting the seeds, planting them in nurseries, 
and then replanting them on the grounds.
    Mr. Regula. I noticed in your brochure you had school 
groups.
    Mr. Meadows. Yes, sir, we have school groups that come out, 
both for education, and then they get for-credit courses by 
working at the Presidio with National Park Service or Trust 
employees. It's a very extensive program and it's a very 
rewarding program.
    Mr. Regula. I noticed you have ROTC training. So you must 
have some elements of the military program if they're using the 
space.
    Mr. Meadows. Well, we have, it's more of a matter that we 
have the San Francisco Conservation Corps, we have Americorps 
out there, that they're also training, and they're utilizing 
space. On the other side of the spectrum, we also have the 
Bureau of Prisons that has basically prisoner help that comes 
out to help us on our actual open area space.
    Mr. Regula. So you have involvement of a lot of groups?
    Mr. Meadows. Yes, sir, we do.
    Mr. Regula. Thank you very much.
    [Recess.]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               WITNESSES

                              ----------                              
                                                                   Page
Anderson, Bruce..................................................   592
Bass, Hon. C.F...................................................   624
Bereuter, Hon. Doug..............................................   628
Bilbray, Hon. Brian..............................................   631
Bloomfield, S.J..................................................   561
Brown, E.R.......................................................   561
Brown, Hon. Sherrod..............................................   634
Crowley, Hon. Joseph.............................................   637
Cubin, Hon. Barbara..............................................   640
Dailey, Gen. J.R.................................................     3
DeLauro, Hon. Rosa...............................................   642
Deutsch, Hon. Peter..............................................   644
Ferris W.R.......................................................   382
Ford, Hon. Harold, Jr............................................   646
Frank, Hon. Barney...............................................   650
Gaglione, J.R....................................................   561
Gantt, H.B.......................................................   542
Gejdenson, Hon. Sam..............................................   652
Gibbons, Hon. Jim................................................   655
Gilman, Hon. B.A.................................................   657
Gordon, Hon. Bart................................................   661
Gutknecht, Hon. Gil..............................................   682
Hall, Hon. T.P...................................................   665
Hamilton, L.H....................................................   120
Hayworth, Hon. J.D...............................................   678
Hinojosa, Hon. Ruben.............................................   669
Hooley, Hon. Darlene.............................................   672
Ivey, William....................................................   158
Kennedy, Hon. P.J................................................   676
Kildee, Hon. D.E.................................................   678
Kind, Hon. Ron...................................................   682
Leach, Hon. James................................................   682
McGovern, Hon. J.P...............................................   690
Meadows, J.E.....................................................   592
Mica, Hon. J.L...................................................   686
Middleton, Craig.................................................   592
Nadler, Hon. Jerrold.............................................   692
Neal, Hon. R.E...................................................   696
Newman, C.B......................................................     3
O'Connor, J.D....................................................     3
Oberstar, Hon. J.L.............................................682, 700
Ortiz, Hon. S.P..................................................   702
Pastor, Hon. Ed..................................................   703
Portman, Hon. Rob................................................   706
Radanovich, Hon. George..........................................   710
Rahall, Hon. Nick................................................   712
Rice, R.H., Jr...................................................     3
Robinson, M.H....................................................     3
Shays, Hon. Christopher..........................................   714
Sheppard, Beverly................................................   462
Sherman, Hon. Brad...............................................   716
Slaughter, Hon. Louise...........................................   718
Small, L.M.......................................................     3
Stupak, Hon. Bart................................................   722
Tancredo, Hon. Tom...............................................   726
Taylor, Hon. Gene................................................   729
Visclosky, Hon. P.J..............................................   731
Weller, Hon. Jerry...............................................   734
Weygand, Hon. Bob................................................   736
Wharton L.C......................................................     3
Wilker, L.J......................................................    86
Wolf, Hon. F.R...................................................   739
Wu, Hon. David...................................................   741


                               I N D E X

                              ----------                              

                        Smithsonian Institution

                                                                   Page
Additional Committee Questions...................................    58
Administrative Systems...........................................10, 35
Admission Fees...................................................    75
Affiliations Programs.........................................5, 69, 80
Biographies of Principal Witnesses:
    Dailey, John R...............................................    26
    O'Connor, J. Dennis..........................................    24
    Newman, Constance Berry......................................    23
    Rice, Richard H., Jr.........................................    28
    Robinson, Michael H..........................................    27
    Small, Lawrence M............................................    21
    Wharton, L. Carole...........................................    25
Business Ventures................................................    73
Communications and Education Programs............................    67
Condition of Smithsonian Buildings...............................    11
Construction.....................................................    77
Fiscal Year 2001.................................................    74
Fundraising......................................................    13
Future Expansions................................................    73
Health of the Smithsonian........................................    35
Information Technology and Collection Access.....................    66
Maintenance Backlog..............................................11, 43
Management Team..................................................    13
National Air and Space Museum Dulles Center..............51, 44, 58, 80
    Artifacts....................................................    55
    Budget Request...............................................    51
    Contribution of the Commonwealth of Virginia.................    50
    Cost of Dulles Center........................................    52
    Groundbreaking...............................................    53
    National Campaign............................................    50
    Percent of Air and Space Artifacts on Display................    53
National Museum of the American Indian...........32, 38, 54, 71, 80, 81
    Pequot Tribe Contribution....................................    33
National Science Resources Center................................    42
    Leadership and Assistance for Science Education Reform 
      Initiative.................................................    42
    Corporate Contributions to School Districts..................    40
National Zoological Park.........................................30, 55
    Death of Two Zebras..........................................    30
    Farm Exhibit.................................................    56
Opening Remarks..................................................     3
Opening Statement................................................     3
Outreach Activities..............................................    37
    Affiliations Program.........................................    69
Patent Office Building...........................................    32
Questions submitted for the record...........................58, 79, 81
    From Chairman Regula.........................................    58
    From Representative Norman Dicks.............................    79
    From Representative George Nethercutt........................    81
Repair, Restoration and Alterations..............................12, 76
    Backlog Maintenance..........................................11, 43
Smithsonian Astrophysical Observatory............................     9
    Cassiopeia A................................................. 9, 41
    Chandra X Ray Observatory..................................7, 9, 41
    Internet.....................................................    30
Smithsonian Education Programs...................................    39
    Educational Outreach.........................................    42
    World Wide Web...............................................29, 30
Smithsonian Science Activities...................................29, 79
    Public Awareness of Smithsonian Science...................... 7, 36
    Science Goals................................................    10
    Scientific Research.......................................7, 41, 80
Smithsonian Reorganization.......................................34, 79
    Reorganization Plans.........................................    58
    Reprogramming................................................    36
Testimony of Lawrence M. Small, Secretary........................    15
Victor Building..................................................    70

                         John F. Kennedy Center

Additional Questions for the Record..............................   110
Biography of Lawrence J. Wilker..................................    99
Board of Trustees................................................    91
Conclusion.......................................................    98
Fiscal Year 2001 Capital Repair Program..........................    93
Fiscal Year 2001 Operations and Maintenance Program..............    93
General Accounting Office (GAO) Audit Requirement................    94
History..........................................................    90
Introduction.....................................................    89
Kennedy Center Artistic Programming..............................    94
Kennedy Center Building..........................................    91
Kennedy Center Education Programming.............................    95
Other Services--Capital Repair and Restoration...................   103
Other Services--Operations and Maintenance Account...............   102
Performing Arts for Everyone.....................................    97
Preliminary Priority Minor Repair Listing........................   107
Questions from Mr. Dicks.........................................   116
Sources of Income................................................    91
Statement of Witness.............................................    86
Use of Appropriated Funds........................................    92
Written Testimony................................................    89

                         Woodrow Wilson Center

Woodrow Wilson International Center for Scholars..........119, 120, 142
    2001 Budget Questions......................................148, 152
    Biography:
        Lee H. Hamilton..........................................   133
    Center Programs..............................................   124
    Conclusion.................................................132, 141
    Congress Project.............................................   125
    Director's Forums.....................................120, 121, 136
    Director's Statement.........................................   128
    Fund-Raising.................................................   126
    Implementation of NAPA Report................................   142
    Introduction.................................................   120
    Joint Ventures...............................................   127
    Kennan Institute...........................................124, 138
    Mission of the Center........................................   129
    Other Project Initiatives....................................   125
    Policy Relevant..............................................   138
    Program Activities...........................................   129
    Public Affairs...............................................   126
    Public Policy................................................   136
    Questions from Mr. Dicks.....................................   152
    Questions from the Committee.................................   142
    Scholars...................................................135, 137
    Student Programs.............................................   137
    Student Visitors at Hearing..................................   139
    Taxpayer.....................................................   135
    The Wilson Quarterly.........................................   124
    Themes.......................................................   126
    Unfinished Business..........................................   130
    Website......................................................   136
    Wilson Film..................................................   140
    Witness List.................................................   120

                    National Endowment for the Arts

National Endowment for the Arts..................................   158
    After School Programs........................................   178
    Arts and the Political Climate...............................   183
    Arts Education...............................................   177
    ArtsREACH Program............................................   175
    Challenge America Program....................................   175
    Challenges for Arts Organizations............................   189
    Chief Financial Officer's Act................................   188
    Community Outreach...........................................   176
    Congressional District/NEA Direct Grants.....................   162
    FY 1997-2000 Average Grant Size..............................   161
    FY 1997-2000 Organizational Grant Chart......................   160
    Hilltop Artist in Residence Program..........................   174
    Moving to New Office Space...................................   190
    NEA History..................................................   190
    NEA Reforms................................................179, 184
    Obligations of NEA Beneficiaries.............................   186
    Opening Remarks..............................................   158
    Photograph of Glass Vessels..................................   164
    Private Sector Funding.......................................   184
    Questions for the Record.....................................   193
    Response to Question from Mr. Obey...........................   180
    Witness, Chairman William Ivey...............................   158
    Written Statement of Chairman Ivey...........................   166

                 National Endowment for the Humanities

``Extending the Reach'' and Other Initiatives....................   384
1999 Book Prize List.............................................   386
Combatting ``Historical Amnesia''................................   397
Funding for ``Extending the Reach'' Activities...................   407
Impact of Level Funding..........................................   397
Impact of the FY 1996 Funding Cuts...............................   399
Inadequacy of the New Budget.....................................   406
Justification for $150 Million Budget............................   397
Leveraging Private Sector Dollars................................   404
NEH Programs for Teachers........................................   408
NEH's EDSITEment Web Site........................................   404
New Programs for Rural Areas.....................................   406
Non-Federal Support for the Humanities...........................   412
Opening Remarks..................................................   382
Outreach and ``Rediscovering America''...........................   398
Outreach Efforts.................................................   396
Question from Representative Obey................................   401
Questions from the Committee.....................................   415
    Accomplishments..............................................   415
    Administrative Issues........................................   451
    Alternative Funding..........................................   432
    Authorization................................................   415
    Division of Research Programs................................   443
    Education....................................................   420
    Funding Priorities...........................................   416
    Performance Plan.............................................   456
    Regional Humanities Centers..................................   429
    Specific Funding Increases...................................   438
    State Programs...............................................   431
Reaching Rural Communities.......................................   405
Regional Humanities Centers......................................   384
Schools for a New Millennium Initiative..........................   410
State Humanities Councils and the Regional Centers...............   409
Statements of Chairman Ferris..................................382, 389
Stimulating Private Giving.......................................   396
Support for Documentary Films....................................   383
Volume of Grant Applications.....................................   396

                    IMLS--Office of Museum Services

Questions from the Committee.....................................   466
Statement of Acting Director Sheppard............................   462

                        Commission of Fine Arts

Questions from the Committee.....................................   485
Statement of the Commission......................................   478

               Advisory Council on Historic Preservation

Appendix A Cases.................................................   514
Council Membership...............................................   534
Prominent Questions..............................................   520
Questions from the Committee.....................................   496

                  National Capital Planning Commission

Questions from the Committee.....................................   548
Statement of Chairman Gantt......................................   542

                       Holocaust Memorial Council

United States Holocaust Memorial Council.........................   561
    Biography: Sara Bloomfield...................................   568
    Collections and Space Requirements...........................   572
    Committee on Conscience......................................   573
    Council Chair................................................   563
    Council Fundraising Activity.................................   572
    Council Member Term Limits...................................   569
    Director's Goals.............................................   572
    Educational Outreach.........................................   570
    Federal Appropriation........................................   562
    Fundraising..................................................   570
    Museum Website...............................................   571
    National Academy of Public Administration Report.............   569
    National Academy of Public Administration Study..............   563
    National Outreach............................................   562
    Private Funding..............................................   562
    Questions submitted for the record...........................   575
        Additional Committee Questions...........................   586
            2001 Budget Questions................................   586
            Outreach Program.....................................   587
        Chief Information Officer................................   585
        Committee on Conscience..................................   583
        Deputy Director..........................................   582
        Director's Goals.........................................   581
        Fundraising..............................................   577
        International Activities.................................   584
        National Academy of Public Administration Report.........   575
        National Academy of Public Administration Report.........   576
        National Academy of Public Administration Report.........   578
        National Outreach........................................   583
        Public-Private Partnership...............................   581
        Questions From Mr. Dicks.................................   588
            Conference on Holocaust-Era Assets...................   590
            Museum Passes........................................   589
            National Academy of Public Administration Report.....   588
            Participation in Non-traditional Activities..........   590
            Public-Private Partnership...........................   589
        Reauthorization..........................................   575
        Resignation of Council Chair.............................   577
        Security Upgrades........................................   580
        Space Requirements.......................................   582
        Strategic Planning.......................................   581
        Use of Technology........................................   585
        Visitation...............................................   583
        Y2K Problem..............................................   584
    Reauthorization..............................................   571
    Security.....................................................   574
    Statement by Sara Bloomfield.................................   564
    Traveling Exhibitions........................................   572
    Visitation...................................................   561
    Witnesses....................................................   561

                             Presidio Trust

Approach to Golden Gate Bridge...................................   611
Capital Improvements...........................................595, 601
Crissy Field.....................................................   616
Economic Savings.................................................   597
Environmental Remediation.................................596, 605, 609
Financial Plan...................................................   616
Funding History................................................613, 615
Funding Request................................................607, 611
Horse Stables....................................................   612
Lease Agreements..........................................596, 609, 619
Management Challenges............................................   611
Map of the Presidio..............................................   594
Military Housing.................................................   614
Open Space.....................................................616, 620
Opening Remarks..................................................   592
Outreach Programs................................................   599
Private Funding..................................................   598
Public Health Hospital...........................................   612
Statement of James E. Meadows....................................   602
Summary of Annual Cash Flows.....................................   618
Treasury Borrowing Authority...................................600, 619
Volunteers.......................................................   622
</pre></body></html>
